1a
In the
United States Court of Appeals
For the Seventh Circuit
____________________
No. 17-2428
PLANNED PARENTHOOD OF INDIANA
AND KENTUCKY, INC.,
Plaintiff-Appellee,
v.
KRISTINA BOX, Commissioner,
Indiana State Department of Health, et al.,
Defendants-Appellants.
____________________
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:17-cv-01636 – Sarah Evans Barker, Judge.
––––––––––––––––––––
ON REMAND FROM THE SUPREME COURT OF
THE UNITED STATES
DECIDED MARCH 12, 2021
––––––––––––––––––––
Before KANNE, ROVNER, and HAMILTON, Circuit
Judges.
HAMILTON, Circuit Judge. This appeal returns to
us on remand from the Supreme Court of the
United States. In 2019, we aﬃrmed the district
court’s grant of a preliminary injunction against

2a
enforcement of a new Indiana statutory restriction on minors’ access to abortions. See
Planned Parenthood of Indiana & Kentucky, Inc. v.
Adams, 258 F. Supp. 3d 929 (S.D. Ind. 2017), aﬀ’d, 937
F.3d 973 (7th Cir. 2019), reh’g denied, 949 F.3d 997
(7th Cir. 2019). The State defendants petitioned for
a writ of certiorari. The Supreme Court granted the
petition, vacated our decision, and remanded for further consideration in light of June Medical Services
LLC v. Russo, 140 S. Ct. 2103 (2020), which struck
down a Louisiana law regulating abortion providers,
but without a single majority opinion.
We apply the predominant and most sound approach to the “narrowest ground” rule in Marks v.
United States, 430 U.S. 188 (1977), for assessing the
precedential force of Supreme Court decisions issued
without a majority opinion. The opinions in June
Medical show that constitutional standards for state
regulations aﬀecting a woman’s right to choose to terminate a pregnancy are not stable, but they have not
been changed, at least not yet, in a way that would
change the outcome here.
The Chief Justice’s concurring opinion in June
Medical offered the narrowest basis for the judgment
in that case, giving stare decisis effect to Whole
Woman’s Health v. Hellerstedt, 136 S. Ct. 2292 (2016),
on the essentially identical facts in June Medical. The
Marks rule does not, however, turn everything the
concurrence said—including its stated reasons for disagreeing with portions of the plurality opinion—into
binding precedent that effectively overruled Whole
Woman’s Health. That is not how Marks works. It

3a
does not allow dicta in a non-majority opinion to overrule an otherwise binding precedent. We applied
those binding standards from Whole Woman’s Health
in our earlier decision, and that decision has not been
overruled by a majority decision of the Supreme
Court. We therefore again affirm the district court’s
preliminary injunction barring enforcement of the
challenged law pending full review in the district
court.
I. Factual and Procedural Background
Given the lengthy opinions already issued in this
case, we summarize the issues leading up to this
point. Indiana’s Senate Enrolled Act 404, enacted in
2017, included amendments to Indiana’s judicial-bypass process. That process, required by Bellotti v.
Baird, 443 U.S. 622 (1979), creates a narrow legal
path for an unemancipated minor to obtain an abortion without parental consent. The minor must first
find her way to a state trial court. She must then obtain a court order finding either that the abortion
would be in her best interests or that she is
suﬃciently mature to make her own decision. Ind.
Code § 16-34-2-4(e). Senate Enrolled Act 404
amended the process in several ways, some of which
the district court preliminarily enjoined. Only one
amendment is at issue in this appeal: a new requirement that a minor’s parents be notified that she is
seeking an abortion through the bypass procedure—
unless the judge finds that such parental notice, as
distinct from requiring parental consent, is not in the
minor’s best interests. Ind. Code § 16-34-2-4(d). Maturity does not aﬀect the new notice requirement.

4a
To support its motion for preliminary injunction,
plaintiﬀ oﬀered evidence on the likely eﬀects of the
new notice requirement. The evidence took the form
of aﬃdavits from seven witnesses familiar with the
actual workings of the judicial bypass process and the
situations of and stresses upon minors seeking abortions or advice on abortions. The State defendants
chose not to oﬀer evidence at that stage of the case.
They also did not challenge the reliability or credibility of plaintiﬀ’s evidence.
The district court issued detailed findings of fact
and conclusions of law finding that the new notice requirement was likely to impose an undue burden on
the right to obtain an abortion for a significant fraction of minors for whom the requirement would be relevant. 258 F. Supp. 3d 929, 939–40. We aﬃrmed, emphasizing the lopsided evidence showing both the
likely burden and the absence of appreciable benefit
from the new notice requirement. 937 F.3d at 989–90.
We relied heavily on Whole Woman’s Health, guided
by its application of the “undue burden” standard
adopted in Planned Parenthood of Southeastern Pennsylvania v. Casey, 505 U.S. 833 (1992). We also relied
on Whole Woman’s Health’s approval of a pre-enforcement injunction against challenged laws likely to impose an undue burden. 937 F.3d at 979−80.
In Whole Woman’s Health, the Supreme Court
aﬃrmed a district court decision striking down a socalled admitting privileges requirement. The challenged Texas law required a physician who performed
an abortion to have admitting privileges at a hospital

5a
within thirty miles of the abortion site. The Supreme
Court based its decision on detailed factual findings
showing both the burdens imposed by that requirement and the lack of accompanying benefits. 136 S.
Ct. at 2310–14.
In June Medical in 2020, the Court held unconstitutional a Louisiana admitting-privileges law that
tracked nearly word-for-word the Texas law struck
down in Whole Woman’s Health. A plurality of four
Justices examined the detailed evidence and findings
on the likely burdens and benefits of the Louisiana
admitting privileges law, and, following the reasoning
and holding of Whole Woman’s Health, the plurality
voted to strike down the new law. 140 S. Ct. at 2122–
32 (plurality opinion of Breyer, J.). Four Justices dissented in four opinions.
Chief Justice Roberts also voted to strike down the
Louisiana law, concurring in the judgment in a separate opinion that is the focus here on remand. He had
dissented in Whole Woman’s Health. He wrote that he
still disagreed with that decision, but he explained
that principles of stare decisis called for the Court to
adhere to that earlier result on the essentially identical facts. 140 S. Ct. at 2134, 2139 (Roberts, C.J., concurring in judgment). He then explained that he believed Whole Woman’s Health had erred by balancing
the challenged law’s benefits against its burdens in
evaluating its constitutionality. Id. at 2135–36. Both
the plurality and the Chief Justice agreed, however,
that enforcement of the Louisiana law was properly
enjoined before it took eﬀect.

6a
Shortly after issuing June Medical, the Court issued its order in this case granting the State defendants’ petition for a writ of certiorari, vacating our decision, and remanding for further consideration in
light of June Medical. See Box v. Planned Parenthood
of Indiana & Kentucky, Inc., 141 S. Ct. 187, 188
(2020). Such a “GVR” order calls for further thought
but does not necessarily imply that the lower court’s
previous result should be changed. Klikno v. United
States, 928 F.3d 539, 544 (7th Cir. 2019). Pursuant to
Circuit Rule 54, the parties submitted their views on
the remand.1
II. Marks v. United States and Narrow Opinions
A. Marks and its Variations
The remand poses questions about how to interpret and apply decisions by the Supreme Court issued
without majority opinions. The Supreme Court’s leading guidance on the question is one sentence in
Marks: “When a fragmented court decides a case and
no single rationale explaining the result enjoys the assent of five Justices, ‘the holding of the Court may be
viewed as that position taken by those Members who
concurred in the judgments on the narrowest
grounds.’” 430 U.S. at 193, quoting Gregg v. Georgia,
The State defendants at the same time petitioned for immediate en banc consideration of this case. No member of this
court has requested an answer to or a vote on that petition. This
decision on remand is being issued by the panel that heard this
appeal originally. The pending petition is denied.
1

7a
428 U.S. 153, 169 n.15 (1976) (plurality opinion of
Stewart, Powell, and Stevens, JJ.). In recent decades,
plurality decisions have become more frequent, especially on some of the most controversial issues the federal courts face. Lower courts have tried to follow the
Marks instruction in a variety of scenarios, and scholars and lower courts have identified several distinct
models for applying Marks.
A helpful guide comes from Professor Ryan Sullivan:
The first of these approaches interprets
Marks as limited to a narrow subset of plurality decisions reflecting a clearly discernible “implicit consensus” or “common
denominator” among the Justices. The second approach understands Marks as an instruction to lower courts to identify the
opinion in a plurality decision that reflects
the judgment-critical vote—typically the
fifth concurring vote—and treat that opinion as the Court’s holding. The third and
final approach looks for points of majority
consensus among diﬀerent factions of concurring and dissenting Justices on distinct
legal issues raised by the plurality decision.
Ryan Williams, Questioning Marks: Plurality Decisions and Precedential Constraints, 69 Stan. L. Rev.
795, 806−07 (2017).

8a
The parties’ positions here identify diﬀerent approaches and set the stage for our consideration. Relying on the first model, which is predominant in precedent, plaintiﬀ Planned Parenthood contends that the
June Medical plurality and concurrence share the
narrow, common ground that Whole Woman’s Health
has stare decisis eﬀect on essentially identical facts.
Because that is all that they share, that is the holding
of June Medical, which thus did not produce a majority to overrule Whole Woman’s Health. Not having
been overruled, the standards and principles of Whole
Woman’s Health still govern here.
The State invokes both the second and third models for applying Marks. Using the second model, the
State says the June Medical concurrence provided the
swing vote and the narrowest ground for the judgment—stare decisis for Whole Woman’s Health on
identical facts. That much is clear. The State goes further, however, in asserting in eﬀect that every word
of the concurrence must therefore be treated as the
binding, precedential holding of June Medical,
whether those additional portions support the judgment or not. Under that approach, we would give the
concurrence the eﬀect of overruling Whole Woman’s
Health except as to virtually identical facts. Invoking
the third model, using all opinions to predict votes in
a future case, the State also argues that the June
Medical concurrence and the dissents agreed on
enough common ground to predict reliably that a majority of the Court would overrule Whole Woman’s
Health and strike down the Indiana statute challenged here.

9a
We first identify questions in applying Marks and
then address the variations argued by the parties, albeit in a diﬀerent order. We close by addressing a couple of additional arguments raised in the briefs. The
Supreme Court has observed that the Marks rule is
“more easily stated than applied” and that it has
“baﬄed and divided” lower courts. Grutter v. Bollinger, 539 U.S. 306, 325 (2003), quoting Nichols v.
United States, 511 U.S. 738, 745−46 (1994). We hope
here to avoid adding evidence to support the “baﬄed”
observation.
To identify a few of the problems baked into the
Marks rule, how do we measure narrow v. broad?
Does Marks require common ground among opinions,
and what if there is none? What counts as a common
ground? Is it simply the existence of a shared outcome
or does it require a shared approach to resolving a
given legal question? Is everything in the narrowest
opinion controlling, or just the portion supporting the
judgment? Can a “narrow” non-majority opinion overrule a previously controlling precedent? Do dissenting
opinions count at all in measuring precedential eﬀect?
B. Dissenting Opinions and the Prediction Model
of Precedent
The last question, about dissenting opinions, is the
easiest to answer, at least for a lower court like this
one. The answer resolves the State’s reliance on the
third model, counting votes among all opinions. Dissenting opinions do not count in the Marks assessment. Marks itself wrote in terms of “those Members
who concurred in the judgments” 430 U.S. at 193,

10a
quoting Gregg, 428 U.S. at 169 n.15. The weight of
circuit and-scholarly authority has taken the Court’s
instruction at face value.
We have rejected using dissents in Marks assessments: “under Marks, the positions of those Justices
who dissented from the judgment are not counted in
trying to discern a governing holding from divided
opinions.” Gibson v. American Cyanamid Co., 760
F.3d 600, 620 (7th Cir. 2014); accord, e.g., United
States v. Heron, 564 F.3d 879, 884 (7th Cir. 2009)
(stating that Marks applies to opinions of those “Members who concurred in the judgment[]” of the Court);
Manning v. Caldwell for City of Roanoke, 930 F.3d
264, 280 n.13 (4th Cir. 2019) (en banc) (same); United
States v. Carrizales-Toledo, 454 F.3d 1142, 1151 (10th
Cir. 2006) (same); United States v. Alcan Aluminum
Corp., 315 F.3d 179, 189 (2d Cir. 2003) (same); Rappa
v. New Castle County, 18 F.3d 1043, 1057 (3d Cir.
1994) (same); United States v. Hughes, 849 F.3d 1008,
1012 (11th Cir. 2017), rev’d on other grounds, 138 S.
Ct. 1765 (2018) (”When determining which opinion
controls, we do not ‘consider the positions of those who
dissented.’”), quoting United States v. Robison, 505
F.3d 1208, 1221 (11th Cir. 2007); United States v.
Epps, 707 F.3d 337, 348 (D.C. Cir. 2013) (“Stated
diﬀerently, Marks applies when, for example, ‘the concurrence posits a narrow test to which the plurality
must necessarily agree as a logical consequence of its
own, broader position.’”) (emphasis added and removed), quoting King v. Palmer, 950 F.2d 771, 782
(D.C. Cir. 1991) (en banc); King, 950 F.2d at 783
(“[W]e do not think we are free to combine a dissent
with a concurrence to form a Marks majority.”); cf.

11a
United States v. Davis, 825 F.3d 1014, 1025 (9th Cir.
2016) (en banc) (“[W]e assume but do not decide that
dissenting opinions may be considered in a Marks
analysis.”);2 United States v. Johnson, 467 F.3d 56, 65
(1st Cir. 2006) (“[W]e do not share the reservations of
the D.C. Circuit about combining a dissent with a concurrence to find the ground of decision embraced by a
majority of the Justices.”).
Scholars have generally agreed that dissenting
opinions do not actually count, while noting that
courts are not entirely consistent on this score. Michael L. Eber, When the Dissent Creates the Law:
Cross-Cutting Majorities and the Prediction Model of
Precedent, 58 Emory L.J. 207, 218 (2008); Maxwell L.
Stearns, The Case for Including Marks v. United
States in the Canon of Constitutional Law, 17 Const.
Comment. 321, 328 (2000); Nina Varsava, The Role of
Dissents in the Formation of Precedent, 14 Duke J. of
Const. Law & Public Policy 285, 298−99 (2019); Jonathan H. Adler, Once More, with Feeling: Reaﬃrming
the Limits of Clean Water Act Jurisdiction, in The Supreme Court and the Clean Water Act: Five Essays
81, 93−94 (L. Kinvin Wroth ed., Vt. Law Sch. 2007).3
2 The Davis en banc majority did not decide this question,
but concurring and dissenting opinions disagreed on it. See 825
F.3d at 1029 (Christen, J., concurring) (Marks limits review to
the opinions of Justices who concurred in judgment); id. at 1031
(Bea, J., dissenting) (Marks permits counting votes, including
from dissenting Justices).
3 To be sure, some of these scholars have urged a different
approach, arguing that lower courts should use a prediction
model, taking dissenting opinions into account to predict how the

12a
This aversion to dissenting opinions in applying
Marks is consistent with our more general approach
to Supreme Court precedent. We simply do not survey
non-majority opinions to count likely votes and boldly
anticipate overruling of Supreme Court precedents.
That is not our job. As we are frequently reminded,
only the Supreme Court itself can overrule its own decisions. Rodriguez de Quijas v. Shearson/American
Express, Inc., 490 U.S. 477, 484 (1989); accord, State
Oil Co. v. Khan, 522 U.S. 3, 20 (1997) (“it is this
Court’s prerogative alone to overrule one of its precedents”); Agostini v. Felton, 521 U.S. 203, 237 (1997)
(instructing courts of appeals to leave to the Supreme
Court “the prerogative of overruling its own decisions”), citing Rodriguez de Quijas, 490 U.S. at 484;
Scheiber v. Dolby Laboratories, Inc., 293 F.3d 1014,
1019 (7th Cir. 2002) (highlighting that in State Oil v.
Khan, the Supreme Court “pointedly noted” that the
Supreme Court will decide the next case, but they agree that the
prediction model is rarely used by courts and even more rarely
acknowledged. See, e.g., Evan H. Caminker, Precedent and Prediction: The Forward Looking Aspects of Inferior Court Decisionmaking, 73 Tex. L. Rev. 1, 74 (1994) (arguing that “prediction has a proper, albeit circumscribed, role to play in inferior
court decisionmaking,” but “conced[ing] that others will disagree
with this conclusion”); Eber, When the Dissent Creates the Law,
58 Emory L. J. at 232 (acknowledging that “most judges do not
endorse the prediction model of precedent, at least openly”) (footnotes omitted); Varsava, The Role of Dissents, 14 Duke J. of
Const. Law & Public Policy at 321–22 (“Advocates of the predictive approach generally exclude dissenting opinions from the
process, but the inclusion of dissents is a theoretical possibility.”)
(footnotes omitted).

13a
Seventh Circuit had been correct in refusing to declare defunct the Court’s directly controlling precedent). Accordingly, we decline the State’s invitation
here to add together the Chief Justice’s concurrence
and the dissenting opinions and declare Whole
Woman’s Health overruled.4
C. Logical Subsets and Nesting Dolls
We turn now to the first model of the Marks rule,
argued by plaintiﬀ and consistent with the substantial weight of authority: look for a “narrowest ground”
that is a logical subset of the reasoning in other opinions concurring in the judgment. The Marks rule is
easiest to apply when the fifth vote comes in a concurrence that agrees with part of the plurality’s reasoning, so that the narrower opinion may be described as
adopting a logical subset of a broader opinion’s reasoning. The often-cited metaphor is Russian nesting
dolls. We and other courts have often said that for the
Marks rule to apply, there must be a genuine common
denominator underlying the reasoning of a majority
of justices. E.g., Gibson, 760 F.3d at 619; Heron, 564
F.3d at 884; Rappa, 18 F.3d at 1058; King, 950 F.2d
We recognize that parties may decide to adopt the prediction model in making decisions about their conduct or in deciding
how to litigate disputes. The prediction model has a distinguished pedigree: “The prophecies of what the courts will do in
fact, and nothing more pretentious, are what I mean by the law.”
Oliver Wendell Holmes, The Path of the Law, 10 Harv. L. Rev.
457, 461 (1897). But in a hierarchical court system, lower courts
do not arrogate to themselves the task of overruling precedents
of higher courts.
4

14a
at 781. That opinion—the narrowest one—“must represent a common denominator of the Court’s reasoning; it must embody a position implicitly approved by
at least five Justices who support the judgment.”
King, 950 F.2d at 781 (emphasis added).
Under this approach, when the reasoning underlying the decisive concurring opinion fails to fit within
a broader logical circle drawn by the other opinions,
Marks simply does not apply. King, 950 F.2d at 782;
accord, Alcan Aluminum Corp., 315 F.3d at 189 (explaining that where no single standard “constitutes
the narrowest ground for a decision on that issue,
there is then no law of the land”).
In the simplest scenario, four Justices agree on
two grounds for the judgment, and the decisive vote is
cast by a concurring Justice who agrees with only one
of those. In such a case, the concurring opinion’s rationale provides the narrowest ground and is deemed
controlling.
If we were to depart from this predominant understanding of Marks and applied it in the absence of a
common denominator, then a single approach to a
given legal question lacking majority support, perhaps lacking support from more than one Justice,
would become national law. See King, 950 F.2d at 782.
This would be true even if that single approach produced the critical fifth vote supporting the judgment
of the Court. Id.; see also Gaylor v. Mnuchin, 919 F.3d
420, 433 n.9 (7th Cir. 2019) (stating that where one
Justice’s concurring opinion reached the same result
as the plurality opinion, but did so under a diﬀerent

15a
constitutional clause, that concurring opinion was not
a “logical subset” of the plurality opinion), quoting
Gibson, 760 F.3d at 619; Heron, 564 F.3d at 884
(“When, however, a concurrence that provides the
fifth vote necessary to reach a majority does not provide a ‘common denominator’ for the judgment, the
Marks rule does not help to resolve the ultimate question.”). If there is no common denominator, then there
is no binding reasoning, just facts and a result.
The Supreme Court itself appears to follow this
approach. In King, the District of Columbia Circuit illustrated this point with Coolidge v. New Hampshire,
403 U.S. 443 (1971), where a plurality of four Justices
wrote that evidence could be seized pursuant to the
plain-view exception to the Fourth Amendment’s warrant requirement only when the evidence was discovered inadvertently. See King, 950 F.2d at 782. Four
other Justices wrote that inadvertence was not necessary for a valid seizure of evidence in plain view. Coolidge, 403 U.S. at 492, 506, 510, 516 (four opinions,
each concurring in part and dissenting in part). Justice Harlan concurred in the judgment that the challenged search was unconstitutional, but he oﬀered no
rationale for evaluating the inadvertence requirement laid out by the plurality. Id. at 490 (Harlan, J.,
concurring in judgment).
In a later decision, Texas v. Brown, 460 U.S. 730
(1983), the Supreme Court said that the Coolidge plurality’s inadvertence requirement did not constitute
binding precedent and should be understood only as
“the considered opinion of four Members of this
Court.” Brown, 460 U.S. at 737 (plurality opinion).

16a
Eventually, the Supreme Court rejected the inadvertence requirement altogether. King, 952 F.2d at 782,
citing Horton v. California, 496 U.S. 128 (1990).
In similar circumstances—where no opinion
adopting a narrowest common denominator of the
Court’s reasoning can be identified—this court and
other circuits have explicitly declined to apply Marks.
See, e.g., Gibson, 760 F.3d at 619–20 (declining to apply Marks to Eastern Enterprises v. Apfel, 524 U.S.
498 (1998)); Heron, 564 F.3d at 884 (declining to apply
Marks to Missouri v. Seibert, 542 U.S. 600 (2004));
Schindler v. Clerk of Circuit Court, 715 F.2d 341, 345
(7th Cir. 1983) (declining to apply Marks to Baldasar
v. Illinois, 446 U.S. 222 (1980)); Davis, 825 F.3d at
1021–22 (declining to apply Marks to Freeman v.
United States, 564 U.S. 522 (2011));5 Alcan Aluminum
Corp., 315 F.3d at 189 (declining to apply Marks to
Eastern Enterprises); A.T. Massey Coal Co. v. Massanari, 305 F.3d 226, 237 (4th Cir. 2002) (also declining to apply Marks to Eastern Enterprises).

In Hughes v. United States, the Supreme Court explained
that in Freeman, “[n]o single interpretation or rationale commanded a majority” of Justices. 138 S. Ct. 1765, 1768 (2018). The
Court acknowledged that some courts of appeals, including the
Seventh Circuit, in applying Marks had adopted the reasoning
of Justice Sotomayor’s solo opinion concurring in the judgment.
Id. Other courts, however, also applying Marks, adopted the plurality’s reasoning. Id. Hughes resolved the sentencing issue in
Freeman but explicitly declined “to reach questions regarding
the proper application of Marks.”
5

17a
In other words, Marks does not command lower
courts to find a common denominator—to find an implicit consensus among divergent approaches—where
there is actually none. Cf. Grutter, 539 U.S. at 325
(discussing division among federal courts of appeals
in applying Marks to Regents of the University of California v. Bakke, 438 U.S. 265 (1978)); Nichols, 511
U.S. at 745 (discussing division among state and federal courts in applying Marks to Baldasar). It is not
our duty or function to bring symmetry to any “doctrinal disarray” we might encounter in our application
of Supreme Court precedent.6

These limits of Marks are recognized in legal scholarship.
See, e.g., Richard Re, Beyond the Marks Rule, 132 Harv. L. Rev.
1943, 1982 (2019) (“[I]nstead of finding Marks holdings in all, or
even most, fractured Supreme Court decisions, the logical subset
approach aspires to recognize Marks holdings only when one
opinion is logically and therefore inescapably ‘narrower’ than
any other.”); Lewis A. Kornhauser & Lawrence G. Sager, The
One and the Many: Adjudication in Collegial Courts, 81 Cal. L.
Rev. 1, 46–48 (1993) (Marks is available only “where the rationales for the majority outcome are nested, fitting within each
other like Russian dolls”); Stearns, The Case for Including
Marks, 17 Const. Comment. at 328 n.26 (explaining that Marks
does not apply where “[t]he majority on the Court’s judgment
[is] composed of two minority camps, each reaching opposite resolutions of the two dispositive issues, but also reaching the same
judgment”); Joseph S. Cacace, Note, Plurality Decisions in the
Supreme Court of the United States: A Reexamination of the
Marks Doctrine after Rapanos v. United States, 41 Suffolk U. L.
Rev. 97, 113 (2007) (emphasizing King’s “Russian dolls” approach to Marks); Linda Novak, Note, The Precedential Value of
Supreme Court Plurality Decisions, 80 Colum. L. Rev. 756, 767
(1980) (“Many of the most troublesome plurality [and concurring] opinions” do not “stand in a ‘broader-narrower’ relation to
each other.”).
6

18a
The logical subset approach to Marks applies here.
In June Medical, there is one critical sliver of common
ground between the plurality and the concurrence:
Whole Woman’s Health was entitled to stare decisis
eﬀect on essentially identical facts. 140 S. Ct. at 2120
(plurality); id. at 2139 (concurrence). The Marks rule
therefore applies to that common ground, but it applies only to that common ground. That application
oﬀers no direct guidance for applying the undue burden standard more generally, let alone to the quite
diﬀerent parental notice requirement in this case.
That absence of guidance answers our question: the
Marks rule tells us that June Medical did not overrule
Whole Woman’s Health. That means Whole Woman’s
Health remains precedent binding on lower courts.
D. The Swing-Vote Model
To avoid this result, the State also invokes the second approach to Marks and plurality opinions, in
which lower courts try to identify the decisive fifth
vote on the Supreme Court and treat that vote’s reasoning as controlling, even if it represents the views
of only one justice. Courts and scholars have called
this the “swing-vote” approach. The State argues here
that we should adopt the strongest, most controversial version of this swing-vote approach, which “treats
as binding all aspects of the opinion reflecting the median Justice’s views, including propositions that no
other participating Justice explicitly or implicitly assented to.” Williams, Questioning Marks, 69 Stan. L.
Rev. at 815; see also Re, Beyond the Marks Rule, 132
Harv. L. Rev. at 1979 (“In general, the median opinion
would be outvoted whenever at least five Justices in

19a
nonmedian opinions would converge on the same outcome.”). The State here argues that we should treat
as binding everything in the Chief Justice’s June Medical concurrence, including its continued disagreement with Whole Woman’s Health, whether that position was essential to the June Medical judgment or
not, giving that non-majority opinion the power to
overrule binding precedent established in a majority
opinion.
This swing-vote model is not consistent with Supreme Court precedent or our circuit precedent, nor is
it the predominant model in courts around the country. For example, in United States v. Santos, 553 U.S.
507 (2008), the Supreme Court split four-one-four on
the decisive issue. Justice Scalia wrote a plurality
opinion for four justices to aﬃrm; Justice Stevens
wrote a separate, narrower opinion concurring in that
judgment. But Justice Stevens’ concurring opinion expressed views on future cases not before the Court.
The plurality addressed how Marks should apply.
Justice Stevens’ reasoning was the narrowest in support of the judgment, but the plurality flatly rejected
the idea that everything in Justice Stevens’ opinion
was binding, in terms directly applicable here: “JUSTICE STEVENS’ speculations on that point address a
case that is not before him, are the purest of dicta, and
form no part of today’s holding.” Id. at 523 (plurality
opinion of Scalia, J.).
And whatever strengths the swing-vote model
might have in other situations, it is not an appropriate application of Marks in these circumstances:
First, the stated disagreement is not essential to the

20a
concurrence’s bottom-line vote to strike down the Louisiana law. The portions of the concurrence going beyond stare decisis did not support the judgment and
are obiter dicta. Second, the dispute between the plurality and concurrence in June Medical was not about
a new legal issue but about the scope and validity of a
Court precedent. Applying the swing-vote test to treat
everything in the concurrence as a binding holding
would allow less than a majority to overrule a Court
precedent that had been established by majority vote.
To frame the issue in simple, logical terms, the
June Medical plurality adopted two propositions that
we can label A and B. Proposition A was that Whole
Woman’s Health previously struck down a nearly
identical Texas law, so stare decisis required striking
down the new Louisiana law. Proposition B was that
the majority opinion in Whole Woman’s Health correctly stated and applied the undue burden test for
abortion regulations. The Chief Justice’s concurrence
adopted Proposition A, applying stare decisis. It rejected Proposition B, adopting instead Not-B: the majority opinion in Whole Woman’s Health misstated
and misapplied the undue burden test.
Applying Marks, the best way to understand the
two opinions together is that the plurality’s adoption
of Proposition B and the concurrence’s adoption of
Proposition Not-B are both obiter dicta. They were not
necessary to the actual judgment striking down the
new Louisiana law on stare decisis grounds, Proposition A, for which there were five votes. There was no
majority to overrule Whole Woman’s Health, so that

21a
precedent stands as binding on lower courts unless
and until a Court majority overrules it.
E. Other Arguments
Additional arguments raised here do not fit as
neatly into the three principal models for applying
Marks. The State argues that the Chief Justice’s concurrence in June Medical should be deemed the narrowest opinion under Marks because it would leave
more state laws undisturbed. In support of this approach, the State cites United States v. Johnson, 467
F.3d 56, 63 (1st Cir. 2006), which recognized that an
“alternative” reading of Marks might reasonably entail “that the ‘narrowest grounds’ are simply understood as the ‘less far-reaching-common ground.’” For
two reasons, we are not persuaded.
First, this approach, too, assumes that the narrower and broader opinions share some common
ground in the first place. As the First Circuit observed, “the ‘narrowest grounds’ approach makes the
most sense when two opinions reach the same result
in a given case, but one opinion reaches that result for
less sweeping reasons than the other.” Id. In June
Medical, the plurality and concurring opinions arrived at the same result based on stare decisis. They
disagreed on other points. For the reasons explained
above, their narrow common ground is subject to
Marks. But applying the Marks rule does not mean
that we treat as controlling and precedential portions
of the concurrence that were dicta, unnecessary to the
fifth vote to strike down the Louisiana law.

22a
Second, comparing the respective ranges of statutes that would survive the two diﬀerent approaches,
taking each approach in its entirety, rather than looking closely for shared reasoning, would be highly disruptive, producing arbitrary results and losing sight
of the Court’s actual decision. See Stearns, The Case
for Including Marks, 17 Const. Comment. at 337–38
(the “narrowest grounds” rule does not stand for proposition that opinion that would strike the fewest laws
controls). If the entirety of the Chief Justice’s concurrence were given binding, precedential eﬀect—on the
theory that his reasoning would uphold more state
laws than Justice Breyer’s plurality would—then
June Medical’s decision striking down one Louisiana
law would be deemed to have swept away quite a bit
of the Court’s jurisprudence on the right to choose to
terminate a pregnancy. That would be a remarkable
result, especially given the Court’s silence about such
dramatic effects and the lack of a five-vote majority
for that overruling. More generally, the State’s novel
and one-sided interpretation of Marks would give one
Justice the ability to write obiter dicta that would
sweep away constitutional precedents protecting individual rights by adopting broad reasoning that would
confine the individual right most narrowly, yet without a majority having actually voted to overrule an
earlier precedential opinion.
The State also argues that the Supreme Court itself appears to view all aspects of the Chief Justice’s
concurrence as controlling, so we should do the same.
We do not see evidence that the Court views the entire
concurrence as controlling. In fact, Chief Justice Rob-

23a
erts did not view the dicta in his concurrence as binding: “The question today however is not whether
Whole Woman’s Health was right or wrong, but
whether to adhere to it in deciding the present case.”
140 S. Ct. at 2133. See also id. at 2181 (Gorsuch, J.,
dissenting) (“Whole Woman’s Health insisted that the
substantial obstacle test ‘requires that courts consider
the burdens a law imposes on abortion access together
with the benefits the law confers.’”) (cleaned up), quoting Whole Woman’s Health, 136 S. Ct. at 2309.
Consistent with its view of the June Medical concurrence, the State also argues that we should abandon any consideration of actual benefits of the challenged Indiana notice requirement. Apart from the
diﬃculty in applying Marks here, we do not see how
having courts close their eyes to genuine and legitimate benefits of an abortion regulation makes it less
likely to survive judicial review. The “undue burden”
standard adopted in Casey logically implies the existence of a category of “due” burdens. Some regulations
might restrict access and/or raise costs, but do so in
service of legitimate goals and are on balance justified.
For example, state laws require that only persons
with certain medical licenses may perform surgical or
medical abortions. Those regulations may restrict access and raise costs. Given the health benefits, there
is generally no serious doubt about the constitutionality of such burdens. In Casey itself, the Court found
that new informed-consent requirements, a waiting
period, and some record-keeping requirements would

24a
impose genuine burdens but would also serve legitimate purposes. Those burdens were not deemed “undue.” See 505 U.S. at 885–87 (mandatory 24-hour
waiting period), 900–01 (recordkeeping and reporting
requirement); see also Whole Woman’s Health, 136 S.
Ct. at 2309, 2311–12 (Casey requires consideration of
both burdens and benefits). In this case, it may be
that the evidence in a trial on the merits will show a
diﬀerent balance of benefits and burdens. At the preliminary injunction stage, however, the State chose
not to oﬀer evidence of benefits that might justify the
burdens here. The lopsided evidence of substantial
burdens and little or no benefits convinced the district
judge to issue the preliminary injunction and convinced us to aﬃrm that decision.7

7 We share considerable common ground with our dissenting
colleague as we all do our level best to apply the Marks rule to
June Medical in this challenging and fluid area of constitutional
law. On the points that divide us at this stage of the case, we
offer three observations. First, the dissenting opinion appears to
be logically inconsistent, recognizing that June Medical did not
overrule Whole Woman’s Health, post at 35, yet seeming to give
precedential effect to portions of the Chief Justice’s concurrence
that disagreed with the June Medical plurality’s adherence to
Whole Woman’s Health. Post at 31−32. Second, on the record before us, the debate over the role of balancing benefits and burdens of restrictions on abortion simply should not matter in the
end. The district court found that the new parental notice requirements would impose a substantial obstacle for the relevant
group of pregnant minors, and, at least in the absence of countervailing benefits, that meant the burdens would be undue. 258 F.
Supp. 3d at 939-40. On appeal, with the State still declining to
offer evidence of genuine benefits, we agreed. 937 F.3d at 978,
981. Unless and until the State tries to offer evidence of benefits,
the theoretical debate about the role of balancing should not af-

25a
We recognize that the scope of June Medical and
the eﬀect of the concurrence has been controversial.
The Eighth Circuit and a divided panel of the Sixth
Circuit have treated the concurrence as controlling.
See Hopkins v. Jegley, 968 F.3d 912, 915 (8th Cir.
2020) (per curiam) (combining concurrence and dissenting opinions); EMW Women’s Surgical Center
P.S.C. v. Friedlander, 978 F.3d 418, 437 (6th Cir.
2020); Little Rock Family Planning Services v.
Rutledge, 984 F.3d 682, 687 n.2 (8th Cir. 2021). Those
decisions are not consistent with this circuit’s approach to Marks. A divided panel of the Fifth Circuit
reached the same conclusion about June Medical that
we do in Whole Woman’s Health v. Paxton, 972 F.3d
649, 653 (5th Cir. 2020). At later stages of the same
appeal, the panel adhered to that view, 978 F.3d 896,
904 (5th Cir. 2020), and that later opinion was vacated and rehearing en banc was granted, 978 F.3d
974 (5th Cir. 2020). Because a majority of Justices of
the Supreme Court has not held otherwise, the balancing test set forth in Whole Woman’s Health remains binding precedent. That is the precedent we
followed in our original decision, and we continue to
follow it now, using the approach to Marks we have
followed before.

fect our decision to affirm the preliminary injunction here. Finally, we must note once more that the June Medical plurality
and concurrence agreed that the new Louisiana law was
properly enjoined before it could take effect. 140 S. Ct. at 2114
(plurality) & 2142 (concurrence).

26a
We need not repeat more from our original decision. The split decision in June Medical did not overrule the precedential eﬀect of Whole Woman’s Health
and Casey. As in our original opinion, we have not decided the plaintiﬀ’s alternative ground for aﬃrmance,
adopted by the district court, that the requirements of
Bellotti v. Baird apply to parental notice requirements as well as to parental consent requirements.
937 F.3d at 989–90; see also 258 F. Supp. 3d at 945–
46. For the reasons explained above and in our original opinion, the district court’s preliminary injunction
barring enforcement of the new parental notice requirement in Ind. Code § 16-34-2-4(d) and (e) is AFFIRMED.

27a
KANNE, Circuit Judge, dissenting. Here we are
again, faced with the seemingly endless task of determining whether a law unduly burdens a woman’s
ability to obtain an abortion. When this case first
came to us, the majority of this panel relied heavily
on Whole Woman’s Health v. Hellerstedt, 136 S. Ct.
2292 (2016), to aﬃrm the district court’s pre-enforcement injunction against Indiana’s brand-new parental-notification law because Indiana “oﬀered no evidence to support [the law’s] proposed benefits,”
Planned Parenthood of Ind. & Ky., Inc. v. Adams, 937
F.3d 973, 984 (7th Cir. 2019).
In the dissent to the initial opinion, I pointed out
that (1) the Supreme Court had held several times
that such parental-notification laws are constitutional; (2) Planned Parenthood’s evidence did not
show that Indiana’s parental-notification law places
an undue burden on a minor’s ability to obtain an
abortion; and (3) we should not be in the business of
quashing state abortion regulations before they go
into force and while their eﬀects, and the reasons for
those eﬀects, “are open to debate,” A Woman’s ChoiceE. Side Women’s Clinic v. Newman, 305 F.3d 684, 693
(7th Cir. 2012).
Thereafter, our full court narrowly denied en banc
review, with some colleagues expressing hope that doing so would “send this dispute on its way to the only
institution” that can say whether Indiana’s parentalnotification law imposes an undue burden. Planned
Parenthood of Ind. & Ky., Inc. v. Box, 949 F.3d 997,
999 (7th Cir. 2019) (Easterbrook, J., concurring in denial of rehearing en banc). The Supreme Court then

28a
granted certiorari—but instead of fulfilling those
hopes, it vacated the panel’s decision and remanded it
“for further consideration in light of” June Medical
Services LLC v. Russo, 140 S. Ct. 2103 (2020), a fractured case that produced six diﬀerent opinions. Box v.
Planned Parenthood of Ind. & Ky., Inc., 141 S. Ct. 187,
188 (2020).
So now, with our previous decision in one hand
and a half-dozen June Medical opinions in the other,
we must figure out how the latter aﬀect the former.
The majority says, in essence, that June Medical
has no effect—that the plurality opinion, along with
the Chief Justice’s concurrence, simply followed
Whole Woman’s Health, and therefore our original
opinion applying its balancing test must have been
correct in all respects.
I disagree. The majority gives an expanded reading to the Chief Justice’s June Medical concurrence,
but viewing that narrow concurring opinion—as written, in conjunction with the plurality’s opinion—compels a diﬀerent outcome.
The plurality in June Medical held that the Louisiana law at issue was unconstitutional because it
“poses a ‘substantial obstacle’ to women seeking an
abortion [and] oﬀers no significant health-related
benefits.” June Medical, 140 S. Ct. at 2132 (plurality
opinion). The Chief Justice’s concurrence, however,
simply held only that the Louisiana law was unconstitutional because, under Whole Woman’s Health, it

29a
“imposed a substantial obstacle.” Id. at 2139 (Roberts,
C.J., concurring).
Thus, the finding of a “substantial obstacle” is the
common denominator between the opinions—and we
should correct our previous decision by abandoning
the added weighing of benefits that Chief Justice Roberts explicitly rejected.
Further, while we cannot presume from the Supreme Court’s remand order that our prior decision in
this case was wrong, surely June Medical had some
eﬀect on the legal landscape. Else, why didn’t the Supreme Court simply deny cert instead?1 I do not believe that the Supreme Court is directing us to reassess our prior decision “in light of” a case that sheds
no light on the matter whatsoever.
Rather, I do believe that June Medical does have
a real effect. The Supreme Court knows it, other circuits accept it, and a faithful application of the Marks
rule requires us to accept it, too.
***

Indeed, this is just one of two cases that the Supreme Court
sent back for us to reconsider after June Medical. “Sending these
cases back …, instead of simply denying review, suggests the
High Court rejected a balancing test and expects the Seventh
Circuit to apply the more lenient undue-burden framework outlined in the Chief Justice’s concurrence.” Whole Woman's Health
v. Paxton, 978 F.3d 896, 920 (5th Cir.), reh’g en banc granted,
opinion vacated, 978 F.3d 974 (5th Cir. 2020) (Willett, J., dissenting).
1

30a
This analysis begins with what I think the majority has right, which is quite a bit.
To start, the majority of course identifies the correct basic rule from Marks: “When a fragmented court
decides a case and no single rationale explaining the
result enjoys the assent of five Justices, ‘the holding
of the Court may be viewed as that position taken by
those Members who concurred in the judgments on
the narrowest grounds.’” Marks v. United States, 430
U.S. 188, 193 (1977) (quoting Gregg v. Georgia, 428
U.S. 153, 169 n.15 (1976) (plurality opinion of Stewart, Powell, and Stevens, JJ.)).
Second, the majority correctly warns that “the
Marks rule is ‘more easily stated than applied’ and
that it has ‘baﬄed and divided’ lower courts.” Majority
Op. at 8 (quoting Grutter v. Bollinger, 539 U.S. 306,
325 (2003)). That’s beyond dispute.
Third, the majority fairly summarizes our cases
interpreting the Marks rule. For example, “under
Marks, the positions of those Justices who dissented
from the judgment are not counted in trying to discern
a governing holding from divided opinions,” Gibson v.
Am. Cyanamid Co., 760 F.3d 600, 620 (7th Cir. 2014),
so we cannot stitch together dissenting and concurring opinions to declare that a new rule of law has
been handed down.

31a
And though this next point is not as clear from our
case law,2 I also agree with the majority that we don’t
generally adopt every word of a “swing vote’s” lone
concurrence as the binding opinion of the Court; rather, we take only the part of that opinion that serves
as “a logical subset of other, broader opinions,” id. at
619 (quoting King v. Palmer, 950 F.2d 771, 781 (D.C.
Cir. 1991) (en banc)), or the “‘common denominator’
for the judgment,” United States v. Heron, 564 F.3d
879, 884 (7th Cir. 2009).
Where I part ways with the majority is at the next
and admittedly more diﬃcult question: What part of
Chief Justice Roberts’s concurrence in June Medical
is a “logical subset” of the plurality opinion or serves
as the “common denominator” to support the judgment?

For example, two members of this panel, myself included,
have applied Marks without emphasizing that we follow only the
part of the concurrence that forms a logical subset of the plurality’s reasoning, not necessarily everything the concurrence said.
See United States v. Dixon, 687 F.3d 356, 359 (7th Cir. 2012)
(Hamilton, J.) (“Marks is easy to apply here. Even though eight
Justices disagreed with Justice Sotomayor’s approach and believed it would produce arbitrary and unworkable results, her
reasoning provided the narrowest, most case-specific basis for
deciding [the case]. Her approach therefore states the controlling
law.” (citations omitted)); Schultz v. City of Cumberland, 228
F.3d 831, 842 n.2 (7th Cir. 2000) (Kanne, J.) (“A divided Court
issued four separate opinions …, but under Marks …, Justice
Souter’s concurrence is the controlling opinion on this issue, as
the most narrow opinion joining the judgment of the Court.”).
2

32a
The majority concludes that in June Medical, the
“critical sliver of common ground between the plurality and the concurrence” is that “Whole Woman’s
Health was entitled to stare decisis eﬀect on essentially identical facts.” Majority Op. at 16. But that
conclusion ignores the substance of Chief Justice Roberts’s position. In fact, the majority disregards the
Chief Justice’s words entirely, save for one quote in
the final pages. If the Marks rule demands one thing,
it’s that we (to paraphrase Justice Frankfurter) read
the opinions, read the opinions, read the opinions, to
discern a common denominator of the Court’s reasoning. Henry J. Friendly, Benchmarks 202 (1967). And
once we read the opinions, it becomes clear that the
Chief Justice concurred on a much narrower and more
specific ground than the majority determines.
The Chief Justice began his concurrence by reiterating his continued belief that Whole Woman’s Health
“was wrongly decided.” June Medical, 140 S. Ct. at
2133 (Roberts, C.J., concurring). “The question” in
June Medical, however, was “not whether Whole
Woman’s Health was right or wrong, but whether to
adhere to it in deciding the present case.” Id.
That led to a discussion of stare decisis principles.
Among other things, Chief Justice Roberts stressed
that “[s]tare decisis principles … determine how we
handle a decision that itself departed from the cases
that came before it. In those instances, ‘[r]emaining
true to an “intrinsically sounder” doctrine established
in prior cases better serves the values of stare decisis
than would following’ the recent departure.” Id. at

33a
2134 (quoting Adarand Constructors, Inc. v. Peña, 515
U.S. 200, 231 (1995) (plurality opinion)).
Chief Justice Roberts then turned to Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992), which established the undue burden standard that both parties agreed “provide[d] the
appropriate framework to analyze Louisiana’s law.”
June Medical, 140 S. Ct. at 2135 (Roberts, C.J., concurring). As the Chief Justice put it: “Under Casey, …
‘[a] finding of an undue burden is a shorthand for the
conclusion that a state regulation has the purpose or
eﬀect of placing a substantial obstacle in the path of a
woman seeking an abortion of a nonviable fetus.’
Laws that do not pose a substantial obstacle to abortion access are permissible, so long as they are ‘reasonably related’ to a legitimate state interest.” Id. (citation omitted) (quoting Casey, 505 U.S. at 877, 878).
Then, the Chief Justice observed that in Whole
Woman’s Health, the Court “faithfully recit[ed] this
standard” from Casey but “added the following observation: ‘The rule announced in Casey ... requires that
courts consider the burdens a law imposes on abortion
access together with the benefits those laws confer.’”
Id. (quoting Whole Woman’s Health, 136 S. Ct. at
2309). That suggestion was repeated by the June
Medical plurality. Id. And “[r]ead in isolation from
Casey,” that suggestion “could invite a grand ‘balancing test in which unweighted factors mysteriously are
weighed.’ Under such tests, ‘equality of treatment is
... impossible to achieve; predictability is destroyed;
judicial arbitrariness is facilitated; judicial courage is
impaired.’” Id. at 2135–36 (citations omitted) (first

34a
quoting Marrs v. Motorola, Inc., 577 F.3d 783, 788
(7th Cir. 2009); and then quoting Antonin Scalia, The
Rule of Law as a Law of Rules, 56 U. Chi. L. Rev. 1175,
1182 (1989)).
But according to Chief Justice Roberts, “[n]othing
about Casey suggested that a weighing of costs and
benefits of an abortion regulation was a job for the
courts.” Id. at 2136. “Casey instead focuses on the existence of a substantial obstacle … .” Id. So, because
“[w]e should respect the statement in Whole Woman’s
Health that it was applying the undue burden standard of Casey,” id. at 2138, “Casey’s requirement of
finding a substantial obstacle before invalidating an
abortion regulation [was] a suﬃcient basis for the decision … in Whole Woman’s Health” and thus too for
the decision in June Medical, id. at 2139. “In neither
case, nor in Casey itself, was there call for consideration of a regulation’s benefits, and nothing in Casey
commands such consideration.” Id.
Finally, the Chief Justice came to his ultimate conclusion:
Under principles of stare decisis, I agree
with the plurality that the determination in
Whole Woman’s Health that Texas’s law imposed a substantial obstacle requires the
same determination about Louisiana’s law.
Under those same principles, I would adhere to the holding of Casey, requiring a substantial obstacle before striking down an
abortion regulation. Id.

35a
And that is the critical sliver of common ground
between the plurality and the concurrence: Casey’s requirement of “a substantial obstacle before striking
down an abortion regulation,” and the Court’s prior
determination that “Texas’s law imposed a substantial obstacle,” compelled “the same determination
about Louisiana’s law.” Id.
Therefore, the majority’s formulation of the common ground (“Whole Woman’s Health was entitled to
stare decisis effect on essentially identical facts”),
while true in some opaque sense, is imprecise.
Nowhere does the Chief Justice suggest that
Whole Woman’s Health’s formulation of a balancing
test is entitled to stare decisis eﬀect—only its requirement of a substantial obstacle is. In fact, he quite
clearly warns us of a sinister “grand ‘balancing test’”
that departs from Casey, id. at 2135 (quoting Marrs,
577 F.3d at 788), and reminds us that when a decision
“depart[s] from the cases that came before it, …
‘[r]emaining true to an “intrinsically sounder” doctrine established in prior cases better serves the values of stare decisis than would following’ the recent
departure,” id. at 2134 (quoting Adarand Constructors, 515 U.S. at 231).
Translation: Where Whole Woman’s Health paid
lip service to Casey but then strayed from it by weighing benefits, it is better to remain true to Casey’s established substantial-obstacle analysis than to follow
the errant departure from it. So courts should continue to apply the substantial-obstacle test from Casey.

36a
The majority objects to reading this much into
Chief Justice Roberts’s opinion because “[t]he portions of the concurrence going beyond stare decisis did
not support the judgment and are obiter dicta.” Majority Op. at 18. But “[a] dictum is a statement in a
judicial opinion that could have been deleted without
seriously impairing the analytical foundations of the
holding.” Sarnoﬀ v. Am. Home Prods. Corp., 798 F.2d
1075, 1084 (7th Cir. 1986), abrogated on other
grounds by Hart v. Schering–Plough Corp., 253 F.3d
272 (7th Cir. 2001). The Chief Justice’s discussion of
Whole Woman’s Health and its flawed balancing test
plainly formed the “analytical foundation” for his conclusion that only Whole Woman’s Health’s finding of a
substantial obstacle was to be given stare decisis
eﬀect.
At any rate, the Chief Justice’s stare decisis discussion alone supports that conclusion. And even if
everything but the Chief Justice’s bottom-line conclusion were disregarded as dicta, still we are left with
the same unavoidable outcome: “Under principles of
stare decisis, I agree with the plurality that the determination in Whole Woman’s Health that Texas’s
law imposed a substantial obstacle requires the same
determination about Louisiana’s law,” and “I would
[also] adhere to the holding of Casey, requiring a substantial obstacle before striking down an abortion regulation.” June Medical, 140 S. Ct. at 2139 (Roberts,
C.J., concurring) (emphases added).
The majority’s abridged version of this bottom
line—“Whole Woman’s Health was entitled to stare
decisis eﬀect on essentially identical facts”—seems a

37a
simply abstract statement of law, not the Chief Justice’s ultimate conclusion supporting the judgment.
The majority also objects that following the Chief
Justice’s approach would “overrule” Whole Woman’s
Health. However, the majority also acknowledges
that “[t]he question” in June Medical was “not
whether Whole Woman’s Health was right or wrong,
but whether to adhere to it in deciding the present
case.” Id. at 2133. So if the Chief Justice did not overrule Whole Woman’s Health by “respect[ing]” its statement that it was following Casey, id. at 2138, refusing
to read it “in isolation from Casey,” id. at 2135, and
giving stare decisis eﬀect to only the substantial-obstacle finding necessary to its judgment, id. at 2138,
it is diﬃcult to see how we would overrule Whole
Woman’s Health by doing the same.
My position also is not groundbreaking. The two
other circuits that have conclusively resolved this issue came to the same outcome. Hopkins v. Jegley, 968
F.3d 912, 915 (8th Cir. 2020) (per curiam); EMW
Women’s Surgical Ctr. P.S.C. v. Friedlander, 978 F.3d
418, 437 (6th Cir. 2020); Little Rock Family Planning
Servs. v. Rutledge, 984 F.3d 682, 687 n.2 (8th Cir.
2021).
The majority disregards these cases as “not consistent with this circuit’s approach to Marks.” Majority Op. at 22. There are some diﬀerences in our approaches, to be sure. The Eighth Circuit, for example,
declared that Chief Justice Roberts’s “separate opinion is controlling” because he was the swing vote.
Hopkins, 968 F.3d at 915. That’s a bit oversimplistic

38a
for our precedent requiring us to adopt only that portion of the concurring opinion that forms a “logical
subset” of the plurality’s reasoning. And the Sixth
Circuit concluded that the Chief Justice’s concurrence
provides the governing standard “[b]ecause all laws
invalid under the Chief Justice’s rationale are invalid
under the plurality’s, but not all laws invalid under
the plurality’s rationale are invalid under the Chief
Justice’s.” Friedlander, 978 F.3d at 433. We have not
adopted that sort of reasoning.
But even if we cannot rely on their approaches under Marks, that those courts reached the same conclusion while applying diﬀerent standards even between
themselves is stronger evidence that their outcome is
correct than that it is wrong. And in my view, our own
standards governing the application of the Marks rule
force the same result reached by those circuits. That
really should come as no surprise given that, at bottom, each circuit is trying its level best to apply the
same guidance from Marks to the same set of opinions
in June Medical, varying circuit precedents notwithstanding.
There is also a speck of precedent from the Fifth
Circuit that the majority suggests lends it support.
That’s a generous suggestion. The Fifth Circuit first
addressed this issue when it considered Texas’s motion to stay an injunction against the enforcement of
its statute requiring women to undergo certain medical procedures before receiving “dilation and evacuation” abortions. Whole Woman’s Health v. Paxton,
972 F.3d 649 (5th Cir. 2020). The panel majority denied the motion as “procedurally improper,” id. at

39a
652, but apart from that, it also devoted a few words
to rejecting Judge Willett’s dissenting view that the
district court’s injunction rested upon an invalid balancing test, id. at 654 (Willett, J., dissenting). The
majority concluded that Whole Woman’s Health’s “formulation of the [balancing] test continues to govern
this case.” Id. at 653 (majority opinion).
Two months later, the same panel again addressed
the Marks issue and held to its prior conclusion over
a lengthy dissent from Judge Willett. Whole Woman’s
Health v. Paxton, 978 F.3d 896 (5th Cir. 2020). But en
banc review has since been granted, and the panel’s
second decision has been vacated. Whole Woman’s
Health v. Paxton, 978 F.3d 974, 975 (5th Cir. 2020).
Its earlier discussion, while technically still on the
books, is clearly in limbo, too.
What’s more, even if the Fifth Circuit panel agreed
with the majority’s outcome, its analysis conflicts with
the majority’s approach here. The majority here says
that “[t]he logical subset approach to Marks applies”
and that there is a “sliver of common ground between
the plurality and the concurrence.” Majority Op. at
16. But the Fifth Circuit panel held that Chief Justice
Roberts’s “concurrence cannot ‘be viewed as a logical
subset of the’ plurality’s opinion” or “logically compatible” with it. Paxton, 978 F.3d at 904 (quoting United
States v. Duron-Caldera, 737 F.3d 988, 994 n.4 (5th
Cir. 2013)).
Which is to say, no other court has adopted the majority’s reasoning. The majority has scant support
from our sister circuits, and it might soon have none.

40a
***
To summarize, June Medical is not nugatory, but
neither does it overrule Whole Woman’s Health. It
simply demands that courts continue to apply Casey’s
substantial-obstacle test, which survives both Whole
Woman’s Health and June Medical by operation of the
Marks rule. The majority in this case erred, therefore,
by weighing the benefits conferred by Indiana’s law
against its burdens. This is just the sort of “grand balancing test” that the Chief Justice disclaimed, and it
goes far beyond the narrowest common ground supporting the judgment in June Medical. It thus has no
place in our analysis, and the majority should have
corrected its error on remand by returning to the settled substantial-obstacle test from Casey.
The majority’s error is even more disconcerting
considering the procedural posture and “limited factual record” in this case. Adams, 937 F.3d at 988. The
record is limited, of course, because the court enjoined
enforcement of the law before it went into eﬀect. The
obvious question is, how is a state ever supposed to
overcome the majority’s “grand balancing test” when
a court can stamp out its abortion regulations before
they even get oﬀ the ground? Are we to expect the
state to reach into some alternate reality, where its
popularly enacted laws were let alone, and pluck evidence of their benefits from there? See id. at 997
(Kanne, J., dissenting) (“Generalized information
about abortion regulation writ large cannot substitute
for specific, tailored data regarding the statute at is-

41a
sue.”). If “weighing [the] costs and benefits of an abortion regulation” has really become “a job for the
courts,” June Medical, 140 S. Ct. at 2136 (Roberts,
C.J., concurring), then surely it must be “an abuse of
discretion for a district judge to issue a pre-enforcement injunction while the eﬀects of the law (and reasons for those eﬀects) are open to debate,” A Woman’s
Choice, 305 F.3d at 693.
The other reasons for my prior dissent remain unchanged. The Supreme Court has confirmed that parental-notification requirements are constitutional
time and again. And Planned Parenthood has failed
to show that requiring mature minors to notify their
parents that they intend to have an abortion (where a
judge has found that avoiding notification is not in
their best interests) constitutes an undue burden under Casey. This court should reverse the district
court’s injunction and let Indiana exercise its legislative judgment that a parental-notification law best
serves the interests of its citizens.
I respectfully dissent.

42a
In the
United States Court of Appeals
For the Seventh Circuit
––––––––––––––––––––
No. 17-2428
PLANNED PARENTHOOD OF INDIANA
AND KENTUCKY, INC.,
Plaintiff-Appellee,
v.
JEROME M. ADAMS, Commissioner, Indiana State
Department of Health, et al.,
Defendants-Appellants.
––––––––––––––––––––
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:17-cv-01636 – Sarah Evans Barker, Judge.
––––––––––––––––––––
ARGUED JANUARY 5, 2018
DECIDED AUGUST 27, 2019
––––––––––––––––––––
Before KANNE, ROVNER, and HAMILTON Circuit
Judges.
HAMILTON, Circuit Judge. Consistent with Bellotti
v. Baird, 443 U.S. 622 (1979), Indiana statutes have
long provided a fast and confidential judicial bypass
procedure that is supposed to allow a small fraction of
pregnant, unemancipated minors seeking abortions
to obtain them without the consent of or notice to their

43a
parents, guardians, or custodians. In 2017, Indiana
added a parental notification requirement to the judicial bypass statute. Before the law took eﬀect, plaintiﬀ
Planned Parenthood of Indiana and Kentucky, Inc.
sued to enjoin its enforcement. In a careful opinion,
the district court issued a preliminary injunction
against enforcement of the new law’s notice requirements. Planned Parenthood of Indiana & Kentucky,
Inc. v. Commissioner, 258 F. Supp. 3d 929, 956 (S.D.
Ind. 2017). The defendant state oﬃcials have appealed a portion of the preliminary injunction. In light
of the lopsided factual record, the deferential standard of review, and the preliminary status of the findings of fact and conclusions of law, we aﬃrm.
I. Legislative Changes
As a general rule, Indiana prohibits physicians
from performing abortions for unemancipated minors
without the written consent of the minor’s parent, legal guardian, or custodian. Ind. Code § 16-34-2-4(a).
The law provides an exception, however, so that a minor who objects to the consent requirement or whose
parent, guardian, or custodian refuses to consent may
petition a juvenile court for a waiver of the con- sent
requirement. Ind. Code § 16-34-2-4(b). Known as a judicial bypass, this procedure permits the minor to obtain an abortion without parental consent if the court
finds either that she is mature enough to make the
abortion decision independently or that an abortion is
in her best interests. Ind. Code § 16-34-2-4(e). Bellotti
requires this exception as a matter of federal constitutional law. 443 U.S. at 643–44 (opinion of Pow- ell,
J.); accord, Planned Parenthood of Southeastern

44a
Pennsylvania v. Casey, 505 U.S. 833, 899 (1992). Bypass is supposed to be fast and confidential. Bellotti,
443 U.S. at 644 (bypass proceeding and any appeals
must “be completed with anonymity and suﬃcient expedition to provide an eﬀective opportunity for an
abortion to be obtained”).
In 2017, the Indiana General Assembly enacted
Public Law 173-2017, also known as Senate Enrolled
Act 404, which amended the parental consent and judicial bypass statutes in several ways. This appeal focuses on one new requirement for the judicial bypass
process. Even if a judge concludes that a parent need
not consent to the abortion, either because the unemancipated minor is mature enough to make her
own decision or because the abortion is in her best interests, and even though the bypass process is supposed to be confidential per Bellotti, parents still must
be given prior notice of the planned abortion unless
the judge also finds such notice is not in the minor’s
“best interests.” Ind. Code § 16-34-2-4(d). The young
woman’s attorney “shall serve the notice required by
this sub- section by certified mail or by personal service.” Id. A bypass court “shall waive the requirement
of parental notification un- der subsection (d) if the
court finds that obtaining an abortion without parental notification is in the best interests of the un- emancipated pregnant minor.” Ind. Code § 16-34-2-4(e).
That diﬀerence in language is important. Unlike the
judicial bypass of the parental consent requirement,

45a
which may be based on either maturity or best interests, judicial bypass of notice may be based only on
“best interests.”3
Out of the usual sequence for a judicial opinion, we
ad- dress here one interpretive issue about the new
notice requirement. We disagree with Planned
Parenthood’s argument that the statute permits notice to parents even if the bypass court refuses to allow the pregnant minor to proceed without her parents’ consent. The statute requires notice to parents
after a bypass hearing but “before the abortion is performed,” Ind. Code § 16-34-2-4(d). We agree with the
State that the requirement to serve notice is triggered
only if the judge authorizes an abortion. See Zbaraz
v. Madigan, 572 F.3d 370, 383 (7th Cir. 2009) (“Where
fairly possible, courts should construe a statute to
avoid a danger of unconstitutionality.”), quoting Ohio
v. Akron Center for Reproductive Health, 497 U.S.
502, 514 (1990). Bypass proceedings and appeals are
sealed. Ind. Code § 16-34-2-4(h). The new statute does
not provide a legal mechanism that would allow a

These changes make Indiana something of an outlier. Only
two states, Oklahoma and Utah, have parental notice statutes
that appear to be more restrictive by not including any form of
judicial bypass. See Okla. Stat. Ann. tit. 63, §§ 1-744 to 1-744.6;
Utah Code Ann. § 76-7-304. The Supreme Court upheld the Utah
statute, but its decision does not control here because that plaintiff “made no claim or showing as to her maturity or as to her
relations with her parents.” H.L. v. Matheson, 450 U.S. 398, 407
(1981); see also id. at 415–16 (Powell, J., concurring) (explaining
that lack of detail about individual plaintiff’s situation had been
deliberate choice consistent with seeking broad judicial remedy).
3

46a
judge to order notice to parents of a minor’s unsuccessful attempt to seek bypass.4
In addition to the notice requirement, Public Law
173-2017 changed the consent and judicial bypass
statutes in other ways. Indiana already required parents to show their consent in writing, but the new law
raised that requirement. It required a physician performing an abortion for a minor not only to obtain
written parental consent but also to obtain government-issued proof of identification from the consenting parent, as well as “some evidence, which may include identification or other written documentation
that provides an articulable basis for a reasonably
prudent person to believe that the person is the parent or legal guardian or custodian of the unemancipated pregnant minor.” Ind. Code § 16-34-2-4(a)(3).
The new law also required a physician who obtains
parental consent to execute and save an aﬃdavit certifying that “a reasonable person under similar circumstances would rely on the information provided by
the unemancipated pregnant minor and the unemancipated pregnant minor’s parent or legal guardian or

The new, challenged Indiana notice requirement opens the
door, however, for the minor’s parents to choose to disclose her
pregnancy, her abortion, and/or the judicial bypass process to
anyone they like and for any purpose they like. Cf. Planned
Parenthood v. Casey, 505 U.S. at 893 (noting that many women
who feared notifying their spouses of planned abortions may fear
“devastating forms of psychological abuse,” including “the withdrawal of financial support, or the disclosure of the abortion to
family and friends,” which “may act as even more of a deterrent
to notification than the possibility of physical violence”).
4

47a
custodian as suﬃcient evidence of identity and relationship.” Ind. Code § 16-34-2-4(k)(2).
The new law also added a section imposing civil
liability on anyone who “knowingly or intentionally
aid[s] or assist[s] an unemancipated pregnant minor
in obtaining an abortion without the consent required” by the consent statute. Ind. Code § 16-34-24.2(c). In the district court, the parties agreed that
this provision would prohibit Planned Parenthood
and its physicians from providing an unemancipated
minor information regarding out-of-state abortion
services which ostensibly would not require parental
consent or notice. Planned Parenthood, 258 F. Supp.
3d at 934. The district court’s preliminary injunction
enjoined enforcement of all of those changes. Id. at
956. In this appeal, Indiana has not challenged those
portions of the injunction, so we do not discuss them
further.
Returning to the disputed new parental notice requirement in the judicial bypass procedure, it is relevant that Indiana law authorizes both criminal penalties and professional licensing sanctions against
abortion providers and their employees for violating
portions of Indiana’s abortion law. E.g., Ind. Code §
16-34-2-7(b) (physician who intentionally or knowingly performs abortion in violation of Ind. Code § 1634-2-4 commits Class A misdemeanor); Ind. Code §
25-1-9-4(a)(2)-(3) (Indiana Medical Licensing Board
may discipline physicians who commit crimes); 410
Ind. Admin. Code § 26-2-8(b)(2) (abortion facilities,
like some Planned Parenthood facilities, are subject

48a
to license revocation or discipline for “permitting, aiding, or abetting the commission of any illegal act in an
abortion clinic”).
Before the new law took eﬀect, Planned
Parenthood brought this lawsuit against several defendants in their oﬃcial capacities: the Commissioner
of the Indiana State Department of Health, the prosecutors of Marion, Lake, Monroe, and Tippecanoe
Counties, the members of the Indiana Medical Licensing Board, and the judge of the Juvenile Division of
the Marion Superior Court (collectively, the “State”).
The State appeals the portion of the preliminary injunction against the new parental notice requirement.
II. The Evidence and Likely Eﬀects
In support of its motion for preliminary injunction,
Planned Parenthood submitted aﬃdavits from seven
witnesses to show the likely eﬀects of the statute. The
State chose to introduce no evidence in response. The
State argued that it was “self-evident” that it had met
its burden to justify the law with a legitimate state
interest. The State did not challenge the reliability or
credibility of Planned Parenthood’s evidence. That
lopsided factual record indicates that, for the small
group of minors aﬀected by this law, requiring parental notice is likely a “deal breaker” for a significant
fraction. Smith Decl.¶ 20. Our summary of the evidence draws heavily from Judge Barker’s thorough
opinion.
Planned Parenthood is a not-for-profit corporation
that operates multiple Indiana health centers. Beeley

49a
Decl. ¶ 3. Those centers provide reproductive health
services and comprehensive sexuality education to
thousands of women and men, including adults and
teenagers. Id. Consistent with Indiana law, Planned
Parenthood physicians provide abortions to minors at
the four Planned Parenthood facilities in Indiana that
oﬀer abortion services. Beeley Decl. ¶¶ 4–5, 8. The
vast majority of these minors obtain consent from
their parents, guardians, or custodians. In fiscal year
2015 (the most recent data in the record), over 96 percent had obtained consent; fewer than four percent
had obtained a judicial bypass. Beeley Decl. ¶¶ 9, 19.
That amounts on average to about ten judicial- bypass
abortions per year by Planned Parenthood. See Smith
Decl. ¶ 9.
Planned Parenthood counsels minors to discuss
their de- sire for an abortion with a parent. Beeley
Decl. ¶ 20. Some minors tell Planned Parenthood staﬀ
that they do not want to, or feel they cannot, inform
their parents that they are pregnant and wish to obtain an abortion. Id., ¶¶ 20–21. In that case, Planned
Parenthood gives the minor the telephone number of
the bypass coordinator—a person who does not work
for Planned Parenthood and who maintains a list of
attorneys who can represent a young woman in a judicial bypass proceeding. Beeley Decl. ¶ 24; Smith
Decl. ¶¶ 5-6. Planned Parenthood does not sponsor
the bypass coordinator’s eﬀorts. Smith Decl. ¶ 6.
Over a six-year period, between October 2011 and
September 2017, approximately 60 minors contacted
Indiana’s bypass coordinator. Smith Decl. ¶ 9. Most
were seventeen years old. Id. Usually, the young

50a
women interested in pursuing judicial bypass have
not told their parents that they are pregnant and are
seeking an abortion. Id., ¶ 14. These young women
have expressed various reasons for not telling their
parents. Some fear being kicked out of their homes.
Others fear being abused or punished, or fear that
their parents will try to block an abortion. Id., ¶¶ 15–
16; Beeley Decl. ¶ 22; Flood Decl. ¶ 9; Pinto Decl. ¶¶
14–15; Lucido Decl. ¶¶ 8–12. One young woman was
forced to give birth because her mother discovered her
pregnancy and blocked her ability to have an abortion. Glynn Decl. ¶ 13.
Other minors express related concerns like injury
to their relationships with their parents or parental
disappointment. Smith Decl. ¶ 17. Some minors do
not know where their parents are and have no legal
guardian or custodian who could fulfill the consent requirement. Beeley Decl. ¶ 23; Lucido Decl. ¶ 13. Consistently, the young women express their fear that
their parent(s) will discover that they are pregnant
and seeking an abortion. Smith Decl. ¶ 18; Glynn
Decl. ¶ 12; Lucido Decl. ¶¶ 8–13.
The bypass coordinator currently informs young
women that no one involved in the bypass process will
notify their parents that they are pregnant or seeking
an abortion. Smith Decl. ¶ 18. As the district court
found, however, Indiana’s new law makes this assurance impossible. 258 F. Supp. 3d at 936–37. The district court also found that bypasses granted to
Planned Parenthood’s patients “have generally been
based on the juvenile court’s finding that the minor
was suﬃciently mature to make the abortion decision

51a
independent of her parents,” as distinct from the minor’s “best interests.” Id. at 936, citing Beeley Decl. ¶
26; Flood Decl. ¶ 6; Glynn Decl. ¶ 9.
III. The District Court’s Analysis
The district court enjoined the enforcement of the
parental
notification
requirement.
Planned
Parenthood, 258 F. Supp. 3d at 956. The court identified the tension in the case law regarding the standard for a pre-enforcement facial challenge of an abortion statute, id. at 937–39, and noted that “the severity and character of harm presented by certain abortion restrictions render them vulnerable to pre-enforcement facial challenges.” Id. at 939. Crediting the
uncontradicted aﬃdavits oﬀered by Planned
Parenthood, the district court found that “the requirement of providing parental notification before obtaining an abortion carries with it the threat of domestic
abuse, intimidation, coercion, and actual physical obstruction.” Id. The court therefore rejected as “simply
incorrect” the State’s argument that Planned
Parenthood must wait to challenge the law until it
has evidence of the law’s eﬀect after it goes into eﬀect.
Id.
On the merits, the district court reviewed the evolution of both Supreme Court and circuit precedent in
this challenging area of the law. 258 F. Supp. 3d at
940–46. Following the command of Planned
Parenthood v. Casey in applying the “undue burden”
standard, the district court identified the relevant
group of young women as the “group for whom the law

52a
is a restriction, not the group for whom the law is irrelevant.” Id. at 939, quoting 505 U.S. at 894. The
court then described that group as young women who
face the possibility of interference, obstruction, or
abuse as a result of the parental notification requirement. The district court entered a preliminary injunction because the notice requirement was likely to
“create an undue burden for a suﬃciently large fraction of mature, abortion-seeking minors in Indiana.”
258 F. Supp. 3d at 939–40, citing Whole Woman’s
Health v. Hellerstedt, 136 S. Ct. 2292, 2320 (2016).
IV. Pre-Enforcement Facial Challenge
The State argues that the district court erred in
issuing the preliminary injunction because a facial
challenge requires evidence of a law’s eﬀects, and that
evidence can be obtained only by allowing a law to go
into eﬀect. The State’s position derives primarily from
language in our decision in A Woman’s Choice-East
Side Women’s Clinic v. Newman, where we said that
“it is an abuse of discretion for a district judge to issue
a pre-enforcement injunction while the eﬀects of the
law (and reasons for those eﬀects) are open to debate.”
305 F.3d 684, 693 (7th Cir. 2002). Strictly speaking,
this passage was dicta in the opinion, which addressed a permanent injunction after discovery and a
full trial, not the earlier preliminary injunction, but it
was obviously considered dicta.
The State’s position overstates the evidence required for a pre-enforcement facial challenge, as
shown by a broader look at cases decided before and
after A Woman’s Choice. When we decided A Woman’s

53a
Choice, there was a sharper conflict in Supreme Court
precedent on this question. In United States v. Salerno, the Supreme Court had said broadly that, outside the First Amendment, a law is facially invalid
only where “no set of circumstances exists under
which the Act would be valid.” 481 U.S. 739, 745
(1987). But Salerno was about the Bail Reform Act. In
Casey and in Stenberg v. Carhart, the Court had invalidated two abortion statutes on pre-enforcement
facial challenges without even mentioning Salerno.
See Casey, 505 U.S. at 845, 895; Stenberg, 530 U.S.
914, 945 (2000).
The State argues that A Woman’s Choice resolved
the tension and that “the applicable test on a pre-enforcement facial challenge to an abortion regulation is
whether the law will incontrovertibly impose an undue burden.” State’s Br. at 12. It is diﬃcult to reconcile this rule of thumb with the general standard for
preliminary injunctions, which requires the district
court to exercise its sound equitable discretion in balancing several factors. See Winter v. Natural Resources Defense Council, Inc., 555 U.S. 7, 24 (2008).
Also, other decisions by this court, both before and after A Woman’s Choice, have recognized that the law
on this question has not been as clear-cut as the State
argues. See, e.g., Zbaraz v. Madigan, 572 F.3d at 381
n.6 (noting “some disagreement” over applicability of
Casey’s “large fraction” test or Salerno’s “no set of circumstances” test—because of 2008 Supreme Court
decision aﬃrming Salerno’s applicability outside
abortion context—but upholding parental no- tice requirement with judicial bypass under either standard); Karlin v. Foust, 188 F.3d 446, 483 (7th Cir. 1999)

54a
(noting “considerable disagreement” over which
standard to apply because Casey “appears to have
tempered, if not rejected, Salerno’s stringent ‘no set of
circumstances’ standard in the abortion context,” but
assuming applicability of Casey’s large fraction test
because neither party appealed district court’s use of
Casey test); see also Planned Parenthood of Wisconsin, Inc. v. Van Hollen, 738 F.3d 786, 788, 789 (7th
Cir. 2013) (aﬃrming injunction against requirement
that physicians who perform abortions have admitting privileges at nearby hospital).
The biggest problem for the State’s argument is
that A Woman’s Choice was decided before the Supreme Court decided Whole Woman’s Health v. Hellerstedt, which confirmed that the Casey undue burden standard applies to pre-enforcement facial challenges to statutes regulating abortion. 136 S. Ct. at
2309–10 (identifying Casey undue burden standard as
applicable test); id. at 2314–18 (applying undue burden stand- ard to facial challenge to surgical center
requirement statute); id. at 2320 (identifying denominator for large-fraction test). In Whole Woman’s
Health, the plaintiﬀs brought a pre-enforcement facial challenge to a Texas statute requiring that abortion facilities abide by the same minimum facility
standards as ambulatory surgical centers. See id. at
2300; id. at 2301 (noting that petitioners brought suit
on April 6, 2014 seeking “an in- junction prohibiting
enforcement of the surgical-center provision anywhere in Texas”). The Supreme Court applied the undue burden standard and reversed the denial of an in-

55a
junction, without citing Salerno. To support that reversal, the Court relied on pre-enforcement evidence
from the district court. E.g., id. at 2317.5
These applications fit with the Supreme Court’s
recent acknowledgment that facial challenges may
“proceed under a diverse array of constitutional provisions.” City of Los Angeles v. Patel, 135 S. Ct. 2443,
2449 (2015) (collecting cases); see also Richard H. Fallon, Jr., Fact and Fiction About Facial Challenges, 99
Calif. L. Rev. 915, 918 (2011) (“Facial challenges also
succeed much more frequently than either Supreme
Court Justices or most scholarly commentators have
recognized.”).
V. Applying the Preliminary Injunction Standard
To obtain a preliminary injunction, a plaintiﬀ
must show a reasonable likelihood of success on the
The briefing in Whole Woman’s Health supports this approach. In its brief, Texas assumed that Casey’s “large fraction”
test applied but argued that the Court should apply Salerno’s
“no set of circumstances” test if the Court addressed the issue.
Brief for Respondents at 30 n.10, Whole Woman’s Health, 136 S.
Ct. 2292 (No. 15-274), 2016 WL 344496, at *30 n.10. The Court
did not address this argument explicitly but rejected it implicitly, following Casey. The dissenting Justices in Whole Woman’s
Health also did not invoke Salerno. Another portion of Whole
Woman’s Health challenged a requirement that had been allowed to take effect, that physicians have admitting privileges at
nearby hospitals. The evidence showed that after the requirement took effect, it led to closure of about half the facilities
providing abortions in Texas and imposed an undue burden on
women’s right to choose to terminate their pregnancies. 136 S.
Ct. at 2312–13.
5

56a
merits, the absence of an adequate remedy at law, and
a threat of irreparable harm without the injunction.
E.g., Planned Parenthood of Indiana, Inc. v. Commissioner, 699 F.3d 962, 972 (7th Cir. 2012). If the
plaintiﬀ makes this showing, the court weighs two additional factors: the balance of harms—harm to the
plaintiﬀ if the injunction is erroneously denied versus
harm to the defendant if the injunction is erroneously
granted—and the effect of the injunction on the public
interest. Id.; accord, Winter, 555 U.S. at 24; Abbott Laboratories v. Mead Johnson & Co., 971 F.2d 6, 11–12
(7th Cir. 1992). The higher the likelihood of success
on the merits, the less decisively the balance of harms
needs to tilt in the moving party’s favor.
In reviewing a district court’s grant of a preliminary injunction, we review factual findings for clear
error, legal conclusions de novo, and balancing of the
equitable factors for abuse of discretion. The abuse of
discretion standard means that the district court’s
weighing of evidence and balancing of the equitable
factors receive “substantial deference.” Whitaker v.
Kenosha Unified School Dist. No. 1 Bd. of Educ., 858
F.3d 1034, 1044 (7th Cir. 2017). That deference is appropriate given the nature of preliminary injunction
decisions, which must be based on incomplete information and are subject to further consideration and
revision after discovery, more evidence, and a trial.
Motions for preliminary injunctions call upon
courts to make judgments despite uncertainties. Uncertainty about a law’s application does not necessarily preclude an injunction. We have read Casey as
calling for consideration of a law’s “likely eﬀect.” E.g.,

57a
Karlin, 188 F.3d at 481 (emphasis added). Casey itself
spoke in terms of possibilities in striking down a
spousal notice law before it took eﬀect. See, e.g., 505
U.S. at 893 (“may fear,” “likely to prevent,” “will impose”), 895 (“will operate”) (opinion of the Court) (emphases added).
Our decision in A Woman’s Choice is not inconsistent with this focus. In A Woman’s Choice, the state
had not appealed the preliminary injunction that preserved the status quo while the parties developed a
more complete record. See 305 F.3d at 684. The preliminary injunction had been issued despite the district court’s inability “to draw definitive conclusions.”
Woman’s Choice-East Side Women’s Clinic v. Newman, 904 F. Supp. 1434, 1462 (S.D. Ind. 1995) (emphasis in original). And when we decided the appeal
from the permanent injunction in that case, we distinguished the record before us from the record in Casey
on spousal notice, a record showing a rule “facilitating
domestic violence or even inviting domestic intimidation.” A Woman’s Choice, 305 F.3d at 692.6

As noted above, our opinion in A Woman’s Choice criticized
the un-appealed preliminary injunction in that case, see 305
F.3d at 692–93, but on grounds tied to the pre-enforcement challenge issue discussed above, for which Whole Woman’s Health
provides more recent and authoritative guidance from the Supreme Court.
6

58a
A. Likelihood of Success on the Merits
We consider first Planned Parenthood’s likelihood
of success on the merits, and then turn to the other
equitable factors for preliminary injunctive relief. The
district court concluded that Planned Parenthood
demonstrated a likelihood of success on the merits because the parental notification requirement appeared
highly likely to impose an undue burden for the minors whom it will aﬀect. We agree with the district
court’s analysis, except that we do not need to decide
whether the Supreme Court’s requirements for parental consent statutes also apply in full to parental notice statutes.
Planned Parenthood demonstrated a likelihood of
success on the merits because Indiana’s notice law
creates a substantial risk of a practical veto over a
mature yet unemancipated minor’s right to an abortion. This practical veto appears likely to impose an
undue burden for the unemancipated minors who
seek to obtain an abortion without parental involvement via the judicial bypass. The burden appears to
be undue because the State has made no eﬀort to support with evidence its claimed justifications or to undermine with evidence Planned Parenthood’s showing about the likely eﬀects of the law.

59a
In Whole Woman’s Health, the Supreme Court applied the Casey plurality’s undue burden standard.
136 S. Ct. at 2309–10. The undue burden standard “is
a shorthand for the conclusion that a state regulation
has the purpose or eﬀect of placing a substantial obstacle in the path of a woman seeking an abortion of
a nonviable fetus.” Casey, 505 U.S. at 877 (plurality
opinion). In both cases, the Court took a commonsense approach in considering the practical eﬀects of
the state regulations. Whole Woman’s Health, 136 S.
Ct. at 2317 (“Courts are free to base their findings on
commonsense inferences drawn from the evidence.”);
Casey, 505 U.S. at 892 (opinion of the Court) (noting
that district court’s findings regarding eﬀect of
spousal notice statute and potential for domestic
abuse “reinforce what common sense would suggest”).
1. The Relevant Group for Undue Burden Analysis
If a statute “will operate as a substantial obstacle”
“in a large fraction of the cases in which [it] is relevant,” the statute “is an undue burden and therefore
invalid.” Casey, 505 U.S. at 895 (opinion of the Court);
accord, Whole Woman’s Health, 136 S. Ct. at 2320.
The analysis starts with those “upon whom the statute operates”—i.e., “the group for whom the law is a
restriction, not the group for whom the law is irrelevant.” Casey, 505 U.S. at 894 (opinion of the Court).
For the spousal notice law struck down in Casey, that
was less than one percent of women seeking abortions. This group serves as the denominator for the
relevant fraction Casey described. Under Casey, a
statute that will have the practical eﬀect of giving
someone else a veto over a woman’s abortion decision

60a
is an undue burden. See 505 U.S. at 897 (spousal notice requirement would give husbands of spousal
abuse victims “an eﬀective veto” that “will often be
tantamount to the veto found unconstitutional in
Danforth”) (emphasis added).
Casey qualified its holding on spousal notice by
saying it was “in no way inconsistent” with the
Court’s parental notice and consent requirements for
minors. 505 U.S. at 895. But here, as in Casey, evidence matters. See id. at 887–94 (discussing district
court’s findings and studies of domestic violence).
Planned Parenthood’s evidence—which the State did
not rebut with its own—raises concerns about minors
similar to those the Casey Court had about the practical veto imposed on some women by spousal notice.
Casey shows that a practical veto can be an undue
burden, whether that practical veto is held by a partner or a parent of a mature minor.
The Casey analysis focuses on proportions, not total numbers. See Van Hollen, 738 F.3d at 798 (“It is
not a matter of the number of women likely to be
aﬀected.”). Although the record does not indicate the
exact number of unemancipated minors who will be
aﬀected as they go through the judicial by- pass, the
number appears to be small. In fiscal year 2015, 96
percent of minors who had abortions at Planned
Parenthood facilities in Indiana had their parent or
guardian’s consent. Beeley Decl. ¶ 9. Just four percent
did not have consent. Between October 2011 and September 2017, about 60 young women contacted the bypass coordinator, and only some of them obtained an

61a
abortion. Smith Decl. ¶ 9. On average, that is about
10 minors per year.7
In the district court, Planned Parenthood argued
that the denominator for the Casey fraction is unemancipated minors seeking bypasses. These are the
young women for whom the law’s restriction is relevant. Cf. Casey, 505 U.S. at 895 (opinion of the Court)
(defining denominator as “married women seeking
abortions who do not wish to notify their husbands of
their intentions and who do not qualify for one of the
statutory exceptions to the notice requirement”). The
district court found that the bypasses granted to
Planned Parenthood patients “have generally been
based on the juvenile court’s finding that the minor
was suﬃciently mature.” Planned Parenthood, 258 F.
Supp. 3d at 936, citing Beeley Decl. ¶ 26. Accordingly,
Planned Parenthood argues that the burdensome
eﬀects of the new parental notice requirement produce a large Casey fraction because most bypasses
have been granted on maturity grounds, which is not
a basis for excusing parental notice under the challenged Indiana law. We agree.
On this record, though, the correct numerator and
denominator may both actually be even larger. Both
numbers include not only young women who could be

In calendar year 2017, 236 minors obtained abortions in
Indiana. Indiana State Department of Health, Terminated Pregnancy Report 2017, at 7, available at https://www.in.gov/
isdh/files/2017%20Indiana%20Termi-nated%20Pregnancy%20
Report.pdf.
7

62a
deemed mature in a judicial bypass of the consent requirement, but also young women who are likely to be
deterred from even attempting judicial bypass because of the possibility of parental notice. Indiana has
aimed this requirement at the tiny group of minors
who could show maturity but could not show that parental notice would not be in their best interests. The
evidence in the preliminary injunction record indicates that the statute’s eﬀect will be broader because
it will prevent some minors from even seeking bypass
in the first place. The fear these minors feel at the
prospect of the “chance that their parents will have to
be informed that they are seeking an abortion …
would be a deal breaker.” Smith Decl. ¶ 20.
2. The State’s Interest in the Notice Requirement
Whole Woman’s Health reiterated that Casey “requires that courts consider the burdens a law imposes
on abortion access together with the benefits those
laws confer,” and courts must balance these interests.
136 S. Ct. at 2309. Whole Woman’s Health shows that
courts must consider actual evidence regarding both
claimed benefits and claimed burdens of abortion regulations. Id. at 2309–10. In that case, for example,
Texas argued that its admitting-privileges requirement was intended to provide health benefits in cases
with complications. The evidence showed, however,
that “there was no significant health-related problem
that the new law helped to cure.” Id. at 2311.
In this case, the State has not yet come forward
with evidence showing that there is a problem for the
new parental- notice requirement to solve, let alone

63a
that the law would reasonably be expected to solve it.
See id. The State has several substantial interests
that can be relevant in this context, if there is reason
to think they will be advanced by the new law. E.g.,
Casey, 505 U.S. at 871 (plurality opinion) (“protecting
the potentiality of human life,” quoting Roe v. Wade,
410 U.S. 113, 162 (1973)); Casey, 505 U.S. at 872 (plurality opinion) (“expressing a preference for normal
childbirth,” quoting Webster v. Reproductive Health
Svcs., 492 U.S. 490, 511 (1989)); Planned Parenthood,
258 F. Supp. 3d at 941 (“protecting children and adolescents, preserving family integrity, and encouraging
pa- rental authority”). Against these potential State
interests, minors also have constitutional rights that
require protection. Planned Parenthood of Central
Missouri v. Danforth, 428 U.S. 52, 74 (1976) (“Constitutional rights do not mature and come into being
magically only when one attains the state-defined age
of majority. Minors, as well as adults, are protected
by the Constitution and possess constitutional
rights.”). In the face of evidence of burdensome eﬀects,
it is not enough for the State merely to recite its interests and to claim the new law will serve those interests or to say it is only experimenting.
The State’s arguments assume that, in raising
their children, parents will fulfill the role the Supreme Court has said is constitutional for them to fulfill. We can all hope that that is the reality for the vast
majority of young women who face an unexpected
pregnancy and that they will turn to their parents for
guidance. But the evidence before the district court
here illustrates a diﬀerent and “stark social reality,”
Ohio v. Akron Center for Reproductive Health, 497

64a
U.S. at 537 (Blackmun, J., dissenting), “that there is
‘another world out there,’” id. at 541, quoting Beal v.
Doe, 432 U.S. 438, 463 (1977) (internal quotation
marks omitted). For those pregnant minors aﬀected
by this Indiana law, the record indicates that in a substantial fraction of cases, the parental notice requirement will likely have the practical eﬀect of giving parents a veto over the abortion decision. That practical
eﬀect is an undue burden because it weighs more
heavily in the balance than the State’s interests. We
agree with the district court that the burden of this
law on a young woman considering a judicial bypass
is greater than the eﬀect of judicial bypass on her parents’ authority. Planned Parenthood, 258 F. Supp. 3d
at 948.
Indiana argues that parents need notice because
they need to know about the abortion to be able to care
for their daughter’s health: “abortion is a facet of medical history that could have implications for future
treatment.” State’s Br. at 22. While that rationale
sounds reasonable at first, it is not sup- ported by
logic or evidence. As a matter of logic, if we assume
this knowledge would help parents care for their
daughters later, the State’s proposed benefit would
not depend on giving parents prior notice of an abortion, as the statute requires. Planned Parenthood’s
evidence shows a serious risk that prior notice, instead of giving parents an opportunity to oﬀer wise
counsel, will actually give parents an opportunity to
exercise a practical veto, preventing the pregnant minor from actually exercising the constitutional right
the juvenile court has allowed her to exercise.

65a
In fact, the State has oﬀered no evidence that any
actual benefit is likely or that there is a real problem
that the notice requirement would reasonably be expected to solve. Whole Woman’s Health shows that
myths, speculation, and conventional wisdom are not
enough to justify restrictions on the right to abortion.
136 S. Ct. at 2311 (“there was no significant healthrelated problem that the new law helped to cure”). In
applying the undue burden standard, actual evidence
is key in weighing both the extent of burdens and the
extent of benefits a State oﬀers to justify them. 136 S.
Ct. at 2310, citing Casey, 505 U.S. at 888–94 (discussing evidence showing spousal notice requirement imposed undue burden on right to terminate pregnancy).
In this case, the State oﬀered no evidence to support
these proposed benefits, such as how, why, and how
often a minor’s past abortion is likely to aﬀect her
mental health or her future health-care.8

8 Without relevant evidence in the record, our dissenting colleague cites studies cited in an amicus brief on appeal and in the
concurring opinion in McCorvey v. Hill, 385 F.3d 846, 850–51 &
n.3 (5th Cir. 2004) (Jones, J., concurring), to assert that a mature
minor who has an abortion faces substantial risks to her mental
and physical health and would benefit from her parents’ support.
Post at 45. Because these studies on this controversial subject
are not in the record and have not been subject to adversarial
testing in litigation, we do not address them in detail. As a general rule, how- ever, data on physical health indicate that “complications from an abortion are both rare and rarely dangerous.”
Planned Parenthood of Wisconsin, Inc. v. Schimel, 806 F.3d 908,
912 (7th Cir. 2015); id. at 913 (noting studies finding “that the
rate of complications is below 1 percent”); see also Whole
Woman’s Health, 136 S. Ct. at 2311–12 (finding no legitimate
state interest in requiring facilities that perform abortions also

66a
3. The Burden Imposed by the Notice Requirement
There is of course a formal legal diﬀerence between a notice requirement and a consent requirement. The Supreme Court has drawn that distinction
on the basis that notice statutes “do not give anyone
a veto power over a minor’s abortion decision.” Ohio

have hospital admitting privileges because weight of the evidence revealed extremely low rate of abortion-related complications). Regarding mental health issues, the American Psychological Association undertook a comprehensive review of mental
health studies of women who had abortions and found serious
methodological problems in many published studies finding serious mental health risks. The APA task force found, among
other things, that the “best scientific evidence published indicates that among adult women who have an unplanned pregnancy, the relative risk of mental health problems is no greater
if they have a single elective first-trimester abortion than if they
deliver that pregnancy.” American Psychological Association,
Task Force on Mental Health and Abortion at 4 (2008), available
at
http://www.apa.org/pi/wpo/mental-health-abortion-report.
pdf.
Nothing we decide today prevents the State from presenting
further evidence on such matters to the district court, where
both the State’s and Planned Parenthood’s evidence can be
tested and challenged without the urgent time pressure of a preliminary injunction proceeding. As the Supreme Court outlined
in Whole Woman’s Health, the district court, in “determining the
constitutionality of laws regulating abortion procedures,” will
“place[] considerable weight upon evidence and argument presented in judicial proceedings,” rather than deferring to a legislative resolution of “questions of medical uncertainty.” 136 S. Ct.
at 2310. The district court will then apply “the standard … laid
out in Casey, which asks courts to consider whether any burden
imposed on abortion access is ‘undue.’” Id.

67a
v. Akron Center, 497 U.S. at 511, citing H. L. v. Matheson, 450 U.S. 398, 411 n.17 (1981). Although a notice
requirement is not the formal or legal equivalent of a
consent requirement, it is equally clear that a notice
requirement can operate as the practical equivalent
of a consent requirement. Casey recognized just that
possibility. That was the basis for striking down the
spousal notice requirement. 505 U.S. at 833, 897
(“spousal notice requirement enables the husband to
wield an eﬀective veto over his wife’s decision”); see
also Planned Parenthood v. Miller, 63 F.3d 1452, 1459
(8th Cir. 1995) (distinguishing between notice providing an “opportunity” and consent providing a “tool” to
obstruct abortion).9
The preliminary injunction record here shows the
serious potential for the kind of harms identified in
Casey. For a significant fraction of the small number
of unemancipated minors seeking an abortion via judicial bypass, Indiana’s notice requirement will likely
operate as an undue burden by giving parents a practical veto over the abortion decision. The district court
credited the unchallenged testimony of the bypass coordinator and a bypass attorney indicating that young
This reading of Justice Kennedy’s opinion for the Court in
Ohio v. Akron Center is consistent with Justice Kennedy’s language in another opinion issued the same day. See Hodgson v.
Minnesota, 497 U.S. 417, 496 (1990) (Kennedy, J., dissenting in
part) (“Unlike parental consent laws, a law requiring parental
notice does not give any third party the legal right to make the
minor’s decision for her, or to prevent her from obtaining an
abortion should she choose to have one performed.”) (emphasis
added).
9

68a
women have chosen not to inform their parents of
their pregnancy out of fear of abuse. Planned
Parenthood, 258 F. Supp. 3d at 946–47, citing Smith
Decl. ¶¶ 16–17 and Flood Decl. ¶ 9. The district court
also credited unchallenged testimony that pregnancy
is a “flashpoint” for abuse. Id. at 946, citing Pinto
Decl. ¶¶ 14–15.
This evidence parallels the evidence the Supreme
Court accepted in Casey. 505 U.S. at 889 (opinion of
the Court), quoting district court’s finding of pregnancy as a “flashpoint for battering and violence
within the family,” and at 893 (crediting fear of
“threats of future violence”). The district court found
here that fear of abuse may “prompt pregnant minors
to engage in hazardous self-help measures such as attempting to physically and/or chemically induce miscarriage or to entertain thoughts of suicide.” Planned
Parenthood, 258 F. Supp. 3d at 947, citing Pinto Decl.
¶ 16 (one patient attempted to induce miscarriage by
convincing boyfriend to stomp on her stomach and
push her down stairs; another patient attempted to
induce miscarriage by drinking poison).
The district court also found that notice to parents
could result in actual obstruction of the abortion itself, in addition to indirect obstruction via withdrawal
of financial support. 258 F. Supp. 3d at 946. In Casey,
the Supreme Court credited similar fears of women
who were afraid of notifying their husbands of a pregnancy. 505 U.S. at 893 (discussing fear of “psychological abuse,” including “verbal harassment, threats of
future violence, the destruction of possessions, phys-

69a
ical confinement to the home, the withdrawal of financial support, or the disclosure of the abortion to family
and friends”). The district court found here that Casey’s concerns are “heightened with regard to unemancipated minors, who typically must rely on their
parents … for financial support, housing, and transportation in addition to the many legal incapacities
for which the parents must serve as proxy.” 258 F.
Supp. 3d at 946.
For young women who have these fears, the potential for parental notice is a threat that may deter them
from even at- tempting bypass in the first place. Id. at
947, citing Pinto Decl. ¶ 28; see also Smith Decl., ¶ 20;
Glynn Decl., ¶ 17; Flood Decl., ¶ 13. For some, as
noted, it is a “deal breaker.” Smith Decl. ¶ 20. We
have recognized a similar deterrent eﬀect before. Indiana Planned Parenthood Aﬃliates Ass’n v. Pearson,
716 F.2d 1127, 1141 (7th Cir. 1983) (“It is hardly speculative to imagine that even some mature minors will
be deterred from going to court if they know that their
parents will be notified if their petitions are denied,
because no minor can be certain that the court will
rule in her favor.”). This record gives evidentiary
weight to the possibilities we identified as concerns
about mandatory notice even before Bellotti was decided. See Wynn v. Carey, 582 F.2d 1375, 1388 n.24
(7th Cir. 1978).
We must also recognize that any particular obstacle to exercising the right to choose to end a pregnancy
does not exist in a vacuum. See Whole Woman’s
Health, 136 S. Ct. at 2313. Cumulative eﬀects are relevant, especially in an environment in which very few

70a
clinics and physicians perform abortions in Indiana.
The deterrence shown in this record must be understood in the larger context of the logistical puzzle that
the Indiana bypass statute already requires minors to
solve.
A teenager who suspects she is pregnant but who
has good reasons to fear telling her parents must figure out where to go to determine whether she is pregnant, how to get there (without missing school or
work and without alerting her family), and how to pay
for whatever that initial visit costs. If she visits a
Planned Parenthood clinic, she might find out about
the possibility of a judicial bypass to obtain an abortion. If she wants to pursue that route, she must then
find her way to a state court, with or without a lawyer,
and persuade a judge either that she is mature
enough to have an abortion without her parents’ consent or that doing so would be in her “best interests.”
Even if she proves that she is mature enough to have
the abortion without her parents’ consent, Indiana’s
new law would allow a judge to require parental notice unless she proves that an abortion without parental notice would be in her “best interests.” Planned
Parenthood’s unchallenged evidence shows that the
existence of that additional requirement is likely to
cause a significant fraction of aﬀected young women
to be too afraid to even try to seek an abortion.
None of the district court’s findings are clearly erroneous. The State’s position that the parental notice
requirement does not aﬀord parents a legal or practical right to obstruct the abortion stretches too far. Notice is not the legal equivalent of consent, but a notice

71a
requirement can have the same practical eﬀect as a
consent requirement, as Casey reasoned in striking
down a spousal notice requirement. 505 U.S. at 896–
98; see also Indiana Planned Parenthood Aﬃliates v.
Pearson, 716 F.2d at 1132. The district court credited
Planned Parenthood’s evidence showing that Indiana’s law has the serious potential to create that practical eﬀect by triggering parental obstruction, triggering hazardous self-help, and deterring some minors
from even attempting bypass. The preliminary injunction here was appropriate because, taken individually or collectively, those possibilities demonstrate
serious potential for an undue burden. The undue
burden analysis can include cumulative eﬀects. See
Whole Woman’s Health, 136 S. Ct. at 2313 (de- scribing increased driving distances as “one additional
bur- den … taken together with others”).
In applying the undue burden test, we must also
address two other oddities of the notice requirement.
First, the State acknowledges that a 48-hour parental
notice requirement, like the one the Eighth Circuit
addressed in Miller, 63 F.3d at 1458, “raises additional questions about the opportunity for the parents
to intercede and to obstruct the abortion.” The only
timing requirement in Indiana’s statute is that notice
be given “before the abortion is performed.” Ind. Code
§ 16-34-2-4(d). That is troubling. It leaves the potential for a judge to require notice to be given even
longer in advance than in Miller.
The two methods the statute identifies for delivering that notice pose similar practical problems. The
statute requires that the “attorney representing the

72a
unemancipated pregnant minor shall serve the notice
required by this subsection by certified mail or by personal service.” Id. That puts the minor and her lawyer
in a diﬃcult position. The lawyer cannot control the
timing of delivery of a letter sent by certified mail. To
comply with the requirement of actual notice before
the abortion is to be performed, the lawyer will have
to allow plenty of time for the letter to be delivered
and received, and for the proof of receipt to be returned. As a practical matter, that is likely to require
a planned delay of at least a week and per- haps
longer. Abortions in Indiana require advance scheduling to comply with the State’s informed-consent and
cooling-oﬀ rules. See Ind. Code § 16-34-2-1.1(a).
The only alternative is personal notice to the parents, by the lawyer. Picture the scene: a stranger
knocks at the door and announces to the young
woman’s parents that their daughter is pregnant and
is seeking an abortion, that a judge has authorized
the abortion, and that it will occur soon. The potential
for serious trouble is self-evident, for the lawyer and
for the pregnant minor and her constitutional rights.
And all of this after a judge has already been convinced to bypass parental consent.
The district court’s recognition of the likely practical con- sequences of this law is consistent with Casey.
Casey distinguished its holding as to married women
from the line of cases addressing parental notice or
consent requirements because those cases “are based
on the quite reasonable assumption that minors will
benefit from consultation with their parents and that
children will often not realize that their parents have

73a
their best interests at heart.” 505 U.S. at 895 (opinion
of the Court). Just as the Casey court did not have to
adopt that same assumption for married women, the
district court was not required to adopt it in the face
of this record with unchallenged evidence showing
that the same assumption is too optimistic in a substantial fraction of relevant cases. After all, in this
case, that assumption was directly refuted by evidence for purposes of the preliminary injunction.
The State argues that the notice requirement creates no additional risk for young women who fear parental notice. According to the State, these minors are
“in no worse position than if [they] had not attempted
bypass” because a young woman who initiates the bypass process but fails to convince a court to waive notice can make notice unnecessary by deciding not to
have an abortion. The argument illustrates the potential for irreparable harm. A minor who obtains a bypass of parental consent, only to be forced to choose
between parental notice and not having the abortion,
will still have to weigh the consequences of notice. As
the district court found, minors for whom the potential consequences include, for example, con- templating suicide or self-inducing a miscarriage, Planned
Parenthood, 258 F. Supp. 3d at 947, citing Pinto Decl.
¶ 16, would not be in the same position as if they had
never attempted bypass. They would be worse oﬀ.
Further, the State’s brief acknowledges that at
least one purpose of the notice requirement is to inhibit the eﬀective- ness of the judicial bypass process
itself. While the State asserts some interests that

74a
could be legitimate, at least in theory, one of the interests proﬀered is to “ensure that parents of minor[s] are notified of their abortions and provides
safeguards for the parent-child relationship by preventing circumvention of the consent requirement.”
State’s Br. at 27 (emphasis added). The very purpose
of the constitutionally required judicial bypass is to
“circumvent” the consent requirement in appropriate
cases. If the State had presented evidence that the judicial bypass procedure is being abused in some systematic way, we might see this diﬀerently. But without such evidence, the argument acknowledges that
the new notice requirement is designed to impose a
new burden on a minor exercising her constitutional
right to seek a judicial bypass and thus to be able to
make her own decision about her own pregnancy. Cf.
Casey, 505 U.S. at 877 (plurality opinion) (regulation
with “purpose or eﬀect” of creating substantial obstacle to abortion decision is unduly burdensome).
Like the district court, we reject the State’s and
the dissent’s argument that a bypass court can avoid
any undue burden by simply considering the potential
for abuse as part of the best-interests determination.
The district court found that the trauma of even attempting to prove abuse would deter young women
from pursuing bypass. Planned Parenthood, 258 F.
Supp. 3d at 947. That finding is well-supported. It is
not clearly erroneous. Indeed, the finding parallels
the district court’s finding in Casey that the Supreme
Court credited. See Casey, 505 U.S. at 890 (opinion of
the Court) (abused wives “may be psychologically unable to discuss or report the rape for several years after the incident”).

75a
Because we decide this appeal based only on an
application of Casey’s undue burden standard, we
need not and do not decide whether Bellotti applies to
all parental notice requirements. The context of a preliminary injunction enjoining the enforcement of this
statute on a limited factual record necessarily narrows our holding. The Supreme Court has announced
clear bypass requirements for parental consent requirements. Bellotti v. Baird, 443 U.S. at 643–44
(opinion of Powell, J.) (requiring bypass based either
on maturity or best interests). The open question is
whether those requirements also apply to parental
notice requirements. The district court decided that
the standards for parental consent requirements apply equally to parental notice requirements. Planned
Parenthood, 258 F. Supp. 3d at 945–46. The State
acknowledges that, if Bellotti applies to notice statutes, then the Indiana law is unconstitutional because it does not allow a bypass of notice based on maturity. Because the Supreme Court has expressly declined to decide whether Bellotti applies to parental
notice statutes, we decline to decide this appeal on
this ground. Instead, we aﬃrm the preliminary injunction based on Planned Parenthood’s evidence of
likely eﬀects, which Indiana did not rebut in the district court with evidence of its own.
As the district court noted, we applied Bellotti to
parental notice requirements in the 1980s. Zbaraz v.
Hartigan, 763 F.2d 1532, 1539 (7th Cir. 1985) (“This
standard [i.e., maturity and best interests-based bypass] also governs provisions requiring parental notification.”), citing Bellotti, 443 U.S. at 651 (opinion of

76a
Powell, J.), and Indiana Planned Parenthood Aﬃliates Ass’n v. Pearson, 716 F.2d 1127, 1132 (7th Cir.
1983). But since then, the Supreme Court has said
that it has not decided whether Bellotti applies to parental notice statutes. E.g., Lambert v. Wicklund, 520
U.S. 292, 295 (1997) (per curiam) (reversing Ninth
Circuit’s invalidation of parental notice statute as inconsistent with Bellotti because the Court “declined to
decide whether a parental notification statute must
include some sort of bypass provision to be constitutional.”), citing Akron Center, 497 U.S. 502, 510 (1990)
(expressly leaving question open). We have noted this
evolution before. Zbaraz v. Madigan, 572 F.3d at 380
& n.5 (declining to decide applicability of Bellotti because parental notice statute satisfied Bellotti consent requirements).10
10 H.L. v. Matheson does not save this Indiana statute. The
Court upheld Utah’s parental notice requirement with no bypass
at all, but it did so be- cause the plaintiff “made no claim or showing as to her maturity or as to her relations with her parents.”
450 U.S. 406, 407 (1981). The Court said clearly what it was not
deciding: “This case does not require us to decide in what circumstances a state must provide alternatives to parental notification.” Id. at 412 n.22. Justice Powell, author of the lead opinion
in Bellotti, joined the H.L. majority opinion “on the understanding that it leaves open the question whether [the statute] unconstitutionally burdens the right of a mature minor or a minor
whose best interests would not be served by parental notification.” Id. at 414 (Powell, J., concurring), citing id. at 412 n.22.
The majority refused to “assume that the statute, when challenged in a proper case, will not be construed also to exempt demonstrably mature minors.” Id. at 406 (opinion of the Court).
The same assumption cannot be made here. Indiana’s statute
permits bypass of the notice requirement based on best interests
but not based on maturity. See Ind. Code § 16-34-2-4(d), (e). We
have to assume that the textual difference was intentional.

77a
The district court acknowledged that the question
whether Bellotti’s requirements for parental consent
statutes apply equally to parental notice statutes “remains unanswered by the Supreme Court and the
Seventh Circuit,” but held that Bellotti “must” apply.
Planned Parenthood, 258 F. Supp. 3d at 945–46. Although we otherwise agree with the district court’s undue burden analysis, we aﬃrm without deciding this
question at this preliminary injunction stage.11

In other cases, the Court has upheld parental notice statutes
based on the rationale that a parental notice statute that contains both a maturity- and best-interests-based bypass is necessarily constitutional. In each case, the Court upheld a statute
permitting bypass based on either maturity or best interests.
Wicklund, 520 U.S. at 294 (Montana statute with notice by- pass
based on maturity, evidence of abuse, or notice not being in minor’s best interests); Hodgson v. Minnesota, 497 U.S. 417, 497
(1990) (Kennedy, J., concurring in judgment) (upholding Minnesota parental notice requirement with bypass based on maturity
or abortion without notice in minor’s best interests); Akron Center, 497 U.S. at 508, 510–11 (upholding Ohio pa- rental notice
requirement with bypass based on maturity, abuse, or notice not
in best interests). We have taken the same approach. Zbaraz,
572 F.3d at 374, 380 (upholding Illinois parental notice requirement with bypass based on maturity or best interests).
11 There is certainly support in the case law for the district
court’s conclusion. Five Justices in H.L. signaled that Bellotti
should apply to notice bypass statutes. 450 U.S. at 420 (Powell,
J., joined by Stewart, J., concur- ring) (“In sum, a State may not
validly require notice to parents in all cases, without providing
an independent decisionmaker to whom a pregnant minor can
have recourse if she believes that she is mature enough to make
the abortion decision independently or that notification other-

78a
B. Other Injunction Requirements
Planned Parenthood showed a suﬃcient likelihood
of succeeding on the merits to support the district
court’s injunction. The district court also did not
abuse its discretion in concluding that Planned
Parenthood satisfied the other requirements for a preliminary injunction.

wise would not be in her best interests.”); id. at 428 n.3 (Marshall, J., joined by Brennan and Blackmun, JJ., dissenting) (exception to parental notice required for emancipated minors, mature minors, and minors for whom notice would not be in minor’s
best interests). And the Akron majority observed that no- tice of
a bypass proceeding without any exception for a mature or emancipated minor would be unconstitutional. City of Akron v. Akron
Center for Reproductive Health, Inc., 462 U.S. 416, 441 n.31
(1983). The Sixth Circuit had upheld the ordinance’s notice requirement, though, and the petitioners did not challenge that
ruling. Id. at 439 n.29.
At least two other circuits have applied Bellotti to parental
notice requirements. See Causeway Medical Suite v. Ieyoub, 109
F.3d 1096, 1112 (5th Cir. 1997) (declining to read the Supreme
Court’s silence as a holding that Bellotti does not apply to parental notice statutes), overruled on other grounds, Okpalobi v. Foster, 244 F.3d 405, 427 n.35 (5th Cir. 2001); Planned Parenthood
v. Miller, 63 F.3d 1452, 1460 (8th Cir. 1995) (“In short, parentalnotice provisions, like parental-consent provisions, are unconstitutional without a Bellotti-type bypass.”). At least one other circuit has gone the other way. Planned Parenthood of the Blue
Ridge v. Camblos, 155 F.3d 352, 373 (4th Cir. 1998) (“[W]e hold
that a notice statute that [includes at least the Hodgson ‘best
interest’ exception] need not include, in addition, a bypass for the
mature minor in order to pass constitutional muster”).

79a
First, Planned Parenthood demonstrated a likelihood of irreparable harm. In applying the undue burden standard to a restriction on abortion, it is hard to
separate the merits from irreparable harm. As discussed above, the record supports the conclusion that
young women would suﬀer irreparable harm if injunctive relief were denied. See Doe v. Mundy, 514 F.2d
1179, 1183 (7th Cir. 1975) (enforcement of hospital
policy would violate right to privacy and cause irreparable harm); see also Christian Legal Society v.
Walker, 453 F.3d 853, 867 (7th Cir. 2006) (presumption of irreparable harm applies to First Amendment
violations); 11A Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 2948.1 (3d
ed.) (“When an alleged deprivation of a constitutional
right is involved, such as the right to free speech or
freedom of religion, most courts hold that no further
showing of irreparable injury is necessary.”).
Planned Parenthood also does not have an adequate legal remedy. The State has not argued otherwise. Instead, it argues that a pregnant minor seeking a judicial bypass could challenge an adverse notification ruling by raising a constitutional challenge in
an expedited appeal after the bypass proceeding.
Given the time pressures at work in such cases, we
reject that alternative as an insuﬃcient answer to the
burdens here. See Fleet Wholesale Supply Co. v. Remington Arms Co., 846 F.2d 1095, 1098 (7th Cir.
1988) (irreparable injury implies inadequacy of legal
remedies); see also 11A Wright & Miller § 2944
(“Probably the most common method of demonstrating that there is no adequate legal remedy is by showing that plaintiﬀ will suffer irreparable harm if the

80a
court does not intervene and prevent the impending
injury.”).
Because Planned Parenthood satisfied these
threshold showings, the district court also balanced
the equities and considered whether an injunction
would be in the public interest. Planned Parenthood,
258 F. Supp. 3d at 955. The district court’s conclusions on these points were well within the bounds of
its discretion.
The district court did not err on the balance of
harms. The more likely it is that a plaintiﬀ will win
on the merits, the less the balance of harms needs to
weigh in the plaintiﬀ’s favor. Planned Parenthood v.
Van Hollen, 738 F.3d 786, 795 (7th Cir. 2013);
Planned Parenthood of Indiana, Inc. v. Commissioner, 699 F.3d 962, 972 (7th Cir. 2012); Abbott Laboratories v. Mead Johnson & Co., 971 F.2d 6, 11–12
(7th Cir. 1992). On this record, Planned Parenthood’s
likelihood of success on the merits is substantial. A
final judgment in Planned Parenthood’s favor would
not undo the irreparable harm to which its patients
would have been subjected in the meantime, absent
the injunction. It was within the district court’s sound
discretion to weigh those consequences more heavily
than any irreparable harm the State faces by delay in
implementing its statute.
The district court also did not err on the public interest analysis. 258 F. Supp. 3d at 955, citing Planned
Parenthood of Indiana & Kentucky, Inc. v. Commissioner, 984 F. Supp. 2d 912, 931 (S.D. Ind. 2013). Because Planned Parenthood has shown that it is likely

81a
to succeed on the merits and that the balance of
harms favors the injunction, those showings weigh
more heavily in the balance than the State’s interest
in enforcing a law that Planned Parenthood has
shown is likely unconstitutional. See, e.g., Preston v.
Thompson, 589 F.2d 300, 306 n.3 (7th Cir. 1978) (injunction in public interest where continuing constitutional violation is proof of irreparable harm).
For all of these reasons, the district court’s preliminary in- junction barring enforcement of the new parental notice requirement in Ind. Code § 16-34-2-4(d)
and (e) is
AFFIRMED

82a
KANNE, Circuit Judge, dissenting. The question
presented in this case is straightforward and narrow:
does the Constitution prohibit Indiana from requiring
a mature minor to notify her parents of an impending
abortion when she cannot show that avoiding notification is in her best interests?
The Supreme Court has confirmed that both parental consent and parental notification laws are constitutional. See Planned Parenthood of Se. Pennsylvania v. Casey, 505 U.S. 833, 899 (1992) (“Our cases establish, and we reaffirm today, that a State may require a minor seeking an abortion to obtain the consent of a parent or guardian, provided that there is
an adequate judicial bypass procedure.”); Ohio v. Akron Ctr. for Reprod. Health, 497 U.S. 502, 518–19
(1990) (“We continue to believe that a State may require the physician himself or her- self to take reasonable steps to notify a minor ’s parent because the parent often will provide important medical data to the
physician.”); H. L. v. Matheson, 450 U.S. 398, 409
(1981) (“[A] statute setting out a ‘mere requirement of
parental notice’ does not violate the constitutional
rights of an immature, dependent minor.” (quoting
Bellotti v. Baird, 443 U.S. 622, 640 (1979)); Id. at 413
(“That the requirement of notice to parents may inhibit some minors from seeking abortions is not a
valid basis to void the statute.”).
These statutes are constitutional because the
State possesses “important” and “reasonabl[e]” interests in requiring parental consultation before a minor
makes an irrevocable and profoundly consequential

83a
decision. Bellotti, 433 U.S. at 640–41 (“[P]arental notice and consent are qualifications that typically may
be imposed by the State on a minor’s right to make
important decisions. … [A] State reasonably may determine that parental consultation often is desirable
and in the best interest of the minor.”); see also Majority Op. at 19; Planned Parenthood of Indiana &
Kentucky, Inc. v. Comm’r, Indiana State Dep't of
Health, 258 F. Supp. 3d 929, 941 (S.D. Ind. 2017)
(“[T]he law recognizes legitimate state interests in
protecting children and adolescents, preserving family integrity, and encouraging parental authority.”).
Indiana law requires a minor seeking an abortion
to obtain consent from her parents unless she can
demonstrate to a judge her maturity or show that an
abortion is in her best interests. Ind. Code Ann. § 1634-2-4(e) (2017). This statutory scheme is constitutional. Bellotti, 443 U.S. at 643–44.
In 2017, the Indiana General Assembly enacted a
law requiring a minor seeking an abortion to notify
her parents. Ind. Code Ann. at § 16-34-2-4(d). The minor may receive a judicial bypass by showing that obtaining an abortion with- out notification is in her
best interests, but there is no exception for maturity
alone. The district court concluded that the statute
imposes an undue burden. The majority agrees, but I
cannot.1

1 I do agree, however, with the majority’s determination that
the statute’s “requirement to serve notice is triggered only if the

84a
Planned Parenthood has not introduced evidence
that establishes that requiring mature minors to notify their parents that they intend to have an abortion
(in a scenario where the judge has found that avoiding
notification is not in their best interests) constitutes
an undue burden. We should not invalidate a law
passed by a democratically-elected state legislature
“while the effects of the law (and reasons for those effects) are open to debate.” A Woman's Choice-E. Side
Women's Clinic v. Newman, 305 F.3d 684, 693 (7th
Cir. 2002). Because the majority’s opinion is inconsistent with our precedent— which remains good law
despite the majority’s suggestion to the contrary—I
respectfully dissent.
I. ANALYSIS
1. Parental Consent and Parental Notification Are
Different
Consent and notification requirements are manifestly different, and the Court has repeatedly confirmed that its parental-consent jurisprudence does
not necessarily apply to statutes imposing notification
requirements. See, e.g., Lambert v. Wicklund, 520
U.S. 292, 295–96 & n.3 (1997); Akron Center, 497 U.S.
at 510 (“[A]lthough our cases have required bypass
procedures for parental consent statutes, we have not

judge authorizes an abortion.” Majority Op. at 4. The new statute does not permit “a judge to order notice to parents of a minor’s unsuccessful attempt to seek bypass.” Id.

85a
decided whether parental notice statutes must contain such procedures.”).
We have not decided whether the judicial bypass
described in Bellotti is required for parental notification statutes. Zbaraz v. Madigan, 572 F.3d 370, 380
(7th Cir. 2009). The Fifth and Eighth Circuits have
held that parental-notification statutes are unconstitutional without a Bellotti-type bypass. Causeway
Med. Suite v. Ieyoub, 109 F.3d 1096, 1107 (5th Cir.
1997), overruled on other grounds by Okpalobi v. Foster, 244 F.3d 405 (5th Cir. 2001); Planned Parenthood,
Sioux Falls Clinic v. Miller, 63 F.3d 1452, 1460 (8th
Cir. 1995) (“[T]he State has no legitimate reason for
imposing a restriction on [the] liberty interests [of mature, informed minors] that it could not impose on
adult women.”). But the Fourth Circuit has held that,
“provided that a parental notice statute does not condition the minor ’s access to abortion upon notice to
abusive or neglectful parents, absent parents who
have not assumed their parental responsibilities, or
parents with similar relationships to their daughters,” it is facially constitutional. Planned Parenthood
of Blue Ridge v. Camblos, 155 F.3d 352, 367 (4th Cir.
1998).
The majority opinion opts not to decide whether to
incorporate the Bellotti-bypass requirements into the
parental notification context. I have no objection to
deferring an exhaustive discussion of that issue to another day. But the majority opinion then concludes
that Indiana’s failure to allow judicial bypass of the
notification requirement for mature minors consti-

86a
tutes an undue burden. Because the evidentiary basis for that conclusion is entirely speculative, I cannot
agree.
2. The Preliminary Injunction Record and Decision
As the moving party, Planned Parenthood bears
the burden of justifying an injunction. Planned
Parenthood of Indiana, Inc. v. Comm’r of Indiana
State Dep't Health, 699 F.3d 962, 972 (7th Cir. 2012).
We shouldn’t lightly substitute our judgment for the
General Assembly’s, especially when “the effects of
the law (and reasons for those effects) are open to debate.” A Woman’s Choice, 305 F.3d at 693. Our constitutional system encourages legislative experimentation, and we must be “ever on our guard” when exercising our authority to countermand democratic impulses. New State Ice Co. v. Liebmann, 285 U.S. 262,
311 (1932) (Brandeis, J., dissenting).2

2 As the majority notes, Majority Op. at 10–13, the Supreme
Court has inconsistently articulated the standard for pre-enforcement injunctions of statutes regulating abortion. Compare
United States v. Salerno, 481 U.S. 739, 745 (1987) (stating that,
outside the First Amendment context, “the challenger must establish that no set of circumstances exists under which the Act
would be valid”), and Gonzales v. Carhart, 550 U.S. 124, 167
(2007) (“The latitude given facial challenges in the First Amendment con- text is inapplicable here” in the abortion context.),
with Whole Woman's Health v. Hellerstedt, 136 S. Ct. 2292, 2309
(2016) (conducting an undue burden analysis without first discussing the standard the plaintiff must meet), and Stenberg v.
Carhart, 530 U.S. 914, 921 (2000) (same). We high- lighted this
confusion in A Woman’s Choice and attempted to synthesize the
Supreme Court jurisprudence: the Salerno standard is relaxed

87a
At the preliminary injunction hearing, Planned
Parenthood introduced seven declarations supporting
its motion. I limit my review to the portions of the declarations which the district court considered in connection with its undue burden analysis. Forest Beeley, the Director of Surgical Services for Planned
Parenthood, testified that minors often do not wish to
inform their parents they are seeking an abortion because of “a fear of being kicked out of the home, a fear
of being abused or punished in some way, and a fear
that the parent will attempt to block the abortion.” R.
14-1, Beeley Decl. at 4. Kathryn Smith—a former
Planned Parenthood employee and current volunteer
“Indiana by-pass coordinator”—testified regarding
her experience in at- tempting to find volunteer attorneys to represent minors in judicial bypass proceedings. She testified that minors typically do not wish to
tell their parents because they fear their parents will
“throw them out of the house or … punish them.” R.
14-3, Smith Decl. at 3; see also R. 14-4 , Glynn Decl.

in the abortion context, but we do not “ignore the fact that enforcement has not commenced” when reviewing an injunction.
305 F.3d at 687.
The majority suggests that A Woman’s Choice is no longer
good law because, in Whole Woman’s Health v. Hellerstadt, the
Supreme Court once again conducted an undue burden analysis
without discussing the procedural context of the challenge. 136
S. Ct. 2292, 2309–10. Hellerstadt does not resolve the contradictions in the Supreme Court abortion jurisprudence; it deepens
them. Like Stenberg and Casey, the Court simply ignored the
language from Salerno and Gonzales indicating that preenforcement injunctions require special justification.

88a
at 3; R. 14-5, Flood Decl. at 2 (“Two of the women expressed concerns about abuse if their parents discovered they had an abortion.”). Smith testified that the
judicial bypass process is “incredibly daunting and intimidating.” Id. at 4.
Finally, Planned Parenthood (and the district
court) relied heavily upon Dr. Suzanne M. Pinto’s declaration. Dr. Pinto works as a psychologist in Colorado and specializes in treating abused minors and
victims of domestic violence. She detailed examples of
sexual and physical abuse inflicted by parents on minors. And she noted that “[p]regnancy is a particular
flash point. As a physical manifestation of sexual activity pregnancy can signify a teen’s independence
from parental control.” R. 14-6, Pinto Decl. at 5.
Dr. Pinto asserted that, if the statute stands,
abused minors will summarily reject judicial bypass
as an option out of “fear of exposing their abuse, fear
or being forced to describe their abuse to strangers in
an adversarial court hearing, fear that that they or
their families will get into trouble if they bring up the
abuse, and fear” of increased abuse at home. Id. at 8;
see also R. 14-7, Lucido Decl. at 4 (“In many cases,
teens seeking a judicial bypass have abusive parents,
and the young women have a well-founded fear based
on past experience that if one or both of her parents
were to learn of the pregnancy or the minor’s desire to
have an abortion, it would precipitate additional
abuse.”). Dr. Pinto thus argues that minors will be un-

89a
able to make the full disclosure that the “best interests” exception would require. Pinto Decl. at 8,3 see
also Lucido Decl. at 7–8 (detailing the practical challenges a minor in an abusive home may face if attempting to obtain a judicial bypass).
The district court credited the testimony that minors may encounter post-notification obstruction by
parents. 258 F. Supp. 3d at 946. The district court further emphasized that “a large number of minors may
face the risk of domestic abuse at the hands of one or
more of their parents in the event that a parent is notified of the minor’s pregnancy.” Id. (citing Pinto Decl.
at 4). The court was particularly concerned that the
“fear of retaliatory abuse” might deter a minor from
even attempting to obtain judicial bypass (even if she
could satisfy the “best interests” exception). Id. at 947.
The district court’s undue burden analysis might be
summarized by this passage discussing the harms
posed by the new statute:
[F]or many young women in Indiana, the requirement of providing parental notification
before obtaining an abortion carries with it
the threat of domestic abuse, intimidation,
coercion, and actual physical obstruction.
The State’s argument that those seeking to
Dr. Pinto seemed to believe that the challenged statute requires parental notice “even if the court has not yet ruled upon,
or has denied, the minor’s petition to make the abortion decision
without parental con- sent.” Id. at 4. As indicated above, I join
the majority’s rejection of that interpretation: the statute requires notice only upon the determination that an abortion is to
occur.
3

90a
challenge the law must wait until evidence
of this type of harm accrues is simply in- correct. The Court need not sit idly by while
those most vulnerable among us are subjected to unspeakable and horrid acts of violence and perversion, nor may we blind ourselves to the fact that for millions of children
(including young women) in the United
States the threat of such abuse is real.
Id. at 939 (citing Pinto Decl. at 4).
3. The Statute Does Not Impose an Undue Burden
Given this evidentiary background, the district
court concluded—and the majority agrees—that the
new Indiana statute imposes an undue burden. But I
disagree. Consider the following scenarios: if the minor cannot satisfy the maturity or “best interests” exceptions, she cannot obtain a judicial bypass for either
consent or notification (and that is constitutional, per
Bellotti). If she can show that obtaining an abortion
without involving her parents is in her best interests,
she can obtain judicial bypass of both consent and notification. If she can show maturity but not that obtaining an abortion without involving her parents is
in her best interests, she can obtain judicial bypass of
consent but not of notification. Is that an undue burden?

91a
A. Evidence Regarding At-Risk Minors Does Not
Establish the Need for a Maturity Exception
In finding that it is an undue burden, the district
court and majority rely on evidence that minors in
abusive homes will be at risk if their parents discover
that they plan to have an abortion. But the “best interests” exception completely covers that scenario. If
the minor can demonstrate a likelihood of retributive
abuse, the court will conclude that the minor’s best
interests require bypassing the notification requirement. Planned Parenthood has not identified an instance where an Indiana court rejected a minor’s “best
interests” argument and required parental consent,
but abuse followed.
State-imposed restrictions on mature minors cannot, by themselves, be constitutionally problematic.
“[A] state legislature has constitutional power to utilize, for purposes of implementing a parental-notice
requirement, a yardstick based upon the chronological age of unmarried pregnant women. That this yardstick will be imprecise or even unjust in particular
cases does not render its use by a state legislature impermissible under the Federal Constitution.” Matheson, 450 U.S. at 425 (Stevens, J., concurring). Would
we invalidate a law that requires parental consent for
a minor to marry because it did not include an exception for minors who can demonstrate their maturity?
See Obergefell v. Hodges, 135 S. Ct. 2584, 2599 (2015)
(“[T]he right to personal choice regarding marriage is
inherent in the concept of individual autonomy.”);
Matheson, 450 U.S. at 425 n.2 (Stevens, J., concurring) (“Instead of simply enforcing general rules

92a
promulgated by the legislature, perhaps the judiciary
should grant hearings to all young persons desirous of
establishing their status as mature, emancipated minors instead of confining that privilege to unmarried
pregnant young women.”).
A minor’s maturity has no relation to the likelihood of abuse (or, at least, Planned Parenthood has
not introduced evidence explaining why that might be
so). See Camblos, 155 F.3d at 373 (“A notice requirement does not become a veto merely because the minor has become mature enough that she must be allowed to decide for herself whether to end her pregnancy.”); see also Matheson, 450 U.S. at 425 (Stevens,
J., concurring) (“Almost by definition, however, a
woman intellectually and emotionally capable of making important decisions without parental assistance
also should be capable of ignoring any parental disapproval. Furthermore, if every minor with the wisdom
of an adult has a constitutional right to be treated as
an adult, a uniform minimum voting age is surely suspect.”). Thus, Planned Parenthood’s evidence regarding at-risk minors is irrelevant to the question of
whether the Constitution requires an exception to parental notification for mature minors.
When a court concludes that a minor is mature
enough to decide to have an abortion but also that the
minor’s best interests would be served by notifying
her parents, the State has a legitimate and significant
interest in requiring that notification. Camblos, 155
F.3d at 374 (“[E]ven the most mature teenager will
benefit from the experienced advice of a parent, and,
as a consequence of that dialogue, make a more in-

93a
formed, better considered, abortion choice.”). Abortion can be emotionally and physically traumatic for
adult women. See McCorvey v. Hill, 385 F.3d 846,
850–51 & n.3 (5th Cir. 2004) (Jones, J., concurring)
(collecting clinical and scientific studies). As Planned
Parenthood notes, teenage women are a particularly
vulnerable demographic, and studies indicate they
face an exceptionally high risk of suicidal ideation and
emotional turmoil following an abortion. See Amicus
Br. of Arizona at 11 (citing three studies finding significant mental health risk for post-abortion adolescents, including one study which found a 50% chance
of suicidal ideation). A mature minor may wish to
keep her abortion secret from her parents and yet
benefit greatly from their support before and in the
aftermath.
B. The Risk of Deterrence Inherent in Judicial Bypass Proceedings Cannot be an Undue Burden
Perhaps recognizing that the evidence regarding
the challenges for abused minors is unrelated to the
maturity exception, the majority argues that “the potential for parental no- tice is a threat that may deter
[minors] from even attempting bypass in the first
place.” Majority Op. at 24. In other words, the notification requirement will deter minors from attempting
bypass—even if they would qualify under the “best interests” test—because the mere possibility of their
parents discovering “would be a deal breaker.” Smith
Decl. at 4.
Because the State put on no evidence of its own, I
assume that possibility to be a concern. But that logic

94a
applies equally to judicial bypass requirements for parental consent statutes. If the minor does not succeed
in obtaining judicial bypass, then the minor must obtain the consent of her parents (which, of course, necessarily includes notice of her pregnancy). Certainly,
the possibility that a minor might have to obtain her
parents’ consent could deter her from seeking judicial
bypass. Indeed, the risk of deterrence applies with
greater force to parental-consent statutes. See Akron
Ctr., 497 U.S. at 510 (explaining that consent statutes
involve “greater intrusiveness” than notification statutes). Yet the Supreme Court has repeatedly confirmed that parental-consent statutes, subject to the
Bellotti exceptions, are constitutional.
And there are persuasive reasons why requiring
mature minors to notify their parents poses a lesser
risk of deterrence. There is a direct relationship between the likelihood of deterrence and the likelihood
that the minor will satisfy the “best interests” test.
The higher the possibility that the minor will be
abused if her parents discover her pregnancy, the
higher the likelihood that the court will grant a judicial by- pass for notice. If the minor cannot show that
likelihood of mistreatment, she will be less likely to
satisfy the “best interests” tests but also less likely to
be deterred by the potential consequences of her parents discovering her pregnancy. And, similarly, the
more mature the minor, the lower the risk that parental notification will result in a “practical veto.” Majority Op. at 15; see also Camblos, 155 F.3d at 373
(“[T]here is every reason to believe that the burden
imposed upon the mature minor by a parental notice
requirement will actually be less onerous than that

95a
imposed upon the immature minor.”). Bellotti demonstrates that the burdens inherent in judicial bypass
proceedings cannot be undue.
And that’s all the evidence which Planned
Parenthood introduced: several declarations from individuals involved in the bypass process discussing
their personal observations and anecdotes and a declaration by one child psychologist discussing the challenges which children in abusive homes face in obtaining abortions. There’s no evidence regarding why
a notification requirement will substantially obstruct
mature minors (when the court has concluded that
the child’s best interests warrant notification) from
obtaining an abortion. There’s no evidence comparing
the decision-making process for immature minors
with that of mature minors. And there’s no evidence
regarding how, in practice, the inclusion of a “best interests” exception and the exclusion of a maturity exception will influence minor decision-making.
That’s because, of course, Indiana “has been disabled from implementing its law and gathering information about actual effects.” A Woman’s Choice, 305
F.3d at 687. This is the same fundamental problem
that necessitated reversal of the permanent injunction in A Woman’s Choice. The district court’s issuance of a pre-enforcement preliminary injunction prevented collection of actual data about the law’s effects.
During the bench trial, the district court reviewed
data from other states, but those studies did not adequately account for “state-specific characteristics.” Id.
at 690. That reliance on da- ta from other communities and utter lack of Indiana-specific information is

96a
why the “pre-enforcement nature of th[e] suit matter[ed].” Id.; see also id. at 692 (“If Indiana’s emergency- bypass procedure fails to protect Indiana’s
women from risks of physical or mental harm, it will
be a failure in operation; it is not possible to predict
failure before the whole statute goes into force.”).
The majority dismisses A Woman’s Choice because
we are reviewing a preliminary injunction, not a permanent injunction. But the court in A Woman’s
Choice reversed the permanent injunction because
the record contained no data about the actual or likely
effects of the Indiana statute specifically. And collecting that data was impossible because the district
court issued a preliminary injunction. Thus, the entire course of litigation in A Woman’s Choice involved
pre-enforcement speculation about the statute’s effects. That problem is also present here. Generalized
information about abortion regulation writ large cannot substitute for specific, tailored data regarding the
statute at issue. See id. (“Indiana is entitled to an opportunity to have its law evaluated in light of experience in Indiana.”). To call this reasoning in A
Woman’s Choice dicta is to misunderstand the majority opinion in that case.4

The majority argues that the State must introduce actual
evidence about the benefits and burdens imposed by the statute
and suggests that it can still do so at trial. But, like in A Woman’s
Choice, the preliminary injunction will prevent the State from
defending its statute with actual operational data at trial. The
majority distinguishes A Woman’s Choice on procedural grounds
without recognizing that affirmance will put the State in the position we found so problematic in A Woman’s Choice.
4

97a
To the extent Planned Parenthood may believe
that the notification statute will have unanticipated
or inexplicable effects, the proper time to bring the
challenge is after enforcement has revealed those effects. Id. at 693.5
II. CONCLUSION
The challenged Indiana statute requires parental
notification but allows for judicial bypass of that requirement when it would be in the minor’s best interests. Planned Parenthood provided evidence that obtaining parental notification will often not be in the
minor’s best interests, but the statute al ready complies with Supreme Court jurisprudence focused on
those concerns.

The majority also suggests that A Woman’s Choice has been
rendered irrelevant by the Supreme Court’s decision in Hellerstadt. Majority Op. at 11–12. As explained above, Hellerstadt ignored seemingly contradictory jurisprudence and so does not
clarify the confusion we identified in A Woman’s Choice. More
importantly, Hellerstadt involved a district court record that
contained eight peer-reviewed studies regarding the likelihood
of abortion complications and testimony from at least four experts regarding the same. 136 S. Ct. at 2311. The present record
contains essentially no comparable empirical data. To the extent
that Dr. Pinto’s declaration qualifies as expert testimony,
Planned Parenthood hasn’t shown why the information regarding abused minors demonstrates the necessity of a maturity exception. A Woman’s Choice supports reversal here because, like
in that case, the party seeking invalidation of the statute has not
provided probative evidence of an undue burden.
5

98a
The operative question is whether, given the
State’s manifest interest in involving parents in consequential decisions by their children, the notification
requirement constitutes a substantial obstacle for
mature minors. The record provides no clarity on that
point, and so—because the law was enjoined pre-enforcement—we can only speculate. As the majority
recognizes, “evidence matters.” Majority Op. at 16.
The district court abused its discretion by enjoining the law pre-enforcement, and its decision should
be reversed.

99a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
PLANNED PARENTHOOD OF
INDIANA AND KENTUCKY,
INC.,

)
)
) Case No. 1:17) cv-01636-SEBPlaintiff,
) DML
)
v.
)
)
COMMISSIONER, INDIANA
)
STATE
)
DEPARTMENT OF HEALTH,
)
MARION COUNTY PROSECU- )
TOR, LAKE COUNTY PROSE- )
CUTOR, MONROE COUNTY
)
PROSECUTOR, TIPPECANOE )
COUNTY PROSECUTOR,
)
MEMBERS OF THE INDIANA )
MEDICAL LICENSING
)
BOARD, JUDGE, MARION
)
SUPERIOR COURT,
)
JUVENILE DIVISION,
)
)
Defendants.
)
ORDER GRANTING PLAINTIFF’S MOTION
FOR PRELIMINARY INJUNCTION
This cause is before the Court on the Motion for Preliminary Injunction [Docket No. 6], filed on May 18,
2017. Plaintiff Planned Parenthood of Indiana and

100a
Kentucky, Inc. (“PPINK”) seeks to have Defendants
Commissioner, Indiana State Department of Health,
Marion County Prosecutor, Lake County Prosecutor,
Monroe County Prosecutor, Tippecanoe County Prosecutor, and Members of the Indiana Medical Licensing Board (collectively, “the State”) enjoined from enforcing Senate Enrolled Act No. 404 (“SEA 404”), set
to go into effect on July 1, 2017, which amends Indiana law to impose new conditions and regulations
concerning the provision of abortion services to unemancipated minors.1 The Court heard arguments on
June 13, 2017. Having now considered those arguments, the parties’ evidentiary and written submissions, and the controlling principles of law, we hereby
GRANT Plaintiff’s Motion for Preliminary
Injunction.
Factual Background
I.

Relevant Statutory and Regulatory Law

Indiana Code § 16-34-2-1.1(a) provides that an
abortion cannot “be performed except with the voluntary and informed consent of the pregnant woman
upon whom the abortion is to be performed.” If the
woman seeking an abortion is an unemancipated minor, current law requires that the physician performing the abortion obtain the written consent of one of
Because 42 U.S.C. § 1983 provides that a judicial officer
cannot be sued for injunctive relief “unless a declaratory decree
was violated or declaratory relief was unavailable,” PPINK seeks
only declaratory relief against Defendant Judge of the Marion
Superior Court, Juvenile Division.
1

101a
the minor’s parents or legal guardians. Ind. Code § 1634-2-4(a) (amended July 1, 2017). Indiana law provides a constitutionally-mandated “judicial bypass”
procedure for the parental-consent requirement by
which a minor may obtain an abortion without the
consent or knowledge of a parent or guardian if she
files a petition in the juvenile court located in the
county where she resides or where the abortion is to
be performed and demonstrates to the court’s satisfaction either that she is sufficiently mature to make
the abortion decision independently or that the abortion would be in her best interests. Ind. Code § 16-342-4(b), (d) (amended July 1, 2017). Once a petition is
filed, the juvenile court must render its decision on
the bypass request within 48 hours. Ind. Code § 1634-2-4(e).
Under the recently enacted legislation (SEA 404),
an unemancipated minor is still permitted to seek a
judicial bypass from a juvenile court and the court
must still waive the parental-consent requirement if
she demonstrates maturity or that it is in her best interests to obtain the abortion. Ind. Code § 16-34-24(b), (d) (eff. July 1, 2017). However, the amended law
alters the judicial bypass procedure by adding a parental-notification requirement that provides in relevant part as follows:
Unless the juvenile court finds that it is in
the best interests of an unemancipated
pregnant minor to obtain an abortion without parental notification following a hearing
on a [bypass] petition …, a parent, legal

102a
guardian, or custodian of a pregnant unemancipated minor is entitled to receive notice of the emancipated [sic] minor’s intent
to obtain an abortion before the abortion is
performed on the unemancipated pregnant
minor. The attorney representing the unemancipated pregnant minor shall serve the
notice required by this subsection by certified mail or by personal service and provide
the court with documentation of the attorney’s good faith effort to serve the notice, including any return receipt for a certified
mailing.
Ind. Code 16-34-2-4(d) (eff. July 1, 2017). Therefore, even if the juvenile court has found the unemancipated minor sufficiently mature to make the abortion decision independently, absent a best interests
finding by the juvenile court, “the court shall, subject
to an appeal …, order the attorney representing the
unemancipated minor to serve the notice required under subsection (d).” Ind. Code § 16-34-2-4(e) (eff. July
1, 2017).
SEA 404 also imposes new requirements on physicians performing abortions that must be followed before an unemancipated minor can obtain an abortion
with parental consent. Under current Indiana law, a
consenting parent is required to evidence his or her
consent in writing. Ind. Code § 16-34-2-4(a) (amended
July 1, 2017). However, under the amended statute,
the physician performing the abortion must obtain
government- issued proof of identification from the
consenting parent as well as “some evidence, which

103a
may include identification or other written documetation, that provides an articulable basis for a reasonably prudent person to believe that the person is the
parent.” Ind. Code § 16-34-2-4(a)(2), (3) (eff. July 1,
2017). SEA 404 further provides that the physician
who obtains such consent must execute a sworn affidavit that contains a
[c]ertification that, to the physician’s best
information and belief, a reasonable person under similar circumstances would rely
on the information provided by the unemancipated pregnant minor and the unemancipated pregnant minor’s parent or legal
guardian or custodian as sufficient evidence
of identity and relationship.
Ind. Code § 16-34-2-4(k)(2) (eff. July 1, 2017). This
affidavit must be included in the minor’s medical record. Id.
Finally, SEA 404 adds a new section to the current
statute that provides that any person (other than the
minor’s parent, stepparent, grandparent, stepgrandparent, sibling, or stepsibling) who “knowingly or intentionally aid[s] or assist[s] an unemancipated pregnant minor in obtaining an abortion without the consent required” under Indiana law, (Ind. Code § 16-342-4.2(c) (eff. July 1, 2017)), is liable for damages, including punitive damages, attorney’s fees, and court
costs. Ind. Code § 16-34-2-4.2(d) (eff. July 1, 2017).
The parties agree that this provision would prohibit
PPINK and its physicians from providing an unemancipated minor information regarding out-of-state

104a
abortion services which ostensibly would not require
parental consent or notice.
Various penalties can be imposed on abortion providers and their employees for violating portions of
SEA 404. A physician who performs an abortion intentionally or knowingly in violation of Indiana law
pertaining to parental notice and consent commits a
Class A misdemeanor. Ind. Code § 16-34-2-7(b). Additionally, a physician with an Indiana license who commits a crime that has a direct bearing on the physician’s ability to practice competently or is harmful to
the public or who knowingly violates any state law or
rule regulating the medical profession is subject to
discipline from the Indiana Medical Licensing Board.
Ind. Code § 25-1-9-4(a)(2), (3). Likewise, abortion facilities, such as PPINK, which are licensed by the Indiana State Department of Health pursuant to 410
IAC 26-2-1, are subject to having their licenses revoked or other discipline imposed for a number of reasons, including “permitting, aiding or abetting the
commission of any illegal act in an abortion clinic,”
(410 IAC 26-2-8(b)(1), (2)), or failing to have authorized individuals make entries in medical records. 410
IAC 26-7-2(b)(3).
II.

Plaintiff’s Current Policies and Procedures
A.

Minor Abortions with Parental Consent

PPINK is an Indiana not-for-profit corporation
that operates a number of health centers in Indiana
that provide reproductive health services and comprehensive sexuality education to thousands of women,

105a
men, and teens throughout the State. Beeley Decl. ¶
3. Four of the health centers operated by PPINK in
Indiana offer abortion services. Three of those centers, located in Bloomington, Indianapolis, and Merrillville, offer both surgical abortion services and
abortions using only medication. Id. ¶¶ 4–5. The
fourth center, located in Lafayette, provides only medication abortions. Id. ¶ 6. At PPINK, surgical abortions are available through the first trimester of pregnancy, or 13 weeks and 6 days after the first day of a
woman’s last menstrual period, and medication abortions are available through 70 days after a woman’s
last menstrual period. Id. ¶ 6. PPINK provides abortions to minors at its facilities that offer abortion services consistent with Indiana law. Id. ¶ 8.
Under Indiana law, PPINK is required to provide
any woman seeking an abortion certain state-mandated information at least 18 hours prior to the abortion. Ind. Code § 16-34-2-1.1(a)(1). PPINK provides
this information at the woman’s initial visit. At this
same visit, the PPINK patient signs all the necessary
paperwork, including the consent for the abortion and
all other required documents. Beeley Decl. ¶¶ 10–11.
If the patient is a minor and her parent consents to
the abortion, the parent signs the consent and other
required paperwork with the minor at this initial
visit. Id. ¶ 12. PPINK currently requires both the parent and the minor to provide identification, preferably
a photo ID, but does not require any additional forms
of identification or other documentation to prove the
parental relationship. Id. ¶¶ 13–14. At present, nonphysician PPINK staff is responsible for reviewing
the initial paperwork as well as the parent’s and the

106a
minor’s identifications because physicians usually do
not see the patient until the time of the abortion and
often are not present at the health center during the
initial visit. Id. ¶¶ 10, 15.
B. Minor Abortions
Bypass

Following

Judicial

While the large majority of abortions that PPINK’s
physicians perform for minors occur with parental
consent, PPINK also performs abortions for minors
who do not have a parent’s consent and who have instead obtained a judicial bypass of the consent requirement as provided for under Indiana law. Beeley
Decl. ¶¶ 9, 19. When a minor indicates to PPINK that
she is considering an abortion, PPINK first counsels
her to discuss the decision with a parent. If the minor
indicates that she still wishes to obtain the abortion,
PPINK again counsels her to try to obtain parental
consent. However, in some cases, the minor informs
PPINK staff that she does not want to or feels she
cannot inform her parent(s) that she is pregnant and
that she wishes to obtain an abortion. Id. ¶¶ 20–21.
In this situation, PPINK provides to the minor the telephone number of the “bypass coordinator,” informing
her that the bypass coordinator is a woman who does
not work for PPINK but who maintains a list of attorneys who can discuss with the minor the option of
seeking a judicial bypass of the consent requirement
in juvenile court and can also represent the minor in
court, if she so chooses. Id. ¶ 24; Smith Decl. ¶ 6.
The bypass coordinator, who is not an attorney,
monitors a floating pool of Marion County attorneys

107a
who represent the minors in bypass cases, most of
which matters are filed in the Marion Superior Court,
Juvenile Division. Smith Decl. ¶¶ 2, 4–5. PPINK does
not in any way sponsor the efforts of the bypass coordinator, and, in some cases, the bypass coordinator
will be contacted by a minor who is seeking an abortion from a provider other than PPINK. Id. ¶ 6. Since
October 2011, Indiana’s bypass coordinator has been
contacted by approximately 60 minors who expressed
an interest in obtaining an abortion without parental
consent, most of whom were 17 years of age. Id. ¶ 9.
Not all of these minors ultimately pursued the bypass
process to obtain an abortion in Indiana. Id. The bypasses that have been granted to PPINK’s patients
have generally been based on the juvenile court’s finding that the minor was sufficiently mature to make
the abortion decision independent of her parents. Beeley Decl. ¶ 26; Flood Decl. ¶ 6; Glynn Decl. ¶ 9.
When contacted by a minor seeking an abortion
without parental consent, the bypass coordinator outlines in general fashion the process of obtaining a judicial bypass and what must be demonstrated in court
to be granted one. Beeley Decl. ¶ 11. In many cases,
this conversation will last for some time, but occasionally the minor will want only basic information from
the bypass coordinator and those conversations are
brief. Id. ¶ 10. During this conversation, the bypass
coordinator attempts to make sure that no one is forcing the minor to obtain an abortion and that the minor is certain about her decision. Id. ¶ 12. If the minor
is interested in pursuing the judicial bypass procedure following this conversation, the bypass coordinator then refers her to an attorney from the pool who

108a
explains the bypass hearing procedures in more detail. Glynn Decl. ¶ 14.
Generally, the minors who show interest in pursuing the judicial bypass procedure have not yet told
their parents that they are pregnant and are seeking
an abortion. Smith Decl. ¶ 14. Over the years, minors
in this situation have indicated to PPINK and the bypass coordinator various reasons why they have not
told their parents about their pregnancy and desire to
seek an abortion, including fears of being kicked out
of the home, of being abused or punished in some way,
and/or that their parent(s) will attempt to block the
abortion.2 Id. ¶¶ 15–16; Beeley Decl. ¶ 22; Flood Decl.
¶ 9; Dr. Pinto Decl. ¶¶ 14–15, 19; Lucido Decl. ¶¶ 8–
12. Other minors simply do not know where their parents are and do not have a legal guardian or custodian
who can step in to fulfill the consent requirement.
Beeley Decl. ¶ 23; Lucido Decl. ¶ 13. Whatever the
particular reason, the young women consistently express fear that their parent(s) will discover that they
are pregnant and seeking an abortion. Smith Decl. ¶
18; Glynn Decl. ¶ 12; Lucido Decl. ¶¶ 8–13. Currently,
the bypass coordinator informs the minors that no one
involved in the bypass process will notify their parents that they are pregnant or seeking a bypass.
Smith Decl. ¶ 18. This assurance will no longer be possible under SEA 404’s notice provision.
On at least one occasion, the mother of a young woman
seeking a judicial bypass discovered her plans through a third
party and prevented her from seeking an abortion, instead forcing her to give birth. Glynn Decl. ¶ 13; see also Dr. Pinto Decl. ¶
29.
2

109a
C.

Referral Practices

PPINK is regularly contacted by women, including
minors, for abortion services and subsequently discovers, either during the initial telephone consultation or
during the visit to one of its health centers, that it is
unable to perform the abortion or that the individual
might prefer to obtain an abortion elsewhere. In some
cases, this is because the woman’s pregnancy is past
the first trimester (the time during which abortions
are available in Indiana) or because there are other
reasons why it would be desirable or necessary for the
woman to obtain an abortion in another state. Beeley
Decl. ¶ 27. In these circumstances, PPINK frequently
informs the women, including minors, that they have
the option to receive abortion services in states other
than Indiana. Id. ¶ 28. PPINK is aware, for example,
that there are abortion providers in neighboring
states, including Illinois, Michigan, Ohio, and Kentucky, who offer abortion services into the second trimester. Id. ¶ 29. When applicable, PPINK informs
those seeking abortion services of the availability of
such services in other states. Id.
Similarly, PPINK believes that SEA 404’s parental notice requirement and identification/affidavit requirements are more stringent than comparable requirements in Indiana’s neighboring states. Id. ¶¶
30–31. PPINK would like to be allowed to inform unemancipated minors who seek abortion services after
July 1, 2017 not only of Indiana’s requirements, but
also of the fact that other states may have less restric-

110a
tive requirements. Id. ¶ 32. It is undisputed that doing so would subject PPINK and its staff to both civil
liability and licensing sanctions under the amended
statute.
Legal Analysis
I. Standard of Review
To obtain a preliminary injunction, the moving
party must demonstrate: (1) a reasonable likelihood
of success on the merits; (2) no adequate remedy at
law; and (3) irreparable harm absent the injunction.
Planned Parenthood of Indiana, Inc. v. Commissioner
of Indiana State Dept. of Health, 699 F.3d 962, 972
(7th Cir. 2012). If the moving party fails to demonstrate any one of these three threshold requirements,
the injunctive relief must be denied. Girl Scouts of
Manitou Council, Inc. v. Girl Scouts of the United
States, Inc., 549 F.3d 1079, 1086 (7th Cir. 2008) (citing Abbot Labs. v. Mead Johnson & Co., 971 F.2d 6,
11 (7th Cir. 1992)). However, if these threshold conditions are met, the Court must then assess the balance
of the harm—the harm to Plaintiff if the injunction is
not issued against the harm to Defendants if it is issued—and determine the effect of an injunction on the
public interest. Id. “The more likely it is that [the
moving party] will win its case on the merits, the less
the balance of harms need weigh in its favor.” Id. at
1100.

111a
II. Likelihood of Success on the Merits
A.

Indiana Code § 16-34-2-4(d), (e)
1. Nature of PPINK’s Challenge

In its Response Brief to PPINK’s motion and again
at oral argument, the State devoted significant time
and attention to the fact that PPINK’s challenge to
SEA 404’s parental-notification provision is what is
known as a “pre-enforcement facial challenge,” meaning, that PPINK has challenged the constitutionality
of this statute prior to its implementation and without reference to any specific or individual application
of the law.
The State contends that because the nature of
PPINK’s challenge to SEA 404 relates to the statute’s
impact on abortion-seeking minors in Indiana—specifically, that the law’s effect will place a “substantial
obstacle” in the path of those minors—PPINK is obligated to present “actual evidence” of the law’s “operational effect” as opposed to offering “mere hypothesis”
of its “likely impact.” See Defs.’ Resp. at 12–15. As the
State contends, we cannot know what SEA 404’s effects will be, much less if those effects will represent
a substantial obstacle to abortion-seeking minors in
Indiana, until after the law takes effect on July 1,
2017. It maintains further that, following the law’s
implementation, the correct path and forum for a
challenge would be on an as-applied basis in the
State’s juvenile courts and on expedited appeal to the
Indiana Supreme Court thereafter.

112a
In advancing this argument, the State has touched
on an issue for which neither the Supreme Court nor
the Seventh Circuit has provided crystal-clear guidance. It appears the State derived this standard from
A Woman’s Choice—East Side Women’s Clinic v. Newman, 305 F.3d 684, 693 (7th Cir. 2002), a case in
which the Seventh Circuit reversed a district court’s
injunction restraining enforcement of an informedconsent provision requiring abortion-seeking women
in Indiana to attend a second clinic visit so that certain information could be provided to them in person.
In A Woman’s Choice, the Seventh Circuit held that it
was an abuse of discretion for the district judge to issue a pre- enforcement injunction of the two-visit provision prior to determination of the law’s effects or the
reasons for those effects. Id.
More precisely, the Seventh Circuit found unpersuasive the evidence accepted by the district court establishing that similar two-visit provisions in Mississippi and Utah reduced by 10% the number of abortions performed in those states as compared to their
neighboring states who did not require multiple visits. Though the district court concluded that a similar
provision in Indiana would produce similar results,
thereby creating an undue burden on abortion in Indiana, the Seventh Circuit concluded:
Because Indiana has been disabled from
implementing its law and gathering information about actual effects, any uncertainty about the inferences based on other
states’ experience and how that experience

113a
would carry over to Indiana must be resolved in Indiana’s favor.
Id. at 687.
Prior to discussing this evidence, however, the
Seventh Circuit noted the incongruity between the
Supreme Court’s decision in United States v. Salerno,
481 U.S. 739 (1987), which stated that, except in First
Amendment cases, a law may be held facially unconstitutional only when “no set of circumstances exists
under which the Act would be valid,” and the Court’s
subsequent decisions in both Planned Parenthood v.
Casey, 505 U.S. 833, 847 (1992) and Stenberg v. Carhart, 530 U.S. 914 (2000), where the Court, faced with
pre-enforcement facial challenges, held invalid a statute forbidding the use of the “intact dilation and extraction” method of abortion (Stenberg) and a statute
requiring a woman to provide spousal notification before obtaining an abortion (Casey). See A Woman’s
Choice, 305 F.3d at 687, 691. Judge Easterbrook, writing for the panel, described these cases as “irreconcilable directives from the Supreme Court,” but concluded that, given their incompatibility, the language
of Salerno must give way to the subsequent holdings
in Stenberg and Casey. Though recognizing the justiciability of pre- enforcement facial challenges to abortion regulations in light of Stenberg and Casey, he
nevertheless distinguished the magnitude of potential harm posed by the two-visit provision in A
Woman’s Choice as compared to the spousal-notification provision in Casey, stating that “[t]he record in
this case does not show that a two-visit rule operates
similarly to a spousal-notification rule by facilitating

114a
domestic violence or even inviting domestic intimidation.” Id. at 692.
As we understand it, and as the Seventh Circuit
described it, the severity and character of harm presented by certain abortion restrictions render them
vulnerable to pre-enforcement facial challenges. And
while it may be difficult to neatly sort out the restrictions that fall into this category and those that do
not, our task is simplified here. The Supreme Court
in Casey enjoined enforcement of a spousal-notification statute, finding that the effects of requiring
spousal notice—which, in some cases, would include
domestic physical and psychological abuse and obstruction—were simply too great to countenance. We
find the same to be true here. As explained below, for
many young women in Indiana, the requirement of
providing parental notification before obtaining an
abortion carries with it the threat of domestic abuse,
intimidation, coercion, and actual physical obstruction. The State’s argument that those seeking to challenge the law must wait until evidence of this type of
harm accrues is simply incorrect. The Court need not
sit idly by while those most vulnerable among us are
subjected to unspeakable and horrid acts of violence
and perversion, nor may we blind ourselves to the fact
that for millions of children (including young women)
in the United States the threat of such abuse is real.
See e.g., Dr. Pinto Decl. ¶ 10.
We pause, however, to acknowledge that the likelihood of such harm is not present in the large majority of cases. At least that is our hope and assumption.
In well- functioning families, a child will find it both

115a
helpful and safe to discuss her pregnancy and the decision whether to bear a child with her most-trusted
advisors and confidants, which group typically includes her parents. PPINK itself recognizes the importance of parental consultation within the ideal
family structure, which, presumably, is the reason the
organization advises every minor who expresses her
desire to obtain an abortion to first discuss the matter
with her parents. See Beeley Decl. ¶ 20. In fact,
PPINK’s data from fiscal year 2015 shows that 96.3%
of minors who had abortions at PPINK did so with the
legal consent of a parent or legal guardian. Id. ¶ 9.
But we cannot limit our analysis or our concerns only
to the majority of cases; for most minors, if past experience holds true, SEA 404’s proposed amendments
are neither restrictive nor relevant.
The fact that minors in well-functioning families
are not likely to face these problems does not alter the
hardship created by the notice requirement on its
face. We turn our analysis now to those minors described above, namely, those who face the possibility
of interference, obstruction, or physical, psychological, or mental abuse by their parents if they were required to disclose their pregnancy and/or attempt to
obtain an abortion. And, as discussed in detail below,
that hardship is more than merely a state- created
disincentive; rather, it represents a substantial stateimposed obstacle to the exercise of the minor woman’s
free choice. Given that “[t]he proper focus of constitutional inquiry is the group for whom the law is a restriction, not the group for whom the law is irrelevant,” Casey, 505 U.S. at 894, we find that SEA 404’s
parental-notification provision will create an undue

116a
burden for a sufficiently large fraction of mature,
abortion-seeking minors in Indiana. It is, therefore,
unconstitutional and invalid on its face. See Whole
Woman’s Health v. Hellerstedt, 136 S. Ct. 2292, 2320
(2016).
2. Undue Burden
The primary issue presented by this case is
whether the parental-notification requirements of
Ind. Code § 16-34-2-4(d), (e) (eff. July 1, 2017) create
an “undue burden” for abortion-seeking minors in Indiana.
It serves us well in seeking to resolve this issue to
return to the landmark decision in Roe v. Wade, 410
U.S. 113 (1973), in which the Supreme Court announced that a woman’s Constitutional rights to privacy and liberty, as derived from the Due Process
Clause of the Fourteenth Amendment, are “broad
enough to encompass a woman’s decision whether or
not to terminate her pregnancy.” Roe, 410 U.S. at 153.
Reaffirming this “most central principle of Roe v.
Wade,” in Planned Parenthood v. Casey, 505 U.S. 833,
847 (1992), a plurality of the Court wrote that “[i]t is
a promise of the Constitution that there is a realm of
personal liberty which the government may not enter.” Implicit in that promise is the “right of an individual…to be free from unwarranted governmental
intrusion into matters so fundamentally affecting a
person as the decision whether to bear or beget a
child.” Id. at 851–52 (citing Eisenstadt v. Baird, 405
U.S. 438, 453 (1972)).

117a
Indeed, the Supreme Court has recognized that
when it comes to the abortion decision, “the liberty of
the woman is at stake in a sense unique to the human
condition and so unique to the law.” Id. at 852. The
effect of state regulation of woman’s choice to have an
abortion touches not only upon the private sphere of
the family but also upon the bodily integrity of the
pregnant woman and is, therefore, “doubly deserving
of scrutiny.” Id. at 896. Accordingly, States are prohibited from enacting legislation which places an “undue burden” on a woman’s ability to make the abortion decision—i.e., legislation having the effect of
placing a “substantial obstacle” in the path of the
woman’s choice. Id. at 877.3
Among the restrictions proscribed by the Court’s
ruling in Casey were statutes requiring a woman to
provide notice to her spouse prior to an abortion. The
Court found that requiring such notification was
“likely to prevent a significant number of women from
obtaining an abortion. [Notice] does not merely make
abortions a little more difficult or expensive to obtain;
for many women, it will impose a substantial obstacle.” Id. at 893–94. It has thus become the law of the
land that a woman’s right to privacy as forefended by
the Fourteenth Amendment prevents the States from
“The three-Justice lead opinion in Casey is in some parts
the opinion of the Court and in some the limiting concurrence.
Although the undue burden test was endorsed by only three justices, as the narrowest ground for the Court’s holding it is as
binding on the lower courts as would be a majority opinion.”
Planned Parenthood of Idaho v. Wasden, 376 F.3d 908, 921 n.11
(9th Cir. 2004) (citing Marks v. United States, 430 U.S. 188, 193
(1977)).
3

118a
requiring her to provide notification of her decision to
have an abortion.
The question now before the Court is whether this
rule also extends to unemancipated minors by preventing States from requiring them to give notice to
their parents in all cases except where they are able
to satisfy a juvenile court judge that obtaining an
abortion without notice is in their best interests.
It is well settled that the rights to privacy and liberty, like many constitutional rights, extend in full
force to minors. Bellotti v. Baird, 443 U.S. 622, 633
(1979) (Powell, J.) (“A child, merely on account of h[er]
minority, is not beyond the protection of the Constitution.”); Planned Parenthood of Central Missouri v.
Danforth, 428 U.S. 52, 74 (1976) (“Minors, as well as
adults, are protected by the Constitution and possess
constitutional rights.”). This means that, for both the
adult and the minor woman, state-imposed burdens
on the abortion decision can be justified only upon a
showing that the restrictions advance “important
state interests.” Roe v. Wade, 410 U.S. at 154, accord,
Danforth, 428 U.S. at 61.
The difference between abortion regulations concerning adults and those concerning minors is that
certain important state interests not present in the
case of an adult woman must be considered and
weighed against the minor’s rights to privacy. In addition to the State’s interests in the preservation of
fetal life and encouraging childbirth rather than abortion, cf. Maher v. Roe, 432 U.S. 464 (1977); Harris v.

119a
McRae, 448 U.S. 297 (1980), the law recognizes legitimate state interests in protecting children and adolescents, preserving family integrity, and encouraging
parental authority.
It has long been accepted that “[c]hildren have a
very special place in life which law should reflect.”
May v. Anderson, 345 U.S. 528, 536 (1953) (Frankfurter, J., concurring). “[D]uring the formative years of
childhood and adolescence, minors often lack the experience, perspective, and judgment to recognize and
avoid choices that could be detrimental to them.” Bellotti, 443 U.S. at 635. In recognition of these vulnerabilities, the Court has held that the State may validly
limit the freedom of children to choose for themselves
in the making of important choices that entail potentially serious consequences, including the decision
whether to seek an abortion. Id. (collecting cases).
Often, the preferred method by which a state may
limit a child’s decision-making freedom is to encourage parental consultation: “As immature minors often
lack the ability to make fully informed choices that
take account of both immediate and long-range consequences, a State reasonably may determine that parental consultation often is desirable and in the best
interest of the minor.” Id. at 640.
Indeed, in most cases, parental consultation is
more than desirable; it is fundamental. It is deeply
rooted in our Nation’s history and tradition as well as
our jurisprudence, that “the custody, care and nurture of the child reside first in the parents, whose primary function and freedom include preparation for

120a
obligations the state can neither supply nor hinder.”
Prince v. Massachusetts, 321 U.S. 158, 166 (1944). The
duty to prepare the child for these obligations “must
be read to include the inculcation of moral standards,
religious beliefs, and elements of good citizenship.”
Wisconsin v. Yoder, 406 U.S. 205, 233 (1972). This
process of child rearing has long been understood to
be, in large part, “beyond the competence of impersonal political institutions,” Bellotti, 443 U.S. at 638,
and should, therefore, be left to the family—the institution through which “we inculcate and pass down
many of our most cherished values, moral and cultural.” Moore v. East Cleveland, 431 U.S. 494, 503–
504 (1977). Concomitant with our Nation’s deeprooted respect for the private realm of the family is
the parents’ “traditional and substantial interest in,
as well as a responsibility for, the rearing and welfare
of their children, especially during immature years.”
H. L. v. Matheson, 450 U.S. 398, 419 (1981) (Powell,
J., concurring) (citing Bellotti, 443 U.S. at 637–639).
In the context of deciding on whether to undergo
an abortion, however, these state interests in protecting children and preserving the family, important as
they are, are not without limits; at times, the State
must in certain instances yield to the pregnant minor’s interests in her own privacy and bodily integrity,
for, as we noted previously, the abortion decision necessarily entails long-term consequences unique to the
human condition and must therefore be considered
unique also in the eyes of the law.

121a
Recognizing these limitations in Planned
Parenthood v. Danforth, the Supreme Court held unconstitutional a law requiring an unmarried minor to
obtain the written consent of a parent or person in
loco parentis prior to an abortion in all cases except
those where a licensed physician had certified the
abortion as necessary in order to preserve the life of
the mother. 428 U.S at 72, overruled on other grounds
by Casey, 505 U.S. 833. There, the Court held that
“[j]ust as with the requirement of consent from the
spouse, so here, the State does not have the constitutional authority to give a third party an absolute, and
possibly arbitrary, veto over the decision of the physician and his patient to terminate the patient’s pregnancy, regardless of the reason for withholding consent.” Id. at 74.
Though the Danforth Court acknowledged the
longstanding acceptance of the State’s “somewhat
broader” authority to regulate the freedom of children
than of adults, it nevertheless rested its decision on
two points: first, “Constitutional rights do not mature
and come into being magically only when one attains
the state-defined age of majority”; and, second, “Any
independent interest the parent may have in the termination of the minor daughter’s pregnancy is no
more weighty than the right of privacy of the competent minor mature enough to have become pregnant.”
Id. at 74–75. The Court thus concluded that, when
weighed against one another, the competent and mature minor’s interests in privacy and bodily integrity
outweighed the State’s interest in granting the family, be it parent or spouse, the right to veto the mature

122a
minor’s decision—a power the State itself did not possess. Id.
Three years after Danforth, the Court addressed a
Massachusetts statute that required parental consent
to be obtained for every nonemergency abortion where
the mother was less than eighteen years of age and
unmarried, with the sole exception being instances
where a parent had died, deserted the family, or was
otherwise unavailable. Bellotti, 443 U.S. 622. Writing
for a plurality of the Court, Justice Powell expressly
noted that the statute did not “permit[] any minors—
mature or immature—to obtain judicial consent to an
abortion without any parental consultation whatsoever,” but instead mandated that “an available parent
must be given notice of any judicial proceedings
brought by a minor to obtain consent for an abortion.”
Id. at 646.
The Powell plurality concluded that, when construed in such a manner, the law imposed an undue
burden on the exercise by minors of their right to seek
an abortion, and that, in order to comport with the
Constitution, statutes requiring parental consultation and consent must include an alternative path to
an abortion:
[E]very minor must have the opportunity—
if she so desires—to go directly to a court
without first consulting or notifying her parents. If she satisfies the court that she is mature and well enough informed to make intelligently the abortion decision on her own,
the court must authorize her to act without

123a
parental consultation or consent. If she fails
to satisfy the court that she is competent to
make this decision independently, she must
be permitted to show that an abortion nevertheless would be in her best interests. If
the court is persuaded that it is, the court
must authorize the abortion. If, however,
the court is not persuaded by the minor that
she is mature or that the abortion would be
in her best interests, it may decline to sanction the operation.
Bellotti, 443 U.S. at 647–48 (Powell, J.)
This alternative to parental consent described
Justice Powell has become known as a “judicial bypass,” which must: (1) allow the minor to bypass parental consent requirements if she “is mature enough
and well enough informed to make the abortion decision independently”; (2) allow her to bypass consent
requirements where the abortion would be in the minor’s best interests; (3) ensure the minor’s anonymity;
and (4) be conducted in expeditious fashion. Lambert
v. Wicklund, 520 U.S. 292, 295 (1997).
In its challenge to SEA 404, PPINK contends that
these “judicial bypass” requirements set out in Bellotti for parental-consent statutes should also apply to
parental- notification statutes. If applied in this manner, the Bellotti factors would render SEA 404’s
amendment to Ind. Code § 16-34-2-4(d), (e) unconstitutional, given that the amendment eliminates a
pregnant minor’s ability to bypass parental notification through a showing that she is mature enough and

124a
well enough informed to make the abortion decision
independently.
For years following the Bellotti decision, the language of Justice Powell’s plurality opinion, which discussed not only parental consent but also parental involvement and consultation in decisionmaking, was
interpreted just as PPINK posits, to wit, as expanding
the Court’s Danforth decision forbidding states from
providing parents an absolute veto over a mature minor’s decision by requiring states to afford mature minors an opportunity to bypass all hostile parental involvement in their decision.
In H.L. v. Matheson, 450 U.S. 398, 411 (1981), the
Court held that a statute requiring parental notification did not violate the constitutional rights of immature and dependent minors, concluding that, as applied to those minors, the statute “plainly serve[d] the
important considerations of family integrity and protecting adolescents.” Though the majority in Matheson did not decide whether a notice requirement
would be constitutional as applied to emancipated or
mature minors, see id. at 407 n.14, 412 n.22, five Justices expressed the view that in light of Bellotti it
would be unconstitutional to apply a notice requirement to minors who could demonstrate their maturity. See id. at 420 (“[A] State may not validly require notice to parents in all cases, without providing
an independent decisionmaker to whom a pregnant
minor can have recourse if she believes that she is mature enough to make the abortion decision independently or that notification otherwise would not be
in her best interests. My opinion in Bellotti [], joined

125a
by three other Justices, stated at some length the reasons why such a decisionmaker is needed.”) (Powell,
J., joined by Stewart, J., concurring); id. at 451, n.49
(“[U]nder Justice Powell’s reasoning in Bellotti [], the
instant statute is unconstitutional. Not only does it
preclude case-by-case consideration of the maturity of
the minor, it also prevents individualized review to
determine whether parental notice would be harmful
to the minor.”) (Marshall, J., joined by Brennan and
Blackmun, JJ., dissenting).
Then, in City of Akron v. Akron Center for Reproductive Health (“Akron I”), Justice Powell, writing for
the Court, stated in a footnote that an Ohio statute
which required parental notification, but contained
“no provision for a mature or emancipated minor completely to avoid hostile parental involvement by
demonstrating to the satisfaction of the court that she
is capable of exercising her constitutional right to
choose an abortion ... would be unconstitutional.” 462
U.S. 416, 422 n.31 (1983), overruled on other grounds
by Casey, 505 U.S. 833 n.3 (citing Matheson, 450 U.S.
at 420, 428) (emphasis added).
In Indiana Planned Parenthood Affiliates Ass’n,
Inc. v. Pearson, 716 F.2d 1127, 1131–32 (7th Cir.
1983), the Seventh Circuit applied these Supreme
Court cases to a challenge brought by Planned
Parenthood as to the constitutionality of an Indiana
statute which Planned Parenthood maintained would
allow a juvenile court to deny waiver of notice for a
concededly mature minor if the court found that notice would be in child’s best interests—a challenge almost identical to the one raised by PPINK here.

126a
There, the Seventh Circuit held that “[t]he plurality
opinion [in Bellotti] also concluded that a state is required to make [the judicial] bypass procedure available under notification statutes as well [as consent
statutes]”; therefore, the State cannot constitutionally “give the juvenile court the authority to refuse to
waive notification despite a finding that the minor is
mature.” Id. at 1134 (citing Matheson, 450 U.S. 398,
454 n.9 (Powell, J., concurring)); see also Zbaraz v.
Madigan, 763 F.2d 1532, 1539 (7th Cir. 1985)
(“Zbaraz I”) (holding that the Bellotti standard “also
governs provisions requiring parental notification”).
In reaching this conclusion, the Seventh Circuit
reasoned that notice statutes should receive the same
treatment as consent statutes because, “as a practical
matter, a notification requirement will have the same
deterrent effect on a minor seeking an abortion as a
consent statute has.” Pearson, 716 F.2 at 1132. It explained:
Unemancipated minors are fundamentally
different from adults because they are financially dependent upon their parents and
have numerous legal incapacities. In addition, parents have considerable leeway to
impose punishment upon their children for
disobedience. Because of this, minors often
have no choice but to comply with parental
directives.
Although notification requirements do not
give parents the legal power to veto their
daughter’s abortion decision, as a practical

127a
matter they may. “[Y]oung pregnant minors,
especially those living at home, are particularly vulnerable to their parents’ efforts to
obstruct both an abortion and their access to
court.” Bellotti [], 443 U.S. at 647 (plurality
opinion of Powell, J.). It was a recognition of
this vulnerability that led the plurality in
Bellotti [] to state that confidentiality was
necessary in a waiver-of-consent proceeding. See id.
Because parental involvement brought
about by either consent or notification statutes may result in similar efforts by parents
to block the abortion, we will apply the Supreme Court’s analysis with respect to consent bypass procedures in our consideration
of the constitutional sufficiency of Indiana's
notification bypass procedures.
Id. at 1132.
If we were to rely solely on the reasoning and disposition of Pearson, the answer to the question before
us would appear relatively straightforward: Bellotti
forbids a state from requiring parental notification of
a minor without affording the minor an opportunity
to bypass the notice requirements through a showing
of maturity.
However, in the years following the Supreme
Court decision in Akron I, 462 U.S. 416 (1983), the
Court has pulled back from this interpretation of Bellotti and its progeny, stating that, “although our cases

128a
have required bypass procedures for parental consent
statutes, we have not decided whether parental notice
statutes must contain such procedures.” Ohio v. Akron Ctr. for Reprod. Health (“Akron II”), 497 U.S. 502,
510–11 (1990) (citing Matheson, 450 U.S. at 413). The
Court thereafter has repeatedly “declined to decide
whether a parental notification statute must include
some sort of bypass provision to be constitutional.”
Lambert, 520 U.S. at 295.
In response to the Supreme Court’s clarification of
Bellotti, the Seventh Circuit recognized in Zbaraz v.
Madigan (“Zbaraz II”) that its conclusions in Pearson,
716 F.2d 1127 and Zbaraz I, 763 F.2d 1532 had been
premature; to the extent they rested on language from
opinions addressing only the constitutional requirements concerning parental-consent statutes they
lacked precedential support. 572 F.3d 370, 379–80
(7th Cir. 2009). Much like the Supreme Court in Akron II, the Seventh Circuit in Zbaraz II declined to
decide whether a parental notification statute lacking
a Bellotti-type bypass violated the Constitution, holding instead that because the Illinois statute at issue
in Zbaraz II satisfied the Bellotti criteria for consent
statutes, it therefore a fortiori satisfied any criteria
that might be required for bypass provisions in notice
statutes. Zbaraz II, 572 F.3d at 380.4
4 The State contends that Zbaraz II should be read as stripping Zbaraz I and Pearson of any controlling weight and that we
should look to the Seventh Circuit’s pre-Bellotti decision in Wynn
v. Carey, 582 F.2d 1375, 1388 (7th Cir. 1978) for the “proper doctrinal rule” concerning parental-notification statutes. Defs.’
Resp. at 5–6. We disagree. The Seventh Circuit recognized in
Zbaraz II that its prior decisions in Zbaraz I and Pearson had

129a
In short, the specific question remains unanswered by the Supreme Court and the Seventh Circuit
as to whether a statute requiring parental notice
must, similar to a parental-consent statute, include a
provision allowing a minor to bypass parental notice
upon showing that she is mature enough and well
enough informed to make the decision on her own. In
the case before us, we cannot sidestep that issue. Accordingly, we hold that it must. Though not identical
in every aspect, state-mandated requirements of parental notice impose many of the same consequential
burdens on young women as do state-mandated requirements of parental consent. Indeed, in many
cases, requiring notice is tantamount to requiring
consent.
We need look no further than the Supreme Court’s
plurality opinion in Casey to understand this fundamental truth. In invalidating Pennsylvania’s spousalnotification statute, the Court explained that, although many women in well-functioning marriages
were likely to discuss the abortion decision with their
spouse, the same cannot be said, nor mandated, of all
interpreted the Supreme Court’s plurality opinion in Bellotti as
setting the appropriate standards for parental- notification statutes in addition to parental-consent statutes—an interpretation
that “conflicted” with subsequent Supreme Court decisions indicating that Bellotti encompassed only parental consent. See
Zbaraz II, 572 F.3d at 380. The Seventh Circuit did not, however, overturn its decisions in Pearson or Zbaraz I. Indeed, we
find that much of the reasoning expressed in those opinions regarding the impact of requiring parental notice is likely as true
today as it was when they were decided.

130a
women. Casey, 505 U.S. at 892. Millions of women in
the United States are victims of regular physical and
psychological abuse at the hands of their husbands,
said the Court in Casey, which abuse results in those
women possessing justifiable fears that informing
their husbands of their intent to have an abortion
could result in further infliction of abuse in the form
of “verbal harassment, threats of future violence, the
destruction of possessions, physical confinement to
the home, the withdrawal of financial support, or the
disclosure of the abortion to family and friends.” Id.
at 893.
Ultimately, the Casey plurality concluded:
Whether the prospect of notification itself
deters such women from seeking abortions,
or whether the husband, through physical
force or psychological pressure or economic
coercion, prevents his wife from obtaining
an abortion until it is too late, the notice requirement will often be tantamount to the
veto found unconstitutional in Danforth.
Id. at 897.
The concerns raised in Casey regarding the deleterious effect of state-mandated notice are, if anything,
heightened with regard to unemancipated minors,
who typically must rely on their parents in ways
unique to all other relationships. Unemancipated minors depend on their parents for financial support,
housing, and transportation in addition to the many
legal incapacities for which the parents must serve as

131a
proxy. This unparalleled dependence often constrains
a minor’s ability to disobey parental directives. For instance, many minors may encounter post-notification
interference from their parents in the form of parental disappointment and disapproval, withdrawal of financial support, or actual obstruction of the abortion
decision itself. In such cases, although the notification
may not have granted the parents’ legal authority to
veto the minor’s decision, the practical effect will be
one and the same. See Pearson, supra.
In addition to actual obstruction, a large number
of minors may face the risk of domestic abuse at the
hands of one or more of their parents in the event that
a parent is notified of the minor’s pregnancy. As Dr.
Suzanne Pinto has reported to this Court, millions of
children in our country are abused at home each year.
See Dr. Pinto Decl. ¶10. This abuse can take several
forms—physical, sexual, or emotional—and can vary
in degree from family to family. Id. For young women
in particular, a key aspect of abuse often involves
their sexuality, and, as a physical manifestation of
sexual activity, a teen’s pregnancy can serve as a
flashpoint for parental retaliation or repercussions,
igniting an abusive parent’s anger and fueling his or
her belief that the minor has low moral fiber, resulting in further and more aggressive maltreatment. Id.
¶¶ 14–15.
According to the sworn declarations of Kathryn
Smith, Indiana’s “bypass coordinator,” and Katherine
Flood, a practicing attorney representing minors in
Indiana consent-bypass proceedings, many of the
young women whom they have assisted in attaining a

132a
bypass of Indiana’s parental-consent requirements
chose not to inform their parents of their pregnancy
out of concern that they would face precisely this type
of obstruction or abuse if their parents discovered
they were seeking an abortion. Smith Decl. ¶¶ 16–17;
Flood Decl. ¶ 9.
Under SEA 404’s proposed amendments, minors
can no longer avail themselves of the judicial bypass
procedures with the knowledge and comfort that their
attempts would remain confidential, because, in every
case where the juvenile court does not find that proceeding without notice is in the minor’s best interests,
it must order parental notice be issued before the
abortion. Ind. Code § 16-34-2-4 (eff. July 1, 2017).
As borne out in Dr. Pinto’s testimonial examples,
fear of retaliatory domestic abuse may, in many cases,
prompt pregnant minors to engage in hazardous selfhelp measures such as attempting to physically
and/or chemically induce miscarriage or to entertain
thoughts of suicide. Id. ¶ 16. Not surprisingly, the evidence also establishes that the threat that their parents may become aware of their pregnancy if they
prove unsuccessful in court often suffices to deter
many minors from even attempting to avail themselves of their constitutionally-protected right to seek
a bypass of Indiana’s parental- consent requirements.
See e.g., Dr. Pinto Decl. ¶ 28. Contrary to the State’s
contention, this deterrent effect is not ameliorated by
the fact that under SEA 404’s proposed parental-notification provision, a minor may obtain a bypass of notice if she can persuade the juvenile court that proceeding without notice is in her best interests. “It is

133a
hardly speculative to imagine that even some mature
minors [or those for whom it would be in their best
interests] will be deterred from going to court if they
know that their parents will be notified if their petitions are denied, because no minor can be certain that
the court will rule in her favor.” Pearson, 716 F.2d at
1141.
Indeed, as the Supreme Court recognized in Casey:
“If anything in this field is certain, it is that victims
of [domestic abuse] are extremely reluctant to report
the abuse to the government.” Casey, 505 U.S. at 893.
As a result, many minors will find it difficult or impossible to make a full disclosure of their abuse in order to convince the court that proceeding without
providing notice to their abuser is in their best interests. Research conducted in this area suggests that
only about half of all abused minors ever disclose their
abuse, and those who do, typically make their disclosure to a trusted adult with whom they have developed a rapport in a therapeutic environment. Dr.
Pinto Decl. ¶ 20. Faced with the prospect of either disclosing her abuse to a relative stranger or being ordered to notify her abuser of her pregnancy and attempt to circumvent Indiana’s consent requirements,
it is no wonder that a minor might well be deterred
from the process entirely.
Put simply, this deterrent effect of SEA 404’s proposed parental-notification requirements unquestionably burdens the right of abortion-seeking minors in
Indiana. What we must determine is whether that effect amounts to an “undue burden.” See Casey, supra.
In resolving that issue, we shall address the State’s

134a
proffered justifications for the infringements imposed
by SEA 404.
As previously recognized, the State’s deep-rooted
respect for the private realm of the family and its
recognition of the guiding role of parents in the upbringing of their children typically justify limitations
on the freedoms of minors. However, “[c]onsent and
involvement by parents in important decisions by minors long have been recognized as protective of their
immaturity.” Bellotti, 443 U.S. at 649 (emphasis
added). Accordingly, PPINK maintains that the State
has “no” interest whatsoever in promoting parental
involvement in the case of mature minors, and, therefore, it cannot sustain an invasion of those minors’
privacy. See Pls.’ Br. at 20. We stop short of concurring in PPINK’s position that the State’s interest is
zero, given that a parent’s interest in, as well as responsibility for, the rearing and welfare of his or her
unemancipated minor does not end at the abortion decision, nor is it completely extinguished by a judicial
finding of maturity. These minors are, after all, unemancipated, meaning that for the remainder of their
minority, they will likely continue to rely on their parents in each of the ways described above. Similarly,
their parents will retain a coterminous interest in
providing them with guidance, support, and stewardship. Nonetheless, these roles and responsibilities
may be greatly diminished in the case of the minor
who has shown that she is mature enough and well
enough informed to make the abortion decision independently.

135a
Accordingly, the State may not rely on the reserved rights of parents in the rearing of their children to justify its intrusion into the private life of the
minor and the private domain of the family. The inescapable fact is that the government’s intervention in
this respect will have a far greater impact on the pregnant minor’s bodily integrity than it will on the parents’ authority. For this reason, the mature minor as
the individual who bears the full consequences of the
ultimate decision is entitled to an opportunity to proceed without state-mandated interference from her
parents. Because SEA 404 offers no such opportunity,
it places an unjustifiable burden on mature minors in
violation of the Fourteenth Amendment.5
B. Indiana Code § 16-34-2-4(a) and Indiana
Code § 16-34-2-4(k)
PPINK next challenges the portions of SEA 404
that apply to cases in which the minor has received
We are not alone in reaching this conclusion. The Courts of
Appeals for both the Fifth and Eighth Circuits addressed similar
challenges in Causeway Medical Suite v. Ieyoub, 109 F.3d 1096
(5th Cir. 1997), overruled on other grounds by Okpalobi v. Foster,
244 F.3d 405 (5th Cir. 2001) and Planned Parenthood, Sioux
Falls Clinic v. Miller, 63 F.3d 1452 (8th Cir. 1995), both drawing
similar conclusions, to wit, that parental notification statutes
must include a Bellotti-type bypass. See also Nova Health Sys. v.
Fogarty, 2002 WL 32595281 (N.D. Okla. June 14, 2002) (reaching same conclusion). If enacted, however, Indiana would stand
alone as the only state, of the seventeen requiring parental notification, to impose a notice requirement on unemancipated minors seeking an abortion without the opportunity to establish
her maturity as a bypass of parental notice. See Pl.’s Br. at 21
n.13.
5

136a
parental consent to obtain an abortion. Here, the
amended statute requires physicians, in addition to
obtaining government-issued proof of identification
from a consenting parent, to procure “some evidence”
of identity from the minor and her consenting parent
before the abortion is performed, which “may include
identification or other written documentation,” capable of providing “an articulable basis for a reasonably
prudent person to believe” that the individual presenting as the minor’s parent is, in fact, the minor’s
parent. Ind. Code § 16-34-2-4(a)(3) (eff. July 1, 2017).
The physician performing the abortion would after reviewing such authenticating information be required
under SEA 404 to execute an affidavit attesting that
a “reasonable person under similar circumstances”
would have relied on the documentation that was provided by the minor and her parent “as sufficient evidence of identity and relationship.” Ind. Code §16-342-4(k)(2) (eff. July 1, 2017). PPINK challenges these
requirements on two grounds: first, the amendments
are unconstitutionally vague on their face, and, second, they violate the Equal Protection Clause of the
Fourteenth Amendment. We address first PPINK’s
vagueness challenge.
“The void for vagueness doctrine rests on the basic
due process principle that a law is unconstitutional if
its prohibitions are not clearly defined.” Hegwood v.
City of Eau Claire, 676 F.3d 600, 603 (7th Cir. 2012).
The due process clause “does not demand ‘perfect clarity and precise guidance,’” however. Id. (quoting Ward
v. Rock Against Racism, 491 U.S. 781, 794 (1989)). Rather, a statute is unconstitutionally vague only “if it
fails to define the offense with sufficient definiteness

137a
that ordinary people can understand what conduct is
prohibited and it fails to establish standards to permit
enforcement in a nonarbitrary, nondiscriminatory
manner.” Fuller ex rel. Fuller v. Decatur Pub. Sch. Bd.
of Educ. Sch. Dist. 61, 251 F.3d 662, 666 (7th Cir.
2001). “The degree of vagueness that the Constitution
tolerates—as well as the relative importance of fair
notice and fair enforcement—depends in part on the
nature of the enactment.” Village of Hoffman Estates
v. Flipside, Hoffman Estates, Inc., 455 U.S. 489, 498
(1982).
For example, “[t]he Constitution tolerates a lesser
degree of vagueness in enactments ‘with criminal rather than civil penalties because the consequences of
imprecision are more severe.’” Karlin v. Foust, 188
F.3d 446, 458 (7th Cir. 1999). Likewise, vagueness
concerns are heightened where a statute “threatens
to inhibit the exercise of constitutionally protected
rights.” Village of Hoffman Estates, 455 U.S. at 499.
The Seventh Circuit has also recognized that sanctions against a person’s license are sufficiently severe
to implicate void-for-vagueness concerns. See United
States ex rel. Fitzgerald v. Jordan, 747 F.2d 1120,
1129–30 (7th Cir. 1984); Baer v. City of Wauwatosa,
716 F.2d 1117, 1123–24 (7th Cir. 1983). In a facial
vagueness challenge, like the one before us, “the question is whether the statute is vague in all its operations.” Sherman ex rel. Sherman v. Koch, 623 F.3d
501, 520 (7th Cir. 2010).
These specific statutory provisions in SEA 404
provide no meaningful guidance to a physician in determining what additional identification (separate

138a
from the government- issued form of identification
that the consenting parent is already required to present under the statute) and/or other documentation
would be sufficient to satisfy SEA 404’s “some evidence” standard and provide “an articulable basis for
a reasonably prudent person to believe” that the minor’s parent is in fact who he or she purports to be. As
such, SEA 404 fails to provide PPINK and its physicians “fair notice” as to the standard(s) to which their
conduct must conform in order to avoid possible criminal prosecution and licensing sanctions. Physicians
are left to guess as to the ways they are required “to
conform [their] conduct to the law.” See City of Chicago v. Morales, 527 U.S. 41, 58 (1999).
Both at oral argument and in its Response Brief,
the State has conceded that the identification requirement is vague “at its margins,” admitting that it is
unclear what “outer limits of permissible evidence”
would be acceptable under the statute. See Defs.’
Resp. at 17–18. Despite these admissions, the State
argues that the identification requirement is not unconstitutionally vague because there are certain
pieces of evidence—such as a birth certificate with the
minor’s name and her parent’s name, an amended
birth certificate or adoption decree for an adoptive
parent, or some type of court order memorializing a
person’s status as a legal guardian or custodian—that
would clearly satisfy the statutory requirements. Because PPINK’s physicians are under no obligation to
test the limits of the statute, the State contends, they
could simply choose to accept only those “acceptable”
forms of documentation before performing abortions
on minors with parental consent. The State further

139a
maintains that the availability of such “safe harbors”
defeats PPINK’s vagueness challenge.
The State’s rejoinder fails on all fronts. First, the
only authority the State cites in support of its “safe
harbor” argument is the Supreme Court’s decision in
Gentile v. State Bar of Nevada, 501 U.S. 1030 (1991).
But Gentile does not support the proposition for which
it is cited by the State, to wit, that a statute cannot be
unconstitutionally vague as long as there is at least
one clear way of complying with the statutory requirements that individuals can choose to follow.6 (The
State conceded this weakness in its cited authority
during oral argument.) Moreover, as PPINK highlights in its briefing, if that were in fact an accurate
statement of law, a number of prior cases that have
held statutes void for vagueness would have been
wrongly decided. For example, in Akron I, the Supreme Court held unconstitutionally vague a requirement that fetal and embryonic remains be disposed of
“in a humane and sanitary manner” following an
abortion, 462 U.S. at 451–52, overruled on other
grounds by Casey, 505 U.S. 833 (1992), despite the
fact that certain means of disposal, including a burial
In Gentile, the Supreme Court held that a disciplinary rule
governing pretrial publicity that included a safe harbor provision
permitting an attorney to discuss the “general nature of the …
defense … without elaboration” was void for vagueness. 501 U.S.
at 1048. The Court found the provision unconstitutionally vague
insofar as “general” and “elaboration” are “both classic terms of
degree” that misled the plaintiff into believing that he could give
a press conference following the indictment of his client without
fear of discipline. Id. at 1048–49. This holding clearly has no
relevance to the issues before us.
6

140a
or cremation, would undoubtedly be deemed “humane
and sanitary” under any definition. Similarly, in
Kolender v. Lawson, 461 U.S. 352 (1983), the Supreme
Court invalidated a statute requiring individuals encountered on the streets to provide police officers with
“credible and reliable” identification when requested.
Id. at 359–60. That statute was deemed unconstitutionally vague despite the fact that certain types of
identification, such as government-issued photo identification, would most likely fall within anyone’s definition of the term.
Additionally, even if the existence of a safe harbor
were sufficient to insulate a statute from a vagueness
challenge as the State contends, we are not persuaded
that such a safe harbor exists here, given the imprecise and ambiguous statutory language at issue. It is
not clear, for example, that PPINK and its physicians
could ensure their compliance with the amended statute even if, as the State suggests, they required a
birth certificate in all cases to prove the parental relationship before performing the abortion. We can
easily imagine a situation in which the parent’s name
listed on the birth certificate does not match the parent’s identification, such as in cases of parental divorce or marriage. The statute provides no guidance
regarding whether a birth certificate in that case
would still provide “an articulable basis for a reasonably prudent person to believe” that the individual is
the parent of the minor or whether a “reasonable person under the same circumstances” would still rely on
the birth certificate to prove the parental relationship. Thus, even with documentation that the State
contends “would plainly suffice” to meet the statute,

141a
the obvious vagueness problems associated with SEA
404’s identification and affidavit requirements are
not eliminated.
Moving beyond this limited example, it is clear
that the statute provides no guidance regarding the
contours of the identification and affidavit requirements. For example, a physician could not be sure after reading the statutory language whether matching
surnames on a parent’s and the minor’s governmentissued forms of identification would suffice to satisfy
the statute. Even if matching last names on government-issued forms of identification would suffice in
some circumstances, it is not clear whether under the
statute that evidence would suffice where the surname is a common one, like “Jones” or “Smith,” or in
cases in which the appearance of the purported parent seems suspiciously youthful, such that, although
sharing the same surname with the minor, the two
might be only siblings. Nor is there guidance in the
statute that would enable a physician to determine
whether identification from a parent indicating a
matching address with that of the minor, even if their
last names were different, would be legally reliable in
terms of the kind of evidence required under this statutory structure. The uncertainty is even greater when
the documentation presented is less official than government-issued forms of identification or when the
minor lacks any form of identification in her name.
There is no clarity in the statute as to what circumstances, for example, would justify a “reasonably prudent” person to accept a document such as a utility

142a
bill or school transcript as evidence of the parental relationship when more formal identification is not
available.
We emphasize that this litany of problems is not
simply an academic exercise. Rather, it illustrates the
extent to which the imprecision embedded in the statutory scheme has serious real-world implications for
PPINK and its physicians as well as for the minors
who seek abortion services with their parent’s consent. It is clear that the statutory provisions at issue
qualify as penal statutes under prevailing law, given
that any physician who performs an abortion on an
unemancipated minor without obtaining proper identification and documentation from her parent and executing an affidavit is subject to criminal prosecution,
see Ind. Code § 16-34-2-7(b), and the affidavit requirement subjects the physician to criminal prosecution
for perjury, see Ind. Code § 35-44.1-2-1(a)(1). The Indiana State Department of Health may also revoke
PPINK’s license to operate as an abortion clinic based
on any violation of these amendments, which, as
noted above, the Seventh Circuit has recognized is a
sufficiently severe sanction to implicate void-forvagueness concerns.7

7 We are not persuaded at this juncture that the mens rea
requirements in the criminal statute enforcing the abortion requirements, (see Ind. Code § 16-34-2-7(b) (prohibiting the “perform[ance] of an abortion intentionally or knowingly in violation
of [the statutes]”)), and the perjury statute (see Indiana Code §
35-44.1-2-1(a) (providing that perjury requires a “false … affirmation, knowing the statement to be false or not believing it to
be true”)) stand as a sufficient safeguard against the significant

143a
Because the statute leaves unspecified the parameters for compliance, prosecuting officials who are responsible for enforcement of the statute, including the
Indiana State Department of Health, are afforded unfettered discretion to determine on a case-by-case basis whether the law has been violated. Given the
highly controversial and often politicized nature of
abortion rights, the danger that locally-elected prosecutors and other enforcement officials could use the
imprecision and malleability of the standard to further their own views and agendas is especially problematic. Moreover, we find that PPINK has shown a
likelihood that the vagueness of the identification and
affidavit amendments “threatens to inhibit the exercise of constitutionally protected rights,” Colautti v.
vagueness concerns raised by SEA 404’s identification and affidavit requirements, particularly in this case where the requirements implicate constitutional rights. Unlike cases in which
courts have found relevant the existence of a mens rea requirement, the mens rea requirement in the case at bar is not a part
of the action proscribed. Therefore, while physicians may not be
criminally convicted without the requisite mens rea, they are
still required by law to act in compliance with the vague identification and affidavit amendments, neither of which contain a
mens rea requirement. Accordingly, physicians’ confusion regarding whether they are in compliance with the identification
and affidavit requirements will still cause them to refrain from
performing abortions when they cannot be sure whether they are
in compliance with the amendments. In any event, there is no
mens rea requirement constraining the ability of the Indiana
State Department of Health to take action against an abortion
provider’s license upon a finding that the provider has allowed
the commission of “any illegal act,” (410 IAC 26-2-8), which the
parties agree would include the failure of its physicians to obtain
sufficient documentation of parental identity to satisfy the statute.

144a
Franklin, 439 U.S. 379, 391 (1979), as it is likely that
physicians who are presented with documentation
that they cannot be certain complies with SEA 404
(which, given the utter lack of guidance in the statute,
will not be uncommon) will simply refuse to perform
the abortion.8 For these reasons, we hold that PPINK
has shown a likelihood of succeeding on its claim that
the level of vagueness inherent in the identification
and affidavit requirements of SEA 404 cannot pass
constitutional muster.9

The State conceded at oral argument that the safest option
for physicians in questionable cases would be to decline to perform the abortion on the minor.
8

Because we find that PPINK is likely to succeed in showing
that the identification and affidavit requirements are void for
vagueness, we need not address PPINK’s alternative argument
that those amendments also violate the Equal Protection Clause.
9

145a
C. Indiana Code § 16-34-2-4.2(c)
Finally, PPINK challenges the provision in SEA
404 that would prevent it from advising its clients of
abortion options outside of Indiana. PPINK has indicated that its current practice is to regularly inform
women, including minors, of their options for obtaining a legal abortion in Indiana as well as other states,
particularly when other states have less onerous parental-consent requirements than does Indiana. However, the amended statute prohibits any person (other
than the minor’s parent or stepparent, grandparent
or stepgrandparent, sibling or stepsibling) from
“knowingly or intentionally aid[ing] or assist[ing] an
unemancipated pregnant minor in obtaining an abortion without the consent required” under Indiana law.
Ind. Code § 16-34-2-4.2(c) (eff. July 1, 2017). Both
sides agree that this amendment would apply to
PPINK and other medical providers and prohibit
them from providing information to young women
about abortion options outside the state of Indiana
where parental-involvement requirements might be
less expansive. PPINK argues that this is a contentbased restriction on speech that cannot survive strict
scrutiny and therefore violates the First Amendment.
The State rejoins that PPINK’s dissemination of
information about out-of-state abortion practices is
“professional speech,” and, as such, it is afforded
lesser protection under the First Amendment. This
argument is a nonstarter. Initially, we note that “[t]he
Supreme Court has never formally endorsed the professional speech doctrine.” Serafine v. Branaman, 810

146a
F.3d 354, 359 (5th Cir. 2016). While the Seventh Circuit has not had occasion to directly address the issue,
a number of other circuit courts have embraced the
doctrine based on Justice White’s concurrence in
Lowe v. SEC, 472 U.S. 181, 230–33 (1985). Id. at 359
n.2 (collecting cases). Even if we were to assume for
purposes of our analysis here that the professional
speech doctrine is valid, it is inapposite to the facts
before us. Indiana Code § 16-34-2-4.2(c) applies not
just to physicians and other professionals, but prohibits private citizens as well from disseminating information about out-of-state abortion services with the
intention of assisting a minor in obtaining an abortion
without the consent required under Indiana law.
Moreover, even if the restriction applied only to
medical providers, the professional speech doctrine is
still not applicable. Although the Supreme Court has
not set forth a specific test for what constitutes professional speech, lower courts, relying on Justice
White’s concurrence in Lowe, have opined that the
professional speech doctrine is “properly confined to
occupational-related speech made to individual clients.” Serafine, 810 F.3d at 360; see also Moore-King
v. County of Chesterfield, Va., 708 F.3d 560, 569 (4th
Cir. 2013) (“Professional speech analysis applies …
where a speaker ‘takes the affairs of a client personally in hand and purports to exercise judgment on behalf of the client in the light of the client’s individual
needs and circumstances.’”) (quoting Accountant’s
Soc’y of Va. v. Bowman, 860 F.2d 602, 604 (4th Cir.
1988)). The doctrine does not apply if “the personal
nexus between professional and client does not exist,

147a
and a speaker does not purport to be exercising judgment on behalf of any particular individual with
whose circumstances he is directly acquainted.” Serafine, 810 F.3d at 359 (quoting Lowe, 472 U.S. at 232).
Here, the information PPINK and its physicians
seek to convey to clients, to wit, factual information
concerning consent requirements and abortion options in other states, is not tied to any medical procedure or professional advice that PPINK is providing
to any particular individual patient. Rather, the fact
that other states may have more lenient parental consent and notification requirements for abortions is generic, non-medical information that does not involve
professional judgment, is publicly available from a
wide variety of sources, including the internet, and
could be provided by anyone. As PPINK argues, the
mere fact that this non-medical information is being
conveyed by medical providers does not transform it
into professional speech. Accordingly, as a contentbased restriction on pure speech, Indiana Code § 1634-2-4.2(c) is subject to strict scrutiny. See Tinker v.
Des Moines Indep. Cmty. Sch. Dist., 393 U.S. 503,
505–06 (1969). The State has not disputed that this is
a content-based restriction in any event.
To satisfy strict scrutiny, the State must show that
the amended statute is narrowly tailored to serve a
compelling state interest. Reed v. Town of Gilbert,
Ariz., 135 S.Ct. 2218, 2226 (2015). The State concedes
that it has little interest in prohibiting adult citizens
from receiving factual information about the availability of abortion services that are legal in other states
but may not be legal in Indiana. See, e.g., Bigelow v.

148a
Virginia, 421 U.S. 809, 827–28 (1975) (holding that
Virginia’s “interest in shielding its citizens from information about activities outside Virginia’s borders, activities that Virginia’s police powers do not reach …
was entitled to little, if any, weight”). However, the
State contends that it has broader authority to regulate the dissemination of such information to minors
as it has a compelling interest in safeguarding the
parent-child relationship and protecting the physical
and psychological well-being of minors, which interest
does not end at the State’s borders.
As we acknowledged above, these interests are undoubtedly compelling state interests. However, the
State has failed to show how these interests are advanced by prohibiting private individuals, including
medical providers, from disseminating information
about lawful abortion practices in other states. The
State has not articulated the specific psychological
harm to minors that is caused by the dissemination of
truthful information concerning lawful abortion options, particularly given that such information is
widely available to the public. Nor has the State presented evidence that prohibiting the mere dissemination of accurate facts about abortion services that are
lawfully available to minors outside of Indiana will
correspondingly promote family integrity or facilitate
family communication. “In the context of a First
Amendment challenge under the narrowly tailored
test, the government has the burden of showing that
there is evidence supporting its proffered justification.” Weinberg v. City of Chi., 310 F.3d 1029, 1038
(7th Cir. 2002). The State has failed to satisfy its burden on the facts currently before us. Accordingly,

149a
PPINK has shown that it is likely to succeed in establishing that the amendment cannot survive strict
scrutiny and therefore violates the First Amendment.
However, because there are various other valid applications of Indiana Code § 16-34-2-4.2(c) that do not
involve impermissible restrictions on speech, we find
that PPINK has demonstrated that it is likely to succeed only in establishing that this particular application of the amendment is unconstitutional. Accordingly, PPINK’s entitlement to injunctive relief extends only that far. See Ayotte v. Planned Parenthood
of N. New England, 546 U.S. 320, 328–29 (2006) (“We
prefer … to enjoin only the unconstitutional applications of a statute while leaving other applications in
force, … or to sever its problematic portions while
leaving the remainder intact.”) (internal citations
omitted).
III. Irreparable Harm/Inadequate Remedy at
Law
Relying on the constitutional nature of its claims,
PPINK argues that, absent injunctive relief, it will
face irreparable harm for which there is no adequate
remedy at law. The State does not contend that an adequate remedy at law exists, but argues that PPINK
has failed to establish that the denial of injunctive relief in the case at bar will result in irreparable harm.
However, the State’s contention rests entirely on the
conclusion that PPINK cannot show a likelihood of
success on the merits. For the reasons detailed above,
we disagree with the State’s argument and find that,
without injunctive relief, PPINK faces the denial of

150a
its constitutional rights, which is the quintessential
irreparable harm.
It is well established that “[w]hen an alleged deprivation of a constitutional right is involved, most
courts hold that no further showing of irreparable injury is necessary.” Campbell v. Miller, 373 F.3d 834,
840 (7th Cir. 2004) (internal quotation marks and citation omitted); see also Christian Legal Soc’y v.
Walker, 453 F.3d 853, 867 (7th Cir. 2006) (holding
that likelihood of success on First Amendment violation presumed to constitute irreparable injuries). Accordingly, we conclude that PPINK has made the necessary showing of irreparable harm. Moreover, because the State does not contend that PPINK has an
adequate remedy at law, coupled with the fact that
demonstrating irreparable harm is “probably the
most common method of demonstrating that there is
no adequate legal remedy,” see Campbell, 373 F.3d at
840 (citations omitted), we hold that PPINK has also
established that no adequate remedy at law exists.
IV. Balance of Equities and the Public Interest
Because PPINK has succeeded in making the requisite threshold showing of a reasonable likelihood of
success on the merits, no adequate remedy at law, and
irreparable harm absent injunctive relief, we now
“weigh[] the balance of harm to the parties if the injunction is granted or denied and also evaluate[] the
effect of an injunction on the public interest.” Planned
Parenthood of Ind., Inc. v. Comm’r of Ind. State Dep’t
of Health, 699 F.3d 962, 972 (7th Cir. 2012) (citations
omitted), cert. denied. The fact that we have found

151a
that PPINK has made a strong showing that it is
likely to succeed on the merits of its claims puts a judicial thumb on the scale in ruling in its favor, given
that “[t]he more likely it is that [the moving party]
will win its case on the merits, the less the balance of
harms need weigh in its favor.” Id. (citation omitted).
The State argues that it has a strong interest in
the implementation of statutes passed by the Indiana
General Assembly, but our court has previously recognized that the public “do[es] not have an interest in
the enforcement of a statute that … PPINK has
shown likely violates the [Constitution].” Planned
Parenthood of Ind. and Ky., Inc. v. Comm’r of Ind.
State Dep’t of Health, 984 F. Supp. 2d 912, 931 (S.D.
Ind. 2013). According to the State, SEA 404 serves the
public interest by furthering the State’s interests “in
protecting pregnant minors, encouraging parental involvement in their minor children’s decision to have
an abortion, and ultimately promoting fetal life.”
Defs.’ Resp. at 29. We do not dispute that the State
has such compelling interests, but as important as
those interests may be, the State cannot advance
those interests by enacting statutes that do not pass
constitutional muster. Given that PPINK has shown
a likelihood of prevailing on the merits of its claims
that the challenged provisions of SEA 404 place an
undue burden on a mature minor’s ability to obtain
an abortion, impose unconstitutionally vague standards on physicians, and unlawfully burden speech, we
hold that the balancing of harms and the public interest favor the issuance of a preliminary injunction.

152a
V.

Bond

Rule 65(c) of the Federal Rules of Civil Procedure
provides that “[t]he court may issue a preliminary injunction … only if the movant gives security in an
amount that the court considers proper to pay the
costs and damages sustained by any party found to
have been wrongfully enjoined or restrained.” However, it is well established under Seventh Circuit law
that “[u]nder appropriate circumstances bond may be
excused, notwithstanding the literal language of Rule
65(c).” Wayne Chem. Inc. v. Columbus Agency Serv.
Corp., 567 F.2d 692, 701 (7th Cir. 1977) (citations
omitted). Because the State is not facing any monetary injury as a result of the issuance of the preliminary injunction, we hold that no bond is required
here. See Habitat Educ. Ctr. v. United States Forest
Serv., 607 F.3d 453, 458 (7th Cir. 2010) (recognizing
there is no reason to require a bond in cases in which
“the court is satisfied that there’s no danger that the
opposing party will incur any damages from the injunction”).
VI. Conclusion
In striking the balances required by the Constitution, particularly in the area of abortion rights, it behooves all who have a hand in shaping governmental
policy, whether in the judiciary, the legislature, or the
executive branch, to keep two fundamental factual realities in mind:
First, these decisions always impose a direct and
immediate impact on the lives of all our citizens, not

153a
just women, but perhaps most of all on the women
who would seek to avail themselves of this highly significant procedure. The underlying principles that infuse these statutes and judicial opinions reach far beyond mere theory and legal debate to affect directly
the behavior and freedom of individuals, families,
communities, and society; and
Second, when it comes to our children, while parents or others entrusted with their care and wellbeing
have the lawful and moral obligation always to act in
their best interests, children are not bereft of separate
identities, interests, and legal standing. Thus, it is
both reasonable and just, as the law recognizes, that
the closer a minor child is in age, maturity, and other
circumstances to reaching her majority and the further along she has moved on the continuum towards
self-determination, the more expansive are her legal
entitlements.
For the reasons detailed above, Plaintiff’s Motion
for Preliminary Injunction is GRANTED. Defendants
(with the exception of the Judge of the Marion Superior Court, Juvenile Division) are hereby PRELIMINARILY ENJOINED until further order of this Court
from enforcing the following sections of Senate Enrolled Act 404:
•

the bypass procedure set out in Indiana Code
§ 16-34-2-4 (eff. July 1, 2017);

• the new identification and affidavit requirements contained in Indiana Code § 16- 34-24(a) and (k) (eff. July 1, 2017); and

154a
• Indiana Code § 16-34-2-4.2(c), only insofar as it
would prohibit persons, including PPINK and
its physicians, from disseminating to minors
information regarding legal abortion practices
in states other than Indiana.
Defendants are hereby further ordered to inform
forthwith all the affected Indiana state governmental
entities of this injunction.
IT IS SO ORDERED.
Date: 6/28/2017

Distribution:
Gavin Minor Rose
ACLU OF INDIANA
grose@aclu-in.org
Kenneth J. Falk
ACLU OF INDIANA
kfalk@aclu-in.org
Jan P. Mensz
ACLU OF INDIANA
jmensz@aclu-in.org

155a
Andrew Beck
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
abeck@aclu.org
Thomas M. Fisher
OFFICE OF THE ATTORNEY GENERAL
tom.fisher@atg.in.gov
Matthew Richard Elliott
OFFICE OF THE INDIANA ATTORNEY GENERAL
Matthew.Elliott@atg.in.gov
Jennifer Sandman
PLANNED PARENTHOOD FEDERATION
OF AMERICA
jennifer.sandman@ppfa.org
Melissa A. Cohen
PLANNED PARENTHOOD FEDERATION
OF AMERICA
melissa.cohen@ppfa.org

156a
In the
United States Court of Appeals
For the Seventh Circuit
No. 17-2428
PLANNED PARENTHOOD OF INDIANA AND KENTUCKY,
INC.,
Plaintiff-Appellee,
v.
KRISTINA BOX*, Commissioner, Indiana
State Department of Health, et al.,
Defendants-Appellants.
––––––––––––––––––––
Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:17-CV-01636-SEB-DML — Sarah EvansBarker, Judge.
––––––––––––––––––––
On Petition for Rehearing and Rehearing En Banc
––––––––––––––––––––
OCTOBER 30, 2019
Before WOOD, Chief Judge, FLAUM, EASTERBROOK,
KANNE, ROVNER, SYKES, HAMILTON, BARRETT, BRENNAN, SCUDDER, and ST. EVE, Circuit Judges.
PER CURIAM. On consideration of defendantsappellants’ petition for rehearing and rehearing en
banc, filed on September 24, 2019, a majority of
* We have substituted the current Commissioner, Indiana
State Department of Health, for her predecessor, sued in an official capacity. Fed. R. App. P. 43(c)(2).

157a
judges in active service voted to deny the petition for
rehearing en banc. Judges Flaum, Kanne, Barrett,
Brennan, and Scudder voted to grant the petition for
rehearing en banc. Judges Rovner and Hamilton
voted to deny panel rehearing; Judge Kanne voted to
grant panel rehearing.
Accordingly, the petition for rehearing and rehearing en banc filed by defendants-appellants is DENIED.
EASTERBROOK, Circuit Judge, with whom SYKES,
Circuit Judge, joins, concurring in the denial of rehearing en banc. Talk is cheap, which makes it easy
for the plaintiffs in a preenforcement suit to predict
the worst and demand that an in- junction issue before the disaster comes to pass. If the judge issues the
injunction, the prediction cannot be tested—unless by
chance a similar rule in some other state is not enjoined, and then the judiciary can learn by that experience. See, e.g., A Woman’s Choice—East Side
Women’s Clinic v. Newman, 305 F.3d 684 (7th Cir.
2002). Unless a baleful outcome is either highly likely
or ruinous even if less likely, a federal court should
allow a state law (on the subject of abortion or anything else) to go into force; otherwise the prediction
cannot be evaluated properly. And principles of federalism should al- low the states that much leeway.
Talk of the states as laboratories is hollow if federal
courts enjoin experiments before the results are in.
One case pending before the Supreme Court arises
from a pre-enforcement injunction. A district court

158a
predicted that enforcement of an admitting-privileges
requirement would close two of the three abortion
clinics in Louisiana. June Medical Services LLC v.
Kliebert, 250 F. Supp. 3d 27 (M.D. La. 2017). The
court of appeals reversed, believing that prudent
steps by physicians would keep all three open. June
Medical Services L.L.C. v. Gee, 905 F.3d 787 (5th Cir.
2018), rehearing en banc denied, 913 F.3d 573 (5th
Cir. 2019). The Supreme Court granted a petition for
review. June Medical Services L.L.C. v. Gee, No. 18–
1323 (Oct. 4, 2019). Before the Justices can address
whether Louisiana’s statute creates an “undue burden,” they must first decide what it would do if implemented—and the pre-enforcement injunction has
made that difficult. (The Court stayed the Fifth Circuit’s decision, so the injunction re- mains in effect.)
Perhaps the Justices will say something about the circumstances under which it is appropriate for a district court to issue pre-enforcement relief that forever
prevents the judiciary from knowing what a law really
does.
If that happens, a grant of rehearing en banc in
this case would be unproductive. And whether or not
it happens, a grant of rehearing en banc would delay
the ultimate resolution of this dispute. For a court of
appeals cannot decide whether requiring a mature
minor to notify her parents of an impending abortion,
when she cannot persuade a court that avoiding notification is in her best interests, is an “undue bur- den”
on abortion. The “undue burden” approach announced
in Planned Parenthood of Southeastern Pennsylvania
v. Casey, 505 U.S. 833 (1992), does not call on a court
of appeals to interpret a text. Nor does it produce a

159a
result through interpretation of the Supreme Court’s
opinions. How much burden is “undue” is a matter of
judgment, which depends on what the burden would
be (something the injunction prevents us from knowing) and whether that burden is excessive (a matter
of weighing costs against benefits, which one judge is
apt to do differently from another, and which judges
as a group are apt to do differently from state legislators). Only the Justices, the proprietors of the undueburden standard, can apply it to a new category of
statute, such as the one Indiana has enacted. Three
circuit judges already have guessed how that inquiry
would come out; they did not agree. The quality of our
work cannot be improved by having eight more circuit
judges try the same exercise. It is better to send this
dispute on its way to the only institution that can give
an authoritative answer.
KANNE, Circuit Judge, with whom FLAUM, BARRETT, BRENNAN, and SCUDDER, Circuit Judges, join,
dissenting from the denial of rehearing en banc. This
case implicates an important and recurring issue of
federalism: Under what circumstances, and with
what evidence, may a state be pre- vented from enforcing its law before it goes into effect? Given the existing unsettled status of pre-enforcement challenges
in the abortion context, I believe this issue should be
decided by our full court. Preventing a state statute
from taking effect is a judicial act of extraordinary
gravity in our federal structure.

160a
Ind. Code § 16-34-2-4
Sec. 4. (a) No physician shall perform an abortion
on an unemancipated pregnant minor less than eighteen (18) years of age without first having obtained
from one (1) of the parents, a legal guardian, or a custodian accompanying the unemancipated pregnant
minor:
(1) the written consent of the parent, legal guardian,
or custodian of the unemancipated pregnant minor;
(2) government issued proof of identification of the
parent or the legal guardian or custodian of the unemancipated pregnant minor; and
(3) some evidence, which may include identification or
other written documentation that provides an articulable basis for a reasonably prudent person to believe
that the person is the parent or legal guardian or custodian of the unemancipated pregnant minor.
The physician shall keep records of the documents required under this subsection in the unemancipated
pregnant minor's medical file for at least seven (7)
years.
(b) A minor:

161a
(1)
who objects to having to obtain the written consent of her parent or legal guardian or custodian under this section; or
(2)
whose parent or legal guardian or custodian refuses to consent to an abortion;
may petition, on her own behalf or by next friend, the
juvenile court in the county in which the pregnant minor resides or in which the abortion is to be performed, for a waiver of the parental consent requirement under subsection (a) and the parental notification requirement under subsection (d). A next friend
may not be a physician or provider of abortion services, representative of the physician or provider, or
other person that may receive a direct financial benefit from the performance of an abortion.
(c) A physician who feels that compliance with the
parental consent requirement in subsection (a) would
have an adverse effect on the welfare of the pregnant
minor or on her pregnancy may petition the juvenile
court within twenty-four (24) hours of the abortion request for a waiver of the parental consent requirement under subsection (a) and the parental notification requirement under subsection (d).
(d) Unless the juvenile court finds that it is in the
best interests of an unemancipated pregnant minor to
obtain an abortion without parental notification following a hearing on a petition filed under subsection
(b) or (c), a parent, legal guardian, or custodian of a
pregnant unemancipated minor is entitled to receive
notice of the emancipated minor's intent to obtain an

162a
abortion before the abortion is performed on the unemancipated pregnant minor. The attorney representing the unemancipated pregnant minor shall serve
the notice required by this subsection by certified mail
or by personal service and provide the court with documentation of the attorney's good faith effort to serve
the notice, including any return receipt for a certified
mailing. The court shall retain the documentation
provided in the confidential records of the waiver proceedings held under this section.
(e) The juvenile court must rule on a petition filed
by a pregnant minor under subsection (b) or by her
physician under subsection (c) within forty-eight (48)
hours of the filing of the petition. Before ruling on the
petition, the court shall consider the concerns expressed by the pregnant minor and her physician. The
requirement of parental consent under this section
shall be waived by the juvenile court if the court finds
that the minor is mature enough to make the abortion
decision independently or that an abortion would be
in the minor's best interests. The juvenile court shall
waive the requirement of parental notification under
subsection (d) if the court finds that obtaining an
abortion without parental notification is in the best
interests of the unemancipated pregnant minor. If the
juvenile court does not find that obtaining an abortion
without parental notification is in the best interests
of the unemancipated pregnant minor, the court
shall, subject to an appeal under subsection (g), order
the attorney representing the unemancipated pregnant minor to serve the notice required under subsection (d).

163a
(f) Unless the juvenile court finds that the pregnant minor is already represented by an attorney, the
juvenile court shall appoint an attorney to represent
the pregnant minor in a waiver proceeding brought by
the minor under subsection (b) and on any appeals.
The cost of legal representation appointed for the minor under this section shall be paid by the county.
(g) A minor or the minor's physician who desires to
appeal an adverse judgment of the juvenile court in a
waiver proceeding under subsection (b) or (c) is entitled to an expedited appeal, under rules to be adopted
by the supreme court.
(h) All records of the juvenile court and of the supreme court or the court of appeals that are made as
a result of proceedings conducted under this section
are confidential.
(i) A minor who initiates legal proceedings under
this section is exempt from the payment of filing fees.
(j) This section does not apply where there is an
emergency need for a medical procedure to be performed to avert the pregnant minor's death or a substantial and irreversible impairment of a major bodily
function of the pregnant minor, and the attending
physician certifies this in writing.
(k) A physician receiving parental consent under
subsection (a) shall execute an affidavit for inclusion
in the unemancipated pregnant minor's medical record. The affidavit must

164a
(1) The physician's name.
(2) Certification that, to the physician's best information and belief, a reasonable person under similar
circumstances would rely on the information provided
by the unemancipated pregnant minor and the unemancipated pregnant minor's parent or legal guardian or custodian as sufficient evidence of identity and
relationship.
(3) The physician's signature.
(l) A person who, with intent to avoid the parental
notification requirements described in subsection (a),
falsely claims to be the parent or legal guardian or
custodian of an unemancipated pregnant minor by:
(1) making a material misstatement while purportedly providing the written consent described in subsection (a)(1); or
(2) providing false or fraudulent identification to meet
the requirement described in subsection (a)(2);
commits a Level 6 felony.

